<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2009</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]



 
  DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2009

                              ----------                              


                         WEDNESDAY, MAY 7, 2008

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:48 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Tom Harkin (chairman) presiding.
    Present: Senators Harkin, Murray, Cochran, and Specter.

                          DEPARTMENT OF LABOR

                        Office of the Secretary

STATEMENT OF HON. ELAINE L. CHAO, SECRETARY


                opening statement of senator tom harkin


    Senator Harkin. Good morning. The Appropriations 
Subcommittee on Labor, Health and Human Services, and Education 
will now come to order for the hearing on funding for the 
Department of Labor (DOL).
    Madam Secretary, earlier this year you gave a speech in 
which you said: ``The Department's fiscal year 2009 budget is 
nearly 15 percent less than 10 years ago. That is proof-
positive that the Government can do more with less.''
    Last year, President Bush vetoed the 2008 Labor 
appropriations bill stating that the bill ``spends too much,'' 
and that ``health care education, job training, and other goals 
can be achieved without this excessive spending if the Congress 
sets priorities.'' He also said, there were ``too many 
earmarks'' in our bill.
    I hope you do not mind if I respectfully disagree. Your 
Department, I think, is doing much less since President Bush 
took office. Much less. Under this administration, the Labor 
Department's ability to protect America's workers and support a 
prepared and competitive workforce has declined significantly. 
Two examples I want to point out.
    Last November, the Department of Labor Inspector General 
(IG) found that the Mine Safety and Health Administration 
(MSHA) had missed 15 percent of its mandated inspections 
nationally and in some areas as many as 30 to 50 percent. The 
IG also said that inspection quality was low, which jeopardized 
the safety of miners. You know what MSHA said in response? It 
said MSHA lacked the resources to hire new personnel to replace 
retiring inspectors and keep up with increases in mining 
activity.
    Again, with all due respect, Madam Secretary, that is not 
what I call doing more with less. It is called doing less with 
less.
    Let us look at another worker protection agency, the 
Occupational Safety and Health Administration (OSHA), where the 
enforcement staff is down 9 percent since 2001. Last year, the 
Chemical Safety and Hazard Investigation Board released a 
report on the BP Texas City refinery explosion in 2005 that 
resulted in the deaths of 15 workers and more than 100 
injuries. The board found that the Occupational Safety and 
Health Administration had not conducted one planned 
comprehensive inspection in the oil refining industry. Not one 
during the entire Bush presidency.
    As a result, OSHA committed to completing inspections at 
all refineries under its jurisdiction by the end of fiscal year 
2008. Now OSHA says it cannot finish them until the end of 
2009. So, again, is that doing more with less? I do not think 
so.
    It is not just worker protection programs where I believe 
the President's budget is underfunded. For the 7th year in a 
row, the President calls for disinvesting in our workforce and 
drastically cutting programs aimed at improving our global 
competitiveness. His budget would cut $474 million, or 16 
percent, for State grants for employment and training programs. 
These are the programs that will help workers develop the 
skills they need to find employment. Yet, the President sent 
this budget to us in February when the economy was shedding 
jobs and millions were out of work. So, Madam Secretary, ask 
the manufacturing worker in Ohio who has just lost his job, has 
two kids to support, is this doing more with less?
    Now, there is one area where the Bush administration wants 
to do more and is putting more funding into it, and that is 
going after labor unions. His budget proposes a 30 percent 
increase for the Office of Labor-Management Standards (OLMS) to 
support onerous new financial disclosure requirements for rank 
and file members, as well as other reporting requirements. Now, 
this is one office that has not been asked to do more with 
less.
    Meanwhile, much of the money that the Department has spent 
on President Bush's initiative to ``give workers the skills 
they need to realize their dreams''--that is quoting the 
President--was awarded without any competition. From 2001 to 
2006, the Department provided more than $250 million in grants 
on a noncompetitive basis under the High Growth Job Training 
Initiative. This amounted to 90 percent of the funds available 
under this initiative going out without any competition, 
otherwise known as an earmark.
    Now, regrettably, we have learned that there were 
significant problems with how these grants were awarded. We 
also know that the grantees were not monitored or evaluated 
effectively to determine whether the funds were well spent. We 
know this because of the Inspector General audit that I 
requested last year. Just this morning, the GAO, the Government 
Accountability Office, released a report that found many of the 
same problems identified by the IG.
    So, Madam Secretary, budgets are about priorities, and I 
believe this budget does not reflect the right priorities for 
American workers. Again, it proposes the greatest increase of 
all for new reporting requirements for rank and file union 
members, while slashing funding for job training and the fight 
against child labor. So as we move forward through the budget 
process, I am going to do everything I can to fight for 
investments that keep our work sites safe and workers' skills 
sharp.
    With that, I will recognize my ranking member, Senator 
Specter, for an opening statement.


               opening statement of senator arlen specter


    Senator Specter. Thank you, Mr. Chairman. At the outset, I 
thank you for our long cooperative relationship. When the power 
in the Senate has changed, as you and I say, the gavel shifts 
seamlessly.
    I join you in welcoming the Secretary of Labor, who has the 
distinction of having served the entire tenure of President 
Bush's two terms, the longest serving cabinet officer and the 
only cabinet officer to be through two terms. So we note that, 
Madam Secretary, and the very hard and devoted work you have 
undertaken in a very, very difficult circumstance.
    The reduction in the overall budget for your Department I 
think is unfortunate, but I understand what is happening here 
with the limited discretionary funding. It would be my hope 
that one day in the not too far distant future, there would be 
a re-evaluation of priorities.
    I talk in the far distant future of becoming chairman of 
the committee, and I am second only to Senator Cochran who is 
term-limited. Every 6 years or so, the parties change. I may 
get to be chairman ahead of Senator Harkin.
    Senator Harkin. You know that would be okay with me.
    Senator Specter. Do I have your vote?
    Senator Harkin. If you were chairman--well, anyway, I will 
not get into that.
    Senator Specter. I mention that not at all in jest because 
of what I consider to be the need for the re-evaluation of 
priorities to give you more funding.
    I was disappointed, for example, that your budget proposes 
major decreases in community service employment for older 
Americans in Job Corps and eliminates adult employment in youth 
training programs. Well, that is unfortunate, but I understand 
you have a limited budget which has been decreased in absolute 
dollars, and when you take the cost-of-living adjustments, even 
more.
    I do want to note a couple of issues specifically, and one 
is the tremendous incidence of juvenile crime hitting my 
hometown of Philadelphia especially hard--400 homicides a year. 
Earlier this week, a police officer brutally killed in a 
robbery. I note the $50 million which has been put in 
mentoring, and commend you for the prompt disbursal of those 
funds. I would urge you to do more.
    The initiative that I put in for $25 million for mentoring, 
$5 million to each of five major cities in America, one of 
which is Philadelphia, should be helpful.
    In the balance of your administration, I would urge you to 
take a very, very close look at what is happening in the Utah 
mine tragedy. Worker safety is vital. Senator Harkin has 
highlighted it on what OSHA needs to be doing far in advance of 
the end of fiscal year 2009. I associate myself with those 
remarks.
    I would also commend to you special activities to try to 
have confirmations of the National Labor Relations Board 
(NLRB). It has two members and cannot function. There are 
enormous delays which prejudice both labor and management where 
cases take 5 years or more before they come up.
    I regret the necessity to excuse myself at this point, but 
the Judiciary Committee is having a very key hearing on the 
confirmation for the Sixth Circuit, and I am the ranking member 
there. So, I will be following the hearing closely. We will 
have some questions for the record. My absence will not be 
really missed because I note the presence of our distinguished 
ranking member, Senator Thad Cochran.
    Thank you.
    Senator Harkin. Thank you.
    Senator Cochran.


                   statement of senator thad cochran


    Senator Cochran. Mr. Chairman, thank you. I am glad to be 
here to join you in welcoming the distinguished Secretary of 
Labor to our committee to review the budget request for the 
next fiscal year.
    It is increasingly important, I think, that our Nation's 
workers and employers have the necessary resources to meet the 
demands of the global economy. We have always tried to work 
with the administration to ensure that American workers receive 
both the education and the skill preparations they need to 
enter and maintain in a quality performance level in our 
workforce.
    But increasingly higher levels of education and advance 
skills are required to be competitive in the new environment. 
That is why I am pleased to see the President include in the 
budget a request for approximately $7.3 billion for the 
Department's Employment and Training Administration (ETA), 
which is designed to increase the competitiveness of the 
American workforce. I look forward, Madam Secretary, to hearing 
your ideas on how these programs will evolve and how the funds 
will be used to accomplish this important goal.
    Getting our youth more interested and involved in the 
opportunities of the workplace will help fill the demands of 
our labor force in the years ahead. The Job Corps and 
YouthBuild programs are good examples of how we can reach young 
people and provide the training they need to be productive 
members of the workforce. The President includes a request for 
$1.5 billion and $50 million, respectively, for these two 
programs. Your perspective on the future of the programs and 
how these funds will be put to use would be appreciated.
    Madam Secretary, I know the challenges the Department faces 
are very interesting and unique, particularly in the 
development and maintenance of our labor market. I am impressed 
with your efforts and hard work over the years and certainly 
those efforts that are designed to maintain qualified and 
sustainable workforce participants. That is critical to our 
Nation's future.
    Thank you.
    Senator Harkin. Thank you very much, Senator Cochran.
    Madam Secretary, again, welcome to the committee and the 
floor is yours. Please proceed as you so desire.


                summary statement of hon. elaine l. chao


    Secretary Chao. Thank you, Mr. Chairman, Senator Cochran, 
for the opportunity to present the administration's fiscal year 
2009 budget for the Department of Labor.
    The total Department budget is $53.1 billion, of which 
$10.5 billion is for discretionary spending.
    The Department's fiscal year 2009 budget focuses on five 
overall priorities: protecting worker safety and health; 
protecting workers' pay, benefits, pensions, and union member 
rights; securing the employment rights of America's veterans; 
increasing the competitiveness of America's workforce; and 
modernizing the temporary foreign labor certification programs.
    In fiscal year 2009, $1.4 billion is requested for the 
Department's worker protection activities. The Department has 
consistently increased our budget for worker protection, and 
the Department has consistently requested increases in our 
budget for worker protection activities. Over the last 7 years, 
we have seen consistent record results on worker safety and 
protection.
    In terms of MSHA, $332.1 million and 2,361 FTEs are 
requested. Please note again that we are increasing funding for 
enforcement. While there was a slight reduction over the fiscal 
year 2008 enacted level, this is due to the fact that some 
funds appropriated for fiscal year 2008 were one-time expenses, 
including the overtime, travel expenses, and new roof needed in 
the training facility in Beckley, West Virginia. This request 
enables MSHA to continue implementing the historic MINER Act 
and maintains our strong commitment to mine safety and health. 
It includes $7.4 million specifically targeted to support and 
train an additional 55 mine safety enforcement personnel. This 
is also in addition to the 304 coal enforcement personnel hires 
since June 2006. This budget will support MSHA's efforts to 
finalize rules on belt air and mine refuge chambers and 
vigorously enforce increased monetary penalties.
    Our fiscal year 2009 request also includes $501.7 million 
and 2,173 FTEs for OSHA. This is, again, a 3 percent increase 
over last year's enacted level.
    The request for ESA is for $468.7 million and 3,190 FTEs.
    This includes $193 million and 1,283 FTEs for Wage and Hour 
including $5.1 million to hire an additional 75 inspectors. The 
ESA request also includes $89 million and 585 FTEs for OFCCP, 
and another $110 million and 872 FTEs are requested for the 
Worker Compensation programs.
    Let me note that the Department of Labor recently passed a 
$3.5 billion mark in compensation to EEOICPA beneficiaries, and 
initial decisions have been made in all of the 22,000 part E 
cases that were transferred to DOL from the Department of 
Energy in 2004.
    The ESA request also includes $58.3 million and 369 FTEs 
for the Office of Labor-Management Standards. This is the same 
request as requested last year.
    There seems to be some angst among some special interest 
groups about the increases in this budget. This is less than 
one-tenth of 1 percent in the total budget of the Department of 
Labor. 1,500 audits were conducted in 1985. By the end of 2000, 
the number of audits had dropped below 220. We are merely 
trying to restore the budget and enforce the law.
    For EBSA, the request is $147.9 million. This is an 
increase of 6 percent over the fiscal year 2008 levels, and a 
total of 867 FTEs.
    For VETS, our budget request is $238.4 million and 234 
FTEs. This is a 5 percent increase over the previous year's 
enacted level.


                           prepared statement


    As you know, our country is transitioning to a knowledge-
based economy. New jobs are being created, but many require 
more education and higher skills. It is noteworthy to note that 
States have carried forward over $1 billion in unspent 
Workforce Investment Act funds on average every year. There is 
an urgent need for worker training now, and I will be more than 
glad to talk about ETA and the budget and what we should do 
about reforming the system to better suit the needs of workers 
in the 21st century economy.
    Thank you.
    [The statement follows:]
                  Prepared Statement of Elaine L. Chao
    Good morning Mr. Chairman, Senator Specter, distinguished members 
of the subcommittee, ladies and gentlemen. Thank you for the 
opportunity to appear before you today to present the fiscal year 2009 
budget for the Department of Labor.
    The total request for the Department in fiscal year 2009 is $53.1 
billion and 16,848 FTE, of which $13 billion is before the committee. 
Of that amount, $10.5 billion is requested for discretionary budget 
authority. Our budget request will allow us to build on the 
accomplishments achieved in recent years and enable the Department to 
meet its critical priorities for fiscal year 2009, while helping to 
achieve the President's deficit reduction goals by reforming programs 
and reducing or eliminating ineffective or duplicative activities.
                        notable accomplishments
    Over the past 7 years, the Department's agencies that protect 
workers' health, safety, benefits, pay, and union member rights have 
achieved record-setting results for America's workers and their 
families. For example:
  --Since 2001, the Wage and Hour Division has increased by 67 percent 
        the back wages recovered for workers. In 2007 alone, a record 
        $220.6 million was recovered for workers, including many 
        vulnerable workers in low-wage industries, who did not receive 
        the wages they were due.
  --Between 2001 and 2007, the Employee Benefits Security 
        Administration, which has oversight over nearly every private 
        pension plan in America, closed over 28,000 civil cases and 
        over 1,200 criminal cases; recovered or protected nearly $11 
        billion for plans and participants; and, working with the 
        Department of Justice and State and local prosecutors, obtained 
        indictments against more than 800 individuals for crimes 
        against plans and participants.
  --Since 2001, the workplace fatality and serious injury and illness 
        rates have fallen to record lows. Since 2002, the overall 
        injury and illness rate has declined by 17 percent and the 
        worker fatality rate has remained at historically low levels. 
        Perhaps most notable is the reduction in the fatality rate 
        among Hispanic workers, which has declined by 17 percent since 
        2001.
  --Since 2001, the Department's Office of Federal Contract Compliance 
        Programs has posted record results in enforcing equal 
        opportunity rights for employees of Federal contractors, with 
        an increase in financial recoveries of 78 percent between 2001 
        and 2007. Our efforts to ensure that Federal contractors 
        achieve equal opportunity workplaces resulted in a 245 percent 
        increase from fiscal year 2001 to fiscal year 2007 in the 
        number of Americans recovering back pay and benefits.
  --Since 2001, we have rebuilt the Department's Office of Labor-
        Management Standards' capability to enforce the laws that 
        require union transparency and protect union democracy. As a 
        result, from fiscal year 2001 to fiscal year 2007, the number 
        of financial compliance audits has risen by 226 percent, and 
        the number of convictions has increased by 16 percent.
  --We have implemented a number of new programs to assist America's 
        veterans. The Department launched the national HireVets First 
        campaign designed to help employers tap this pool of talent as 
        our service men and women transition to civilian life. In 2004, 
        the Department created REALifelines, a comprehensive new 
        program to provide individualized job training, counseling, and 
        re-employment services to each and every service member 
        seriously injured or wounded in the War on Terrorism.
                      fiscal year 2009 priorities
    The Department's fiscal year 2009 budget seeks to build on the 
success of previous years. The budget features five critical 
priorities: protecting workers' safety and health; protecting workers' 
pay, benefits, pensions, and union member rights; modernizing the 
temporary foreign labor certification programs; providing additional 
resources and services for our Nation's veterans and transitioning 
service members; and increasing the competitiveness of America's 
workforce. In fiscal year 2009, the Department will continue to pursue 
regulatory reforms and strengthening policies that encourage growth, 
job creation, and opportunity.
                 protecting workers' safety and health
    The 2009 budget includes $1.5 billion in discretionary funds for 
DOL's worker protection activities. Within this funding level, $833.7 
million is requested to enable the Department to continue to pursue its 
record-setting protection of workers' safety and health.
Mine Safety and Health Administration (MSHA)
    The fiscal year 2009 budget request for MSHA is $332.1 million and 
2,361 FTE. The request will allow MSHA to continue implementing the 
historic Mine Improvement and New Emergency Response (MINER) Act, the 
most sweeping mine safety legislation in 30 years.
    The request includes $7.4 million specifically targeted to support 
and train an additional 55 mine safety enforcement personnel. These 
additional personnel, in addition to the more than 300 enforcement 
personnel hired since July 2006, will enable MSHA to complete 100 
percent of mandated annual mine inspections in both coal and metal and 
nonmetal mines. The 2009 budget will also support MSHA's work to 
finalize rules on belt air and mine refuge alternatives and implement 
stronger civil penalties, in accordance with the final rules published 
in fiscal year 2007 and fiscal year 2008.
Occupational Safety and Health Administration (OSHA)
    The fiscal year 2009 budget request for OSHA is $501.7 million and 
2,173 FTE. The request provides resources to support 87,200 Federal and 
State safety and health inspections.
    The request reflects an increase of $15.7 million and 47 FTE above 
fiscal year 2008, which includes an increase of $11.4 million to 
support enforcement programs and $5.2 million to provide compliance 
assistance to employers and employees, especially small businesses. The 
budget supports OSHA's balanced approach to worker safety and health 
which includes aggressive enforcement, cooperative programs, outreach, 
and education.
           protecting workers' pay, benefits, and union dues
    In fiscal year 2009, the Department will also continue its high 
priority programs to protect workers' pay, benefits and union dues.
Employment Standards Administration
    The Department's Employment Standards Administration (ESA) is DOL's 
largest agency, which administers and enforces a variety of laws 
designed to enhance the welfare and protect the rights of American 
workers. The fiscal year 2009 budget request includes discretionary 
resources for ESA administrative expenses of $468.7 million and 3,190 
FTE, and a proposal to cancel $30 million in H-1B fund balances.
Wage and Hour Division
    The Wage and Hour Division is responsible for the administration 
and enforcement of a wide range of worker protection laws, including 
the Fair Labor Standards Act, Family and Medical Leave Act, Migrant and 
Seasonal Agricultural Worker Protection Act, worker protections 
provided in several temporary non-immigrant visa programs, and 
prevailing wage requirements of the Davis-Bacon Act and the Service 
Contract Act. These laws collectively cover virtually all private 
sector workers, as well as State and local government employees.
    The fiscal year 2009 budget request for the Wage and Hour Division 
totals $193.1 million and 1,283 FTE, which excludes $31 million in 
estimated fee revenue from DOL's portion of the H-1B visa fraud 
prevention fee authorized by the 2004 H-1B Visa Reform Act. Given the 
strict statutory limits on the use of these funds, DOL has only been 
able to spend around $6 million in any single year. Therefore, the 
fiscal year 2009 budget cancels $30 million of the H-1B fund balances 
and proposes amendments to the Immigration and Nationality Act to 
permit a more effective use of the fraud prevention fees collected 
under this provision.
    The fiscal year 2009 budget also includes $5.1 million to hire an 
additional 75 Wage and Hour enforcement staff to target resources on 
industries and workplaces that employ low-wage immigrant workers. 
Finally, the fiscal year 2009 Budget includes $962,500 for seven legal 
enforcement support FTE for the Office of the Solicitor.
Office of Federal Contract Compliance Programs
    The fiscal year 2009 budget request for the Office of Federal 
Contract Compliance Programs (OFCCP) totals $89 million and 585 FTE. 
OFCCP is responsible for ensuring equal employment opportunity and non-
discrimination in employment for businesses contracting with the 
Federal Government. OFCCP carries out this mandate by conducting 
compliance evaluations to identify instances of systemic discrimination 
in the workplace, taking appropriate enforcement action, and providing 
relevant and effective compliance assistance programs. The fiscal year 
2009 budget request for OFCCP includes $2 million to launch the design 
phase of the Federal Contractor Compliance System, a new case 
management system to improve the effectiveness and efficiency of 
OFCCP's compliance and enforcement strategies. It will replace the 
existing OFCCP Information System, which was developed more than 20 
years ago and is functionally inadequate to meet current program needs.
Office of Workers' Compensation Programs
    The fiscal year 2009 discretionary Budget request for 
administration of the Office of Workers' Compensation Programs (OWCP) 
totals $110.2 million and 872 FTE to support the Federal Employees' 
Compensation Act (FECA) ($96.2 million) and the Longshore and Harbor 
Workers' Compensation program ($14.1 million). The fiscal year 2009 
budget for the Longshore program includes $500,000 for addressing 
workers' compensation claims submitted under the Defense Base Act for 
civilian workers in Iraq and Afghanistan.
    The OWCP budget includes mandatory funding totaling $108.2 million 
and 598 FTE for the Department's role in administering the Energy 
Employees Occupational Illness Compensation Program Act (EEOICPA). 
EEOICPA provides compensation and medical benefits to employees or 
survivors of employees of the Department of Energy and certain of its 
contractors and subcontractors, who suffer from a radiation-related 
cancer, beryllium-related disease, chronic silicosis or other covered 
illness as a result of work at covered Department of Energy or DOE 
contractor facilities. The 2009 budget requests that resources for the 
EEOICPA program activities carried out by the National Institute for 
Occupational Safety and Health be requested directly in the Department 
of Health and Human Services budget. This funding request will enhance 
congressional oversight, while improving the financial management and 
transparency of EEOICPA's dose reconstruction and Special Exposure 
Cohort program.
    Lastly, OWCP's fiscal year 2009 budget includes $37 million in 
mandatory funding and 195 FTE for its administration of Parts B and C 
of the Black Lung Benefits Act, and $52.7 million and 127 FTE in FECA 
Fair Share administrative funding.
    The 2009 budget includes two legislative proposals affecting OWCP 
programs that play a critical role in protecting workers' economic 
security, by providing monetary and medical benefits to Federal 
employees and coal miners whose ability to work has been diminished by 
an occupational injury or illness. The first re-proposes reforms to 
FECA to update its benefit structure, adopt best practices of State 
workers' compensation systems, and strengthen return-to-work 
incentives. This proposal is expected to generate Government-wide 
savings of $377 million over 10 years. The second is a proposal to 
restructure, and eventually retire, the mounting debt of the Black Lung 
Disability Trust Fund--a debt that now stands at $10 billion.
Office of Labor-Management Standards
    The fiscal year 2009 Budget request for the Office of Labor-
Management Standards (OLMS) totals $58.3 million and 369 FTE. OLMS 
enforces provisions of Federal law that establish standards for union 
democracy and financial integrity. OLMS conducts investigative audits 
and criminal investigations, primarily for embezzlement; conducts civil 
investigations of union officer elections and supervises remedial 
elections where required; administers statutory union financial 
reporting requirements; and provides for public disclosure of filed 
reports. OLMS also administers employee protective provisions created 
under Federal transit legislation. The resources requested will allow 
OLMS to continue all core mission work and to further the goals of 
union financial integrity, democracy, and transparency.
Employee Benefits Security Administration
    The Department's Employee Benefits Security Administration (EBSA) 
protects the integrity of pensions, health plans, and other employee 
benefit plans holding some $5.6 trillion in assets for more than 150 
million Americans. The fiscal year 2009 budget request for EBSA is 
$147.9 million and 867 FTE. The request will maintain the strong 
enforcement record of recent years, and support oversight of pension 
and health care plans and other employee benefits. Also in fiscal year 
2009, EBSA will transition to a streamlined, entirely electronic filing 
system for the Form 5500 Annual Report which is filed by approximately 
1 million employee benefit plans. These reports provide essential 
information on pension and other benefit plans' financial condition, 
investments, and operations. The move to electronic filing will 
substantially reduce processing times for the Form 5500 and improve the 
reliability of the data reported on the form. By making data on the 
funding of pension and other benefit plans more transparent and 
accessible, this new system will support the President's efforts to 
strengthen retirement security for the Nation's workers and retirees.
Pension Benefit Guaranty Corporation
    The fiscal year 2009 request for the Pension Benefit Guaranty 
Corporation's (PBGC) administrative expenses is $444.7 million. The 
PBGC is now responsible for paying the benefits of 1.3 million workers 
and retirees. While the Pension Protection Act of 2006 made significant 
structural changes to the retirement system, the PBGC is still not 
solvent on a long-term basis. Although PBGC will be able to pay 
benefits for some years to come, it is projected to be unable to meet 
its long-term obligations under current law. Further reforms are needed 
to address the $14 billion gap between PBGC's liabilities and its 
assets. If there is not enough money in the system to cover worker 
benefits, taxpayers are at risk for having to cover the shortfall. The 
fiscal year 2009 budget proposes to give PBGC's Board the authority to 
adjust premiums to produce the revenue necessary to meet expected 
future claims and retire PBGC's deficit over 10 years. Proposed premium 
reforms will improve PBGC's financial condition and safeguard the 
future benefits of American workers and retirees.
         increasing the competitiveness of america's workforce
Reforming the Workforce Investment System
    The fiscal year 2009 budget request for the Department's Employment 
and Training Administration (ETA) is $6.3 billion in discretionary 
funds and 1,148 FTE, which includes the 152 FTE associated with the 
legislative proposals for application fees in the permanent and 
temporary labor certification programs. Through innovative reforms, the 
budget request for ETA will allow the Department to increase the 
competitiveness of the American workforce in a knowledge-based economy.
    The United States competes in a global economy that is far 
different from the international markets of the past. In the future, as 
in the past, our long-term economic growth will also be enhanced by 
supporting international trade, by opening world markets to U.S. goods 
and services and by keeping our markets open. Congress can help create 
jobs and economic opportunity by passing the pending Free Trade 
Agreements with Colombia, Panama and South Korea. As our Nation's 
economy and businesses transform to meet the challenges of the 21st 
century, so too must the Government systems and structures that support 
our economic growth and job creation.
    It is in this context that the President has sought to transform 
worker training programs into a demand-driven system that prepares 
workers for jobs in growth sectors of the economy. The workforce 
investment system should recognize and strengthen workers' ownership of 
their careers, and provide more flexible resources and services 
designed to meet their changing needs.
    American workers will need higher levels of education and skills 
than at any time in our history, as evidenced by the fact that almost 
90 percent of new jobs in high-growth, high-wage occupations are 
expected to be filled by workers with at least some post-secondary 
education. However, the current workforce investment system does not 
provide the necessary education and training opportunities for workers. 
Too much money is spent on competing bureaucracies, overhead costs, and 
unnecessary infrastructure, and not enough on meaningful skills 
training that leads to employment opportunities and advancement for 
workers.
    To increase the quality of training offered, as well as the number 
of workers trained, the Department proposes legislative reforms to 
consolidate funds for the following programs into a single funding 
stream:
  --Workforce Investment Act (WIA) Adult Program;
  --WIA Dislocated Worker Program;
  --WIA Youth Program; and
  --Employment Service programs (including Employment Service formula 
        grants, labor market information grants, and grants for 
        administration of the Work Opportunity Tax Credit).
    States would use these funds primarily to provide Career 
Advancement Accounts (CAAs) to individuals who need employment 
assistance. CAAs are self-directed accounts of up to $3,000, an amount 
sufficient to finance approximately 1 year's study at a community 
college. The accounts could be renewed for one additional year, for a 
total 2-year account amount of up to $6,000 per worker. CAAs would be 
used to pay for expenses directly related to education and training. 
The accounts would be available to both adults and out-of-school youth 
entering the workforce or transitioning between jobs, and incumbent 
workers in need of new skills to remain employed. The funds would also 
be used by States to provide basic employment services such as career 
assessment, workforce information, and job search assistance to job 
seekers. By removing bureaucratic restrictions that can prevent workers 
from being trained, increasing the flexibility of State and local 
officials to shift funding to where it is most needed, and requiring 
the majority of dollars in the system to be spent on training, these 
reforms will significantly increase the number of individuals who 
receive job training and attain new and higher-level job skills.
Community-Based Job Training Initiative
    The fiscal year 2009 budget provides $125 million for the fifth 
year of grants under the President's Community-Based Job Training 
Initiative. This competitive grant program leverages the expertise of 
America's community colleges and takes advantage of the strong natural 
links between community colleges, local labor markets and employers to 
train workers for jobs in high-demand industries. In October 2005, the 
Department awarded the first grants totaling $125 million to 70 
community colleges in 40 States. A second competition for Community-
Based Job Training Grants was held in the summer of 2006, and in 
December 2006, the Department awarded $125 million in grants to 72 
entities in 34 States. In March 2008, the Department awarded $125 
million to 69 community colleges and community-based institutions that 
competed successfully for the third round of Community-Based Job 
Training Grants. The administration strongly supports providing 
standalone funding for this program, rather than redirecting funds from 
the National Reserve, which should be preserved to allow the Department 
to respond to emergency and unanticipated situations.
Foreign Labor Certification
    The fiscal year 2009 budget builds on our successes in reforming 
the Foreign Labor Certification programs. The Department has eliminated 
the backlog in the Permanent (PERM) program, which peaked at 363,000 
applications in 2005. In the fiscal year 2009 budget, the Department is 
requesting $78 million for the foreign labor programs, an increase of 
$24 million from fiscal year 2008. The request includes $7.5 million 
for a new case management system for the foreign labor programs, $5.7 
million to assist States in processing anticipated H-2A and H-2B 
workload increases, $4 million for Federal staff to process anticipated 
workload increases, and $6.2 million to restore funds for inflationary 
costs not provided under the fiscal year 2008 Omnibus appropriation. 
This system will allow on-line application filings, replace four 
separate systems with a single integrated system, and combat fraud by 
allowing ETA to track employers' use of the various programs.
    In fiscal year 2009, the Department will complete its reforms to 
the H-2A and H-2B Temporary Labor programs. The budget also proposes 
legislation to authorize cost-based, employer-paid application fees in 
the foreign labor programs to cover the costs of running the programs. 
This will enable the programs to efficiently manage the workload with a 
predictable funding source. It is essential to prevent the re-emergence 
of backlogs in the PERM program, and to streamline processing under the 
temporary programs.
A Second Chance for Ex-Offenders
    As you know, last month the President signed into law the Second 
Chance Act of 2007. This act builds on the work begun under the 
President's Prisoner Re-Entry Initiative, and authorizes the Department 
of Labor to award grants to nonprofit organizations to provide 
mentoring, job training and job placement services to assist eligible 
offenders in obtaining and retaining employment. The Second Chance Act 
authorizes $20 million to be appropriated in each of fiscal years 2009 
and 2010 for these grants. The administration will work with the 
Congress to determine the appropriate level of funding for the new 
program within the fiscal year 2009 Budget request of $39.6 million for 
Reintegration of Ex-Offenders, the predecessor pilot program.
Strengthening Unemployment Insurance Integrity and Promoting Re-
        Employment
    The fiscal year 2009 budget continues the administration's efforts 
to ensure the financial integrity of the Unemployment Insurance (UI) 
system, and help unemployed workers return to work promptly. Our three-
pronged approach includes:
  --A package of legislative changes that would prevent, identify, and 
        collect UI overpayments and delinquent employer taxes. These 
        changes include: allowing States to use a small amount of 
        recovered overpayments and collected delinquent taxes to 
        support additional integrity efforts; authorizing the U.S. 
        Treasury to recover UI benefit overpayments and certain 
        delinquent employer taxes from Federal income tax refunds; 
        requiring States to impose a penalty on UI benefits that 
        individuals obtain through fraud and using those funds for 
        integrity activities; and requiring employers to include a 
        ``start work'' date on New Hire reports to help identify 
        persons who have returned to work but continue to receive UI 
        benefits. We estimate that these legislative proposals would 
        reduce overpayments of UI benefits by $5 billion and employer 
        tax evasion by $400 million over 10 years.
  --A $40 million discretionary funding increase over the fiscal year 
        2008 enacted level to expand Reemployment and Eligibility 
        Assessments, which review UI beneficiaries' need for re-
        employment services and their continuing eligibility for 
        benefits through in-person interviews in One-Stop Career 
        Centers. This initiative has already yielded quicker returns to 
        work for UI beneficiaries. We estimate that a total of $155 
        million in benefit savings could result from this investment.
  --A legislative proposal to permit waivers of certain Federal 
        requirements to allow States to experiment with innovative 
        projects aimed at improving administration of the UI program, 
        and speeding the re-employment of UI beneficiaries.
    We urge the Congress to act on these important proposals to 
strengthen the financial integrity of the UI system and help unemployed 
workers return to work.
Senior Community Service Employment Program
    The fiscal year 2009 budget requests $350 million for the Senior 
Community Service Employment Program (SCSEP). At this level, SCSEP will 
support 72,000 participants. This program was rated ``ineffective'' by 
the Performance Assessment Rating Tool (PART), largely due to 
inadequate competition in the grants process, lack of data on program 
performance and impact, and duplication with other Federal programs. 
Recent legislative reforms, though limited in terms of their promotion 
of competition, will promote improvement in program efficiency 
(allowing more participants to be served per dollar), collection of 
performance data, and the share of participants placed in unsubsidized 
jobs.
Job Corps
    The budget includes $1.6 billion to operate a nationwide network of 
123 Job Corps centers in fiscal year 2009. Job Corps provides training 
to address the individual needs of at-risk youth and ultimately equip 
them to become qualified candidates for the world of work. The request 
includes $59 million for the construction of new Job Corps centers. In 
the fiscal year 2006 appropriation act, the Congress directed the 
Department to transfer the Job Corps program out of the Employment and 
Training Administration (ETA) into the Office of the Secretary. The 
2009 budget again proposes to return the program to ETA, where it had 
been administered for more than 30 years, to ensure close coordination 
with the other job training and employment programs administered by 
ETA, including the YouthBuild program.
       securing employment rights and opportunities for veterans
Veterans' Employment and Training Service
    This Nation's commitment to our veterans must be honored. No 
veteran should return home without the support that is needed to make 
the transition back to private life a smooth and successful one. For 
the Department's Veterans' Employment and Training Service (VETS), the 
fiscal year 2009 budget request is $238.4 million and 234 FTE. This 
will enable VETS to maximize employment opportunities for veterans and 
protect their employment and re-employment rights.
    The $168.9 million requested for VETS to provide State grants under 
the Jobs for Veterans Act includes an increase of $7 million above the 
fiscal year 2008 level and will help approximately 700,000 veterans 
seeking employment in the civilian workforce. The additional funds will 
help serve 185,000 Transition Assistance Program (TAP) participants in 
domestic and overseas workshops, an increase of 25,000 participants 
above the fiscal year 2008 level. TAP employment workshops play a key 
role in reducing jobless spells and helping service members transition 
successfully to civilian employment. The fiscal year 2009 budget 
includes $25.6 million for the Homeless Veterans Reintegration Program 
(HVRP), allowing the program to provide employment and training 
assistance to an estimated 15,100 homeless veterans. The fiscal year 
2009 request will also enable VETS' staff to more effectively 
administer the Uniformed Services Employment and Reemployment Rights 
Act (USERRA) to protect the civilian employment opportunities and re-
employment job rights and benefits of veterans and members of the armed 
forces, including members of the Guard and Reserve.
                             other programs
Bureau of Labor Statistics
    In order to maintain the development of timely and accurate 
statistics on major labor market indicators, the fiscal year 2009 
budget provides the Bureau of Labor Statistics (BLS) with $592.8 
million and 2,418 FTE. This funding level allows BLS to focus resources 
on its core surveys that produce sensitive and critical economic data, 
including the Consumer Price Index (CPI) and the monthly Employment 
Situation report. The CPI is a key measure of the Nation's economic 
well-being that directly affects the income of millions of Americans. 
To ensure that the CPI is accurate and up-to-date, the Budget includes 
funding of $10.4 million to continually update the housing and 
geographic samples that underlie the index to ensure that these samples 
fully incorporate the most recent demographic and geographic trends and 
changes. The current sample was derived from the 1990 Census and has 
not been updated since the late 1990s. In addition, the budget requests 
$8.7 million to cover the rising cost of the Current Population Survey, 
including enhanced efforts to safeguard respondent confidentiality, 
secure data, and maintain response rates.
Office of Disability Employment Policy
    The fiscal year 2009 budget request provides the Office of 
Disability Employment Policy (ODEP) with a total of $12.4 million and 
40 FTE. The fiscal year 2009 budget reflects the elimination of ODEP's 
grant-making function, which duplicates those of other Federal 
agencies. The fiscal year 2009 budget returns ODEP to its core mission 
of providing national leadership in developing disability employment 
policy and influencing its implementation to increase employment 
opportunities and the recruitment, retention and promotion of people 
with disabilities. The request also includes a transfer of $550,000 to 
the BLS to finalize ODEP's partnership with BLS in the development and 
testing, and for BLS to begin and sustain monthly publication, of the 
unemployment rate for people with disabilities.
Bureau of International Labor Affairs
    The request for the Bureau of International Labor Affairs (ILAB) in 
fiscal year 2009 is $14.8 million and 58 FTE. In recent years, ILAB has 
had a very large grant-making function. Several Federal agencies have 
grant initiatives that support the objectives of improving 
international labor conditions and providing educational opportunities 
to children. DOL believes funding for such international grant 
activities should be provided to the Department of State, so it can 
better coordinate these projects. The Budget returns ILAB to its 
mission of developing international labor policy and performing 
research, analysis, and advocacy. The President's Budget also includes 
$1.5 million to allow ILAB to monitor the use of forced labor and child 
labor in violation of international standards, as required in the 
Trafficking Victims Protection Reauthorization Act of 2005.
    The requested funding levels would allow ILAB to implement the 
labor supplementary agreement to NAFTA and the labor provisions of 
trade agreements negotiated under the Trade Act of 2002, participate in 
the formulation of U.S. trade policy and negotiation of trade 
agreements, conduct research and report on global working conditions, 
assess the impact on U.S. employment of trade agreements, and represent 
the U.S. Government before international labor organizations, including 
the International Labor Organization.
    ILAB will continue to implement ongoing efforts in more than 75 
countries funded in previous years to eliminate the worst forms of 
child labor and promote the application of core labor standards.
Office of the Solicitor
    The fiscal year 2009 budget includes $108.2 million and 643 FTE for 
the Office of the Solicitor (SOL). This amount includes $100.8 million 
in discretionary resources and $7.4 million in mandatory funding. The 
Solicitor's Office provides the legal services that support all of the 
five critical priorities of the Department, including litigation and 
legal advice necessary to the success of the Department's enforcement 
programs. This appropriation level will allow SOL to provide legal 
services and legal enforcement support for the nearly 200 laws the 
Department must enforce, including recently enacted legislation to 
strengthen mine safety and retirement security. The requested 
appropriation level is essential to allow SOL to fulfill its primary 
mission of ensuring that the Nation's labor laws are forcefully and 
fairly applied, and providing the legal assistance necessary to ensure 
that the Department's mission goals identified for fiscal year 2009 are 
achieved.
Women's Bureau
    The fiscal year 2009 budget includes $10.2 million and 60 FTE for 
the Women's Bureau. This budget will allow the Women's Bureau to 
continue its mission of designing innovative projects addressing issues 
of importance to working women and providing information about programs 
and polices that help women succeed in the 21st century workplace.
President's Management Agenda and Department-wide Management 
        Initiatives
    Before I close today, Mr. Chairman, I also want to highlight the 
Department's sustained efforts to implement the President's Management 
Agenda (PMA). In August 2001, President Bush sent to Congress his 
Management Agenda, a strategy for improving the management and 
performance of the Federal Government. The PMA called for focused 
efforts in the following five Government-wide initiatives aimed at 
improving results for citizens: Strategic Management of Human Capital; 
Competitive Sourcing; Improved Financial Performance; Expanded 
Electronic Government; and the Performance Improvement Initiative 
(formerly Budget and Performance Integration). DOL is also responsible 
for three of the PMA initiatives that are found only in selected 
departments: Faith-Based and Community Initiative, Real Property Asset 
Management, and Eliminating Improper Payments.
    I am proud to say that, in June 2005, the Department became the 
first Cabinet agency to earn ``green'' ratings in all five Government-
wide PMA initiatives. Through the PMA, the Department placed a strong 
emphasis on human capital and E-Government--both of which strengthen 
the integration of all the PMA initiatives. DOL's MBA Fellows program--
which I established in 2002--has been successful in bringing on bright 
new talent as we build a foundation of future leaders at the 
Department. And our E-Government efforts have provided numerous 
solutions that have supported our management efforts. I remain 
particularly proud of the Department's role as the managing partner of 
GovBenefits.gov--a partnership of Federal agencies that provides 
improved, personalized access to Government programs.
    DOL is making progress and achieving results in eliminating 
improper payments. To better support these efforts, DOL was 
instrumental in ensuring the enactment of the State Unemployment Tax 
Act (SUTA) Dumping Prevention Act of 2004--which President Bush signed 
into law in August 2004. This law provided State UI programs access to 
the National Directory of New Hires (NDNH). In 2005, the Department's 
Office of the Chief Financial Officer and the Employment and Training 
Administration launched an Unemployment Insurance (UI) pilot program in 
three States to determine how a cross-match between the NDNH and State 
UI claimant data could help identify individuals no longer eligible to 
receive UI benefits. The pilot program showed significant potential to 
detect and reduce improper payments and now 41 States are actively 
matching against the NDNH. These steps have resulted in the saving of 
millions of taxpayer dollars, but we have more work to do--and we are 
committed to seeing this effort through to the end.
    In recognition of our efforts since 2001, DOL has been honored with 
four President's Quality Awards from the Office of Personnel Management 
for our achievements and management excellence in implementing the PMA.
    The Program Assessment Rating Tool, or PART, remains central to our 
efforts at the Department of Labor to improve the performance of our 
programs. To date, 35 DOL programs have been assessed through the PART. 
The PART assessments have not only been useful to informing the public 
and policy makers of our programs' strengths and weaknesses, but they 
have provided our programs and their managers a systematic method of 
self-assessment. A PART review helps inform both funding and management 
decisions aimed at making programs more effective. The Department is 
actively implementing program improvements identified through PART 
assessments--and looks forward to building upon our progress to date.
                               conclusion
    With the resources we have requested for fiscal year 2009, the 
Department will continue its strong enforcement of worker protection 
laws, provide innovative programs to increase the competitiveness of 
our Nation's workers, secure the employment rights of veterans, and 
maintain fiscal discipline.
    Mr. Chairman, this is an overview of the programs we have planned 
at the Department of Labor for fiscal year 2009.
    I am happy to respond to any questions that you may have.
    Thank you.

    Senator Harkin. Madam Secretary, if you have more--I do not 
know why that light was on like that. If you have more, take 
the time you needed to finish. I did not mean to have that stop 
at 5 minutes.
    Secretary Chao. No. I think that is fine. Thank you.
    Senator Harkin. There was not anything else you wanted to--
--
    Secretary Chao. I saw the light coming, so I kind of 
skipped through this really quickly.
    Senator Harkin. Well, I am sorry about that. I did not mean 
to have that come on at 5 minutes. I just noticed it myself. 
Well, that is all right for our questions, but not for her 
statement. So I apologize.
    Secretary Chao. No, not at all. We try to be very 
responsive to you.
    Senator Harkin. Well, thank you, Madam Secretary. I 
appreciate that.

                         NONCOMPETITIVE GRANTS

    Madam Secretary, let me get right into it here. Something 
that has been of interest to me for the last couple of years is 
the awarding of noncompetitive grants by the Department of 
Labor.
    In his veto message last year, the President stated that 
``this bill has too many earmarks. Congressional earmarks 
divert Federal taxpayer funds to localities without the benefit 
of a merit-based process. Americans sent us to Washington to 
achieve results and be good stewards of their hard-earned tax 
dollars.''
    Now, for the record I want to point out that less than--
much less than--1 percent of the funds in the bill were subject 
to congressionally directed spending.
    However, from 2001 to 2006, the Department of Labor 
earmarked more than $250 million under the High Growth Job 
Training Initiative without any competition or transparency. 
Now, Federal regulations allow for the awarding of 
noncompetitive grants in certain situations.
    However, 90 percent of these funds raised serious questions 
for me. So last year I asked the DOL Inspector General to 
examine how these decisions were made and what we have achieved 
with these funds. The IG's report includes some troubling 
findings, including inadequate justification for the grant 
decisions, unfulfilled commitments by grantees to provide 
matching funds, and insufficient monitoring and evaluation of 
grant activities.
    So, Madam Secretary, your Department responded to the 
recent IG report by maintaining that it was not necessary or 
valuable to formally evaluate all grant activities. Well, how 
does that square with the President's veto message when he said 
that he was opposed to earmarks? How does that square with 
that? I mean, $250 million.
    Secretary Chao. The High Growth Job Training Initiative was 
originally designed to help the workforce investment system 
become more demand-driven. What we want to make sure is that 
when dislocated workers, unemployed workers invest their time 
and trust in us to come into our training system, that we give 
them relevant training. So the High Growth Job Training 
Initiative was to be a demand-driven program.
    Due to the broad-based demand for this kind of program, we 
had 450 unsolicited bids. In an effort to quickly and 
strategically respond to the workforce challenges identified by 
the high growth industries who were lacking skilled workers, 
this program was initiated.
    It was ETA's intent always from the beginning to go into a 
competitive mode, and after this initial phase, all High Growth 
Job Training grants are awarded through a competitive process.
    Just because it did not go through a competitive process, 
did not mean that it did not go through a solicitation process 
within the Department. There is something called the 
Procurement Review Board which reviews all sole-source 
contracts, and all of these contracts went through that.
    Second of all, these were all pilot programs. So after the 
pilot programs were initiated, they were all competitively bid.
    The IG report itself acknowledges that they only examined 
10 of the 133 noncompetitive grants and that many others, in 
fact, were fine. If you look at the number of the 10 grantees 
reviewed in the audit, they included the Service Employees 
International Union, the Down River Community Conference, the 
Shoreline Community College, the Maryland Department of Labor. 
This is a very wide base and it was a demand-driven initiative 
to fulfill the needs of our economy for high-skilled workers. 
Again, the purpose is to ensure that workers are getting 
relevant training, so when they graduate from our programs, 
they can actually get a real job.
    Senator Harkin. Well, Madam Secretary, I have here the 
years from 2001 to 2007. Competitive grants, 2001, 0; 2002, 0; 
2003, 0; 2004, 0; 2005, 12; 2006, 0; and 2007, 17. I do not 
know what kind of planning that is to have--let me read you the 
noncompetitive.
    Secretary Chao. But the program did not start until 2003, 
number one.
    Number two, when we are talking about our Department, we 
have a budget of $10.5 billion. The majority, 99.9 percent, of 
the grants are, number one, formulaic or they are competitive 
grants. This is a very, very small part of the total number of 
grants that are given out.
    Senator Harkin. Madam Secretary, okay, let us take 2003. As 
I said, competitive, 0, 0, 12, 0. Last year 17. I will tell you 
why.
    In noncompetitive grants, 2003, 15; 2004, 37; 2005, 55; 
2006, 21; last year, 1. Now why was it one last year? Because 
in our bill last year, we said you cannot do that anymore.
    Secretary Chao. We responded.
    Senator Harkin. Yes, that is true. You did respond. I will 
hand you that. That is true.
    But my point is that was $263.8 million for 137 grants.
    Secretary Chao. Out of an annual budget of more $10.5 
billion.
    Senator Harkin. Well, now, would you like to come up here 
and argue for Congress's directed spending? Would you like to 
talk to your boss down at the White House?
    Secretary Chao. Not at all.
    Senator Harkin. You see why I am making this point. First 
of all, I am making the point that when we do congressionally 
directed funding--and the former chairman knows this--it is 
transparent, it is open, everybody knows about it, and we 
follow up on these.
    Quite frankly, what the IG did--now, you mentioned 10. The 
first phase of the investigation by the IG took 39 grants, and 
in 90 percent of the samples, the DOL did not follow proper 
procedures for making earmarks, including a lack of 
documentation for how DOL made earmark award decisions. DOL has 
not required grantees to contribute their own funds or leverage 
funds from third parties, even though that was the basis for 
making noncompetitive awards in many cases. Now, that was the 
first phase.
    The second phase, the IG reviewed 10 grantees that 
completed their activities to find out what they did and were 
the objectives met. Thirty percent of the grant objectives were 
not met or were not clear enough to determine whether they were 
met. For example, the National Retail Federation could only 
demonstrate that it placed in employment just more than half of 
the minimum 2,500 job seeker goals that it set. Then in four of 
the nine grants where DOL justified it on the basis that 
funding organizations would match the funds, the IG could not 
identify any matching funds at all.
    So, again, we have said no. That is what our committee 
said, and obviously you have not done that anymore. You put one 
grant out but that was last fiscal year under the continuing 
resolution. So now we are going to go more to competitive 
grants.
    Now, I will say this. There is one other item I have got 
relating to this, and that is that we included bill language in 
the last appropriations bill that required all the Departments 
under our jurisdiction to provide a report to this committee on 
all funding in excess of $100,000 made available on a 
noncompetitive basis. The Education Department has submitted 
its report for the two quarters, the first quarter being last 
October, November, December; the second quarter, January, 
February, and March. We have gotten them. As of today, we have 
not received one of the required reports from the Department of 
Labor.
    Secretary Chao. That is correct.
    Senator Harkin. When are we going to get those?
    Secretary Chao. I think you might be pleased to hear that 
we have been overwhelmed with data requests from the Hill, 
number one. Number two, they have to go through clearance. So 
that currently is under clearance. I was made aware of it 
preparing for this hearing, and we are trying to get it out as 
quickly as possible.
    [The information follows:]

   LIST OF REPORTS DELIVERED TO CONGRESS AFTER THE SECRETARY'S MAY 7TH
                                 HEARING
             [Reports--Completed and Submitted to Congress]
------------------------------------------------------------------------
             Agency                    Material         Date submitted
------------------------------------------------------------------------
OSHA............................  Issuance of OSH     First quarterly
                                   Standards.          report was sent
                                                       to Congress on 5/
                                                       15/08.
OSHA............................  Regulatory Agendas  First quarterly
                                                       report was sent
                                                       to Congress on 5/
                                                       15/08.
All DOL.........................  List of Non-        First and second
                                   Competitive         quarter reports
                                   Contracts, Grants   delivered to
                                   & Awards.           Congress on 5/13/
                                                       08.
ETA/TES.........................  Status of H-1B and  First quarterly
                                   NEG Grants.         report was sent
                                                       to Congress on 5/
                                                       8/08.
ETA/TES.........................  Farmworker Housing  The report was
                                   Funds.              submitted to
                                                       Congress on 5/16/
                                                       08.
ESA/Wage Hour...................  Contractors that    The report was
                                   employ pineros.     submitted to
                                                       Congress on 5/28/
                                                       08.
DM/ASP, OSHA & ESA/Wage Hour....  National Plan on    The report was
                                   Pandemic            submitted to
                                   Influenza           Congress on 5/16/
                                   Preparedness.       08.
Job Corps.......................  Enrollment Levels.  The report was
                                                       submitted to
                                                       Congress on 5/16/
                                                       08.
EBSA............................  Schedule of EFAST2  Fourth monthly
                                                       report was sent
                                                       to Congress on 5/
                                                       30/08.
ILAB............................  Operating Plan....  The plan was
                                                       submitted to
                                                       Congress on 6/6/
                                                       08.
------------------------------------------------------------------------

    Senator Harkin. Well, the Department of Education did not 
seem to have much of a problem complying.
    Secretary Chao. I usually beat Margaret Spellings on a 
whole bunch of things, so I am not very pleased that she has 
beat me to this one. But we are going to do better on that one.
    Senator Harkin. Okay. Well, we would like to have those. 
Again, one of the reasons we are asking that request again is 
to just find out what is happening on this and where these are 
going. As I said, we in Congress in our congressional funding 
now, we have to put it in the record. It has to be out there. 
It is all transparent. Everybody knows who is doing what. We 
just want to make sure this applies to the administration. I do 
not mean just yours. I mean every administration, that they 
have to do the same thing in every one of their Departments. So 
what is good for the goose is good for the gander I guess you 
might say.
    Did my time run out? I will pick up some more questions. I 
think my 5 minutes are up here, but I will yield to Senator 
Cochran. Then I will pick up some more later.
    Senator Cochran. We could use some skilled labor training 
to figure out how to work those.
    Madam Secretary, thank you for the conscientious and 
effective work you have done as Secretary of Labor. I have been 
very impressed and we appreciate your service in that capacity.

                               YOUTHBUILD

    In our State, we are troubled and concerned about the 
availability of labor to help us rebuild and recover from 
Hurricane Katrina, and that is true not only of Mississippi, 
but Louisiana certainly and other areas there. I know there is 
a program--and it is funded in the budget request at $50 
million--called YouthBuild. I was wondering whether this is a 
program that could be helpful or has been used in training or 
trying to identify people who are at risk maybe because of the 
effects of the hurricane situation so we could put them to work 
maybe or training to fill some of the voids in the labor market 
so we can improve the performance of reconstruction. Low income 
housing comes to mind as an area where there might be a 
particular opportunity for at-risk youth to be employed there 
if they had the training and supervision necessary.
    What is the Department of Labor able to do to help in that 
situation?
    Secretary Chao. You make a very good point about the short 
supply of skilled labor, trade labor, skilled trades people, 
workers. That has been a real problem down in the gulf area and 
in rehabilitating and rebuilding the gulf area.
    At the risk of appearing as if I am going back to a topic 
that the chairman does not like, the High Growth Job Training 
Initiative actually includes skills training in the skilled 
trades because those are good paying jobs. They have good 
future prospects, and yet we have a dearth of skilled trades 
people in this country. So we do need to emphasize that.
    On YouthBuild, that was recently transferred over from HUD 
to the Department of Labor. I am pleased to say that the 
transition appears to have gone well. Both Departments thought 
it was a much better fit for YouthBuild, which is more involved 
in skills training, to be shifted over to the Department of 
Labor.
    Your suggestion that YouthBuild workers be more involved in 
the Gulf area recovery and rebuilding effort is a good one. I 
think there have been some efforts in incorporating these young 
people in this area, but certainly I think we can take another 
look at that and see how these young people can gain real life 
experience that would be very satisfying for them as they gain 
new skills and see the actual results of how their skills can 
help people.

                               JOB CORPS

    Senator Cochran. One other program that I paid a lot of 
attention to when it was first created was Job Corps. Is that 
still an active program? Is it growing, or do you have the 
funds necessary to continue to support the efforts of Job 
Corps? What is your evaluation of its effectiveness?
    Secretary Chao. I have just come back from the reopening of 
the Cleveland Job Corps Center. This was a dilapidated, old 
facility that over the last 18 months saw a $25 million 
renovation of its facilities. We want these young people--the 
national director Esther Johnson calls them at-promise young 
people--to feel pride in their surroundings and to have the 
right equipment and facilities with which to learn and gain new 
skills and put their lives back on track. So I went there 
yesterday, and I went also to the reopening of the Job Corps 
center in New Orleans just less than 3 months ago. So we have a 
very aggressive building program.
    It is under some challenge because of funding pressures, 
but overall we are very focused on ensuring that Job Corps 
remains a strong program. The new director has been focusing on 
academics. We are very concerned about ensuring, again, that 
young people get the skills that they need. So we have cut the 
budget for Job Corps in terms of the slots, which I think is a 
source of discussion, and we can talk more about that later. 
But we have about 4,000 slots that need to be reallocated, and 
part of that process is ongoing as well.
    Senator Cochran. Well, thank you very much.
    Thank you, Mr. Chairman.
    Senator Harkin. Thank you, Senator Cochran.
    Let us just pick up on that because obviously Job Corps 
centers have broad support up here, and you actually cut it. 
What is the justification for cutting Job Corps centers?
    Secretary Chao. Well, the budget request maintains a level 
of service currently offered by the Job Corps program. I think 
there is a great deal of discussion about the empty slots. 
There are about 4,000 of them. We want to ensure that there is 
funding for all current students and any students who want to 
enter the program in the future. We want to continue making 
improvements and upgrades to the facilities, but there is this 
concern about unused slots which we can discuss as well.

                 OFFICE OF DISABILITY EMPLOYMENT POLICY

    Senator Harkin. Madam Secretary, this is not a trick 
question I am going to ask you. If you were to look at 
different groups of people, categories of workers, in our 
country, what group would spring to mind that would have the 
highest rate of unemployment?
    Secretary Chao. Probably young people and disabled.
    Senator Harkin. Disabled. Thank you. Much higher. The rate 
of unemployment among disabled people who actually look for 
work, who want work is----
    Secretary Chao. 70.
    Senator Harkin [continuing]. About 70 percent.
    Secretary Chao. Yes.
    Senator Harkin. It is one of the highest. Well, your budget 
proposes a cut of $14.8 million, or a 54 percent cut, for the 
Office of Disability Employment Policy. I mean, now this 
screams out that something is wrong here. This budget proposal, 
I am told, would eliminate all grant activity at ODEP. What is 
the justification for a 54 percent cut in ODEP when we have the 
highest rate of unemployment in America among our people with 
disabilities? What is the justification for a 54 percent cut?
    Secretary Chao. Mr. Chairman, I know that you have a 
personal--I know that you are very committed to the disabled 
community.
    Senator Harkin. Actually you are too.
    Secretary Chao. I am too. I know that you started ODEP, and 
it would not have happened without you.
    Senator Harkin. Well, I appreciate that. I am not asking 
about your commitment. I know you are personally committed. I 
am just asking why this big a cut. This does not make sense to 
me.
    Secretary Chao. I think we are just going to have to differ 
on what the purpose--what the core mission of ODEP is. There 
seems to be a disagreement about whether ODEP should be a 
research or policy agency rather than a grantmaking agency. 
When we talk about grants, this is, in fact, one area in which 
we have been found that we have been unable--that it has been 
very hard to gauge what has been the real achievements or 
results of these grants. What we should be doing is working 
more with the employer community and urging them, exhorting 
them to hire more Americans with disabilities. That is not done 
through primarily grants.
    Senator Harkin. Now, Madam Secretary, as you know, this is 
a personal interest of mine and professional interest of mine, 
not just personal. So I follow this up every year, and I have 
my staff follow it.
    Last year, when you sat there, I asked you about the 
accomplishment of ODEP grant funding and your Department's 
response was, ``46 States have adopted evidence-based policies 
and practices that ODEP has developed based on the findings of 
the grants that the agency has funded.'' Well, I would think 
based on that, that ODEP should fund more grants. So I am 
getting another story from you this year than what I got last 
year. I would think based on this, we ought to be doing more of 
that grant-making.
    Secretary Chao. Well, we are continuing with grants. It is 
just not as much as you would like.
    Senator Harkin. Well, yes, a 54 percent cut, I guess not.
    Secretary Chao. We gave approximately $12 million.
    Senator Harkin. I mean, the overall cut in your budget--
your overall cut was what? 7 percent?
    Secretary Chao. No, it was not a cut. It has always been--
--
    Senator Harkin. I mean overall.
    Secretary Chao. The President's budget has always been that 
way. It has always been at this level. Then the committee has 
put more in.
    Senator Harkin. I do not mean ODEP. I mean your entire 
budget request. Is it not down from last year?
    Secretary Chao. Primarily because----
    Senator Harkin. I thought you told me in your opening 
statement it was down.
    Secretary Chao. No, not in the worker protection areas. 
Basically it is in--ODEP--the President's request has always 
been the same. It is less than what the enacted was.
    Senator Harkin. I am just saying that your overall request 
is down a few percentage points from last year.
    Secretary Chao. That is primarily probably due to the 
overhang in ETA.
    Senator Harkin. Well, but anyway, 54 percent is illogical 
to be cutting from ODEP. It is just not so. Now, again, that 
would eliminate all grant activity.
    Again, Madam Secretary, I've got to read you the law, 
Public Law 106-1033. ``Beginning in fiscal year 2001, there is 
established in the Department of Labor an Office of Disability 
Employment Policy which shall, under the overall direction of 
the Secretary, provide leadership, develop policy and 
initiatives, and award grants furthering the objective of 
eliminating barriers to the training and employment of people 
with disabilities. Such office shall be headed by an Assistant 
Secretary.''
    It did not say you may award grants. It says you shall. Now 
you have submitted a budget to me that says we will not award 
any grants, and from what I just heard you say, that is not a 
big deal with ODEP. Grant-making is just not that important. 
Well, we put it in the law specifically for that.
    That is why I asked you about it last year. I thought your 
answer last year was pretty good, you know, that 46 States have 
developed these things. I thought, well, that cries out for 
more grant activity to pursue these and to find out just what 
are the barriers. Why is it 70 percent? What are those barriers 
out there?
    Anyway, I just want to tell you this is over the top on 
that 54 percent cut. I mean, we will have to put it back in, 
but I just do not think it represents the priorities that we 
ought to be doing when we are trying to help people get 
employment.

                 BUREAU OF INTERNATIONAL LABOR AFFAIRS

    Now, there is one other area, as you know, that is an 
intense interest of mine. It is called international child 
labor.
    Secretary Chao. Right.
    Senator Harkin. You knew I was going to ask that question.
    Well, here we go. As it has done each year under this 
administration, the Department's budget drastically reduces 
funding for the elimination of child labor worldwide. Your 2009 
budget requests $14.8 million for ILAB, a decrease of $66.3 
million, or--hang on to your hats--82 percent decrease in 
funding. 82 percent. Why did you not just zero it out?
    The 2009 budget proposal will set back efforts to continue 
the positive progress. According to your own Department, this 
program has resulted in almost 230,000 children prevented or 
withdrawn from child labor and provided education opportunities 
just in 2007. That is pretty good. So, again, cut it by 82 
percent.
    You and I have disagreed on this before. You cut the budget 
and we have to fight to get it in. You have often said that one 
of the reasons the funding is eliminated is the Bush 
administration believes grant-making should not be a part of 
ILAB's mission. Is that still your position?
    Secretary Chao. I think we are going to have a disagreement 
about this. Every year we go through this, and I am sorry to be 
here to say the same thing again. But we really do disagree on 
the mission of ODEP and on the mission of ILAB. We believe that 
ILAB should go back to its core functions, and our budget 
request every year has been the same. So it has not been a cut 
from the budget request point of view.
    Senator Harkin. Madam Secretary, here is a book I just got 
handed to me the other day. It is the Honor Awards, the 95th 
Anniversary Celebration, Wednesday, April 30, the United States 
Department of Labor Honor Awards. Secretary's Exceptional 
Achievement Award, in recognition of individual employees and 
groups of employees who have achieved an unusually significant 
work product that fosters one or more of the Department's 
strategic goals. The first one was Employment Standards 
Administration.
    Here we are, next page. Bureau of International Labor 
Affairs, ILAB. Here it is right here. Office of Child Labor, 
Forced Labor, and Human Trafficking Team. In recognition of 
outstanding commitment and dedication to the implementation of 
a high quality program that has enabled more than 1 million 
children in over 75 countries to be removed or prevented from 
exploitive labor and provided with educational and training 
opportunities.
    That is what the grants do. This is not reporting. This is 
not a report. This is what ILAB has done, and you said it 
yourself and you gave them an exceptional award. So I am having 
a hard time getting my head around this one. You honor this 
team, ILAB, for what they have done, and now you tell me that 
you do not agree with this mission.
    Secretary Chao. We do not, but since the money has been 
given to us, we do have a responsibility to be good stewards of 
the taxpayers' dollars, which is why when this money was given, 
we are going to do the best we can with it, and this team did a 
good job.
    Senator Harkin. Well, I just wonder. I was in Ghana earlier 
this year too, and I noticed you here at the primary school 
outside Accra. We went out and looked at some child labor 
things in the cocoa fields and stuff in both Ghana and the 
Ivory Coast. Here is a nice picture of you with all these kids 
who have been taken away from forced labor and exploitative 
labor. I bet you were proud to stand there with them, were you 
not?
    Secretary Chao. Well, I have an interest in child labor and 
I went to visit a lot of child labor sites.
    Senator Harkin. I bet you were proud to stand there with 
them.
    Secretary Chao. I was very proud of that.
    Senator Harkin. To see those happy faces, no more 
exploitation, they are in schools, and ILAB had a big part to 
do with it.
    Now you come up here and say we should not have that 
mission? Now, Madam Secretary, have you told these people that 
you are going to request that we are going to cut them by 82 
percent?
    Secretary Chao. We are not the only ones doing this work, 
and as I mentioned, we are going to have a disagreement about 
this.
    Senator Harkin. I know you are not the only one, but you do 
a big part of it. I am just saying, have you told all these 
people you are going to request, when you see them over there--
I am going to cut your budget by 82 percent? Because what I 
keep hearing from them is are we going to be able to do our 
job. Are we going to be able to continue to do the good work 
that we do in a lot of places around the world?
    So I have a hard time understanding why you say this should 
not be a mission, and yet you seem to be quite proud of the 
work they do. You ought to be proud of it. They do a great job. 
They are doing a great job.
    As long as I am here, we are going to make sure we fund 
them. But this idea of cutting them 82 percent--budgets 
represent priorities. So when I see you cutting this 82 
percent, I've got to believe this is on the bottom rung.
    Secretary Chao. We have always had a disagreement about 
this.
    Senator Harkin. So you do not think we should be doing 
this.
    Secretary Chao. No. It is our position that we should not 
be doing it through ILAB. It should be done through some other 
agency. We have not cut this budget.
    Senator Harkin. What agency should it be done through?
    Secretary Chao. There are many other Departments within the 
Federal Government. We have not cut this budget. We have 
consistently been very steady in asking for $12 million for 
ILAB every single year, and we get more than that. If we do get 
more, of course, we are going to be responsible and try to do a 
good job with it.
    Senator Harkin. Well, I do not know. Again, it just 
represents to me a low priority, very low, and I think it ought 
to be a very high priority. You say, well, it could be done in 
other areas. Well, there are a lot of things that could be done 
in some other Department. With all due respect, Madam 
Secretary, I just do not think that is really a legitimate 
response on that, to say somebody else can do it. The fact is 
it is in your Department. It does good work. You recommend it 
with an outstanding service award.
    I would think you would tell your boss down there at the 
White House that this is something that gives us pride as 
Americans. It is one of the best things we do in some of these 
countries to help get these kids out. Maybe the President does 
not even know about it. He probably does not even know about 
it. I do not know. He has got a lot on his plate, but it would 
seem to me this would be a source of pride, which I think 
represents that picture you took. It looks like you are pretty 
proud of that.
    All right, moving right along. I wanted to also cover just 
a couple of other things.

                   OSHA SAFETY AND HEALTH REGULATIONS

    Labor-management reporting. I mentioned in my statement 
this is one area that got an increase. I have been looking at 
this OSHA thing seeing what has happened over the last few 
years. Do you realize, Madam Secretary, that during the entire 
tenure that you have been there, OSHA has issued only three 
significant safety and health regulations, two of which were 
issued as a result of court orders or lawsuits? In all these 
years, only one that you have issued that was not demanded by a 
court order or a lawsuit.
    Let me read for you what happened in the--well, I have got 
the three here. 2006, one in 2007, and another one in 2007. One 
was court ordered. One was in response to a lawsuit. Here is 
what the Clinton administration did, 18. You have got one.
    Now, lest you think this is just some kind of Democrat-
Republican thing, how about if I read you the Bush I 
administration, which was only 4 years? Bush I, 17. That is for 
4 years.
    Let us look at what President Reagan did in his two terms, 
20. You have issued one.
    Well, that indicates to me that you are just not doing much 
with OSHA in safety and health regulations. I do not know what 
your response might be to that. Why is it just one, when I go 
back over the last administrations and find it is pretty 
consistent? It is 20, 18, 15.
    Secretary Chao. I am a little bit surprised at that number. 
I do not know where it came from. OSHA has completed 23 final 
regulatory actions since 2001. We have had the lowest injury 
and illness rate ever in the history of this country. We have 
had the lowest fatality rate ever in this country. Let us look 
at results. We have also issued the most violations since 1994. 
So I am a bit puzzled also as to what that number comes from.
    Senator Harkin. I am told that those 23 do not represent 
significant safety and health. These are very minor little 
things. I did not include those in the Clinton and Bush. I will 
go back and get those too. We will probably be up around 50 in 
each one of them. So that is what I am talking about.
    Secretary Chao. We issued 23 regulations. That seems a lot 
already.
    Senator Harkin. What?
    Secretary Chao. 23 regulations since 2001.
    Senator Harkin. 23?
    Secretary Chao. Yes.
    Senator Harkin. Would you give those to us so we can see 
how significant they are?
    Secretary Chao. Sure.
    [The information follows:]
             OSHA's 23 Final Regulatory Actions Since 2001
          (title, publication date, federal register citation)
1. Recordkeeping (Interim Guidance Hearing Loss & MSDs) (Regulation) 
        (10/12/2001; 66:52031)
    OSHA delayed implementation of provisions for recording 
occupational hearing loss and musculoskeletal disorders published in 
its January 19, 2001, revised recordkeeping regulation. This delay 
provided OSHA the opportunity to gather further public comment and to 
re-evaluate the recording criteria for these specific conditions.
2. Recordkeeping Final Provisions Hearing Loss (Regulation) (07/01/
        2002; 67:44037)
    OSHA published specific criteria for recording occupational hearing 
loss on the OSHA Form 300. These criteria are set forth in 29 CFR 
1904.10. The recording criteria are a modification of the criteria 
published in OSHA's January 19, 2001, recordkeeping revision and are 
based on public comment solicited after the 2001 rulemaking.
3. Occupational S&H Standards for Shipyard Employment (Technical 
        Amendments) (07/03/2002; 67:445336)
    OSHA published technical amendments to its Shipyard Employment 
standards. This document corrected general errors, as well as several 
inaccurate cross-references in these standards.
4. Signs Signals & Barricades (Direct Final) (04/15/2002; 67:18091)
    The direct final rule amended construction standards to require 
that traffic control signs, signals, barricades, or devices protecting 
construction workers conform to Part VI of either the 1988 Edition of 
the Federal Highway Administration (FHWA) Manual on Uniform Traffic 
Control Devices (MUTCD), with 1993 revisions (Revision 3) or the 
Millennium Edition of the FHWA MUTCD (Millennium Edition), instead of 
the American National Standards Institute (ANSI) D6.1-1971, Manual on 
Uniform Traffic Control Devices for Streets and Highways (1971 MUTCD). 
By ensuring conformity on signs and signals, this rule will alleviate 
confusion among workers as well as the traveling public regarding 
hazards during road and highway construction.
5. Update & Revisions on Exit Routes (11/07/2002; 67:67949)
    The Agency revised the means of egress standards clarifying 
existing requirements so they will be easier to understand by 
employers, employees, and others who use them.
6. Recordkeeping (Regulation) (Removal of MSD Provisions) (06/30/2003; 
        68:38601)
    The final rule deleted two provisions of the Occupational Injury 
and Illness Recording and Reporting Requirements rule published January 
19, 2001. These provisions required employers to check the MSD column 
on the OSHA 300 Log if an employee experienced a work-related 
musculoskeletal disorder (MSD), and stated that MSDs are not considered 
privacy concern cases.
7. Commercial Diving Operations: Revision (02/17/2004; 69:7351)
    OSHA issued this final rule to amend its Commercial Diving 
Operations (CDO) standards. This final rule allows employers of 
recreational diving instructors and diving guides to comply with an 
alternative set of requirements instead of the decompression-chamber 
requirements in the current CDO standards. This rule recognizes 
advances in technology of diving equipment and provides greater 
flexibility.
8. Controlled Negative Pressure Fit Testing Protocol: Amendment to the 
        Final Rule on Respiratory Protection (08/04/2004; 69:46986)
    OSHA approved an additional quantitative fit testing protocol, the 
controlled negative pressure (CNP) fit testing protocol, for inclusion 
in Appendix A of its Respiratory Protection Standard. Proper fit is 
essential to the effectiveness of respirators in protecting against 
respiratory disease hazards.
9. Fire Protection in Shipyard Employment (Part 1915, Subpart P) (09/
        15/2004; 69:55667)
    OSHA promulgated a fire protection standard for shipyard employment 
that provides increased protection for shipyard workers from the 
hazards of fire on vessels and vessel sections and at land-side 
facilities. The Standard affects 669 employers and 98,000 employees. It 
is estimated that 1 death and 292 injuries (102 lost workdays/190 non-
lost workdays) will be averted annually.
10. Standards Improvement Project--Phase II (01/05/2005; 70:1111)
    The final rule removed and revised provisions of its standards that 
were outdated, duplicative, unnecessary, or inconsistent. The Agency 
estimated that the final standard would result in total annual cost 
savings of $6.8 million annually with no adverse effect on employee 
safety or health.
11. Procedure for Handling Discrimination Complaints under Section 6 of 
        Pipeline Safety Improvement Act of 2002 (04/08/2005; 70:17889)
    This document provided the final text of regulations governing the 
employee protection (``whistleblower'') provisions of Section 6 of the 
Pipeline Safety Improvement Act of 2002 (``Pipeline Safety Act''), 
enacted into law December 17, 2002.
12. Oregon State Plans: Notice of Final Approval Determination (05/12/
        2005; 70:24947)
    OSHA granted final approval under Section 18(e) of the Act to the 
Oregon State Plan, reflecting a determination that the State plan was 
at least as effective as Federal OSHA in structure and in actual 
operation. Concurrent Federal enforcement jurisdiction was relinquished 
in the State, and Federal OSHA standards no longer apply except with 
regard to those specific issues not covered by the State plan, e.g., 
Federal agencies, U.S. Postal Service, private contractors on military 
bases, maritime employment, etc.
13. Updating OSHA Standard Based on National Consensus Standards (12/
        14/2007; 72:71061)
    The direct final rule removed several references to consensus 
standards that have requirements that duplicate, or are comparable to, 
other OSHA rules, and corrected a paragraph citation in one of these 
OSHA rules. The Agency also removed a reference to American Welding 
Society standard A3.0-1969 (``Terms and Definitions'') in its general-
industry welding standards.
14. Rollover Protective Structures (12/29/2005; 70:76979)
    In 1996, OSHA replaced the existing roll-over protective structures 
(ROPS) standards that regulate the testing of ROPS used on tractors 
with references to the source consensus standards from which they were 
developed. Subsequently, OSHA identified several substantive 
differences between the national consensus standards and the original 
ROPS standards. The Agency reinstated the original ROPS standards by 
issuing a direct final rule that also contained a number of minor 
revisions that improve comprehension of, and compliance with the ROPs 
standard. Clarity will assist employers in complying with the 
standards.
15. Steel Erection: Slippery Surfaces (Revocation of Requirement for 
        Slippery Surfaces) (01/18/2006; 71:2879)
    This document revoked a provision within the Steel Erection 
Standard which addresses slip resistance of skeletal structural steel. 
The provision was revoked because it was determined that insufficient 
progress had been made in developing coatings and surface testing 
methods for meeting the requirement. As a result of the revocation of 
this provision, the projected $29.5 million annualized costs for 
affected establishments that were anticipated in the economic analysis 
for the final rule of Subpart R will not be incurred.
16. Occupational Exposure to Hexavalent Chromium (02/28/2006; 71:10099)
    OSHA amended the existing standard which limits occupational 
exposure to hexavalent chromium (Cr(VI)). This Standard reduced OSHA's 
existing permissible exposure limit and added requirements for exposure 
monitoring, medical surveillance and other protective measures. An 
estimated 1,782 to 6,546 lung cancer cases would be prevented over the 
lifetime of the current worker population.
17. Occupational Safety & Health of Contractor Employees at Certain DOE 
        Sites (06/29/2006; 71:36988)
    This notice clarifies jurisdiction and enforcement responsibilities 
of OSHA and 14 of its approved State Plans at various Department of 
Energy sites which are not subject to the Atomic Energy Act. OSHA's 
regulations in 29 CFR 1952 are amended to reflect this jurisdiction, as 
appropriate.
18. New York State Plan for Public Employees Only (08/16/2006; 
        71:47081)
    In this final rule, OSHA approved revisions to the New York State 
Plan for Public Employees Only and certified that the plan was 
structurally complete and had met all of its developmental commitments.
19. Assigned Protection Factors (08/24/2006; 71:50121)
    OSHA revised the Respiratory Protection Standard to add definitions 
and requirements for Assigned Protection Factors (APFs) and Maximum Use 
Concentrations (MUCs). The revisions supersede the respirator selection 
provisions of existing substance-specific standards with these new APFs 
(except for the respirator selection provisions of the 1,3-Butadiene 
Standard). The APF rule helps ensure that the benefits from the 1998 
revision of the Respiratory Protection Standard are fully achieved. 
OSHA estimated that the 1998 revised Respiratory Protection Standard 
would avert between 843 and 9,282 work-related injuries and illnesses 
annually, with a best estimate (expected value) of 4,046 averted 
illnesses and injuries annually, and would prevent between 351 and 
1,626 deaths annually from cancer and many other chronic diseases, 
including cardiovascular disease, with a best estimate (expected value) 
of 932 averted deaths from these causes.
20. Updating National Consensus Standards in OSHA's Standard For Fire 
        Protection in Shipyards (Direct Final) (10/17/2006; 71:60843)
    In this direct final rule, OSHA replaced the references to 11 
National Fire Protection Association standards by adding the most 
recent versions. No adverse comments were received and the Direct Final 
Rule became effective on January 16, 2007.
21. Occupational Exposure to Hexavalent Chromium [Amendment to General 
        Industry Standard for SFIC Settlement] (10/30/2006; 71:63238)
    OSHA amended its final rule governing occupational exposure to 
hexavalent chromium in general industry. This amendment implements a 
settlement agreement (Agreement) entered into among OSHA, the Surface 
Finishing Industry Council (SFIC), Public Citizen Health Research Group 
(HRG), and the United Steel, Paper and Forestry, Rubber, Manufacturing, 
Energy, and the Allied Industrial and Service Workers International 
Union (Steelworkers).
22. Subpart S Electrical Standard (02/14/2007; 72:7135)
    The Final rule revises the general industry electrical installation 
standard found in Subpart S of 29 CFR Part 1910. This rule focuses on 
safety in the design and installation of electric equipment, which 
poses a significant risk of injury or death in the workplace. This 
revision updates the standard and is based primarily on the 2000 
edition of National Fire Protection Association's national consensus 
standard for Electrical Safety Requirements for Employee Workplaces 
(NFPA 70E). The final rule is expected to prevent one to two fatalities 
per year.
23. Employer Payment for Personal Protective Equipment (11/15/2007; 
        72:64341)
    This final rule requires employers to pay for the PPE provided, 
with exceptions for specific items. The rule does not require employers 
to provide PPE where none has been required before. Instead, the rule 
merely stipulates that the employer must pay for required PPE, except 
in the limited cases specified in the standard. OSHA estimates that the 
rule will prevent about 21,800 injuries and approximately two deaths 
annually.

    Senator Harkin. Because I am told they are not. I am told 
that these do not rise to the level of a significant OSHA 
safety or health regulation.
    Secretary Chao. But let us take a look at the results. We 
have had the best injury and illness rate, the lowest fatality 
rate. We have issued the most regulations. That is what really 
matters, the overall health and safety record. Have we really 
helped the workforce become safer, healthier?
    Senator Harkin. I am going to go back to your statement 
here. Just a second here. I want to challenge you a little bit 
on this. I am going to find out why we have a little difference 
here.
    You said, ``Since 2001, the workplace fatality and serious 
injury and illness rates have fallen to record lows.'' They 
have declined by 17 percent.

                       HISPANIC WORKER FATALITIES

    Here is another thing. ``Perhaps most notable,'' your 
testimony says, ``is the reduction in the fatality rate among 
Hispanic workers, which has declined by 17 percent since 
2001.'' That is in your statement.
    Here is the Department of Labor, Bureau of Labor 
Statistics, which you just get off your Web site. ``Question: 
How many Hispanic workers have been fatally injured on the 
job?'' This is from your Web site. ``In 2006, 990 Hispanic 
workers were fatally injured while at work, a new series 
high.''
    Secretary Chao. It is the absolute number. We are talking 
about the percentages. Our workforce increases by about 1 
million workers every year. So our workforce continues to 
increase, which is why the absolute numbers will increase. But 
the percentage has decreased.
    Senator Harkin. This figure represents a 7 percent increase 
from the 923 fatalities reported in 2005. The fatality rate 
also increased from 4.9 to 5.0. Hispanic worker fatalities 
accounted for 17 percent of the total fatal work injuries that 
occurred in the United States in 2006. The rate of 5 fatalities 
per 100,000 workers recorded for Hispanic workers was a 25 
percent higher rate than the rate of 4 fatalities per 100,000 
recorded for all workers. Let me just finish this. While fatal 
work injuries to Hispanic workers increased in 2004, 2005, 
2006, they decreased in 2002 and 2003, but then they shot up.
    So you say the reduction in fatality rate among Hispanic 
workers has declined by 17 percent. Yet, your own thing says, 
no, it has increased.
    Secretary Chao. That was a 1-year result, and even though 
the up-tick occurred last year, the rate is still the lowest 
ever.
    Senator Harkin. The rate.
    Secretary Chao. Yes.
    Senator Harkin. The rate----
    Secretary Chao. Of the total workforce.
    Senator Harkin. The rate of fatalities among Hispanic 
workers as compared to the entire workforce in America is at 
the lowest point ever. Is that what you are saying?
    Secretary Chao. Yes. You are talking about the changes----
    Senator Harkin. Well, here the fatality rate is----
    Secretary Chao [continuing]. Which is what the increases or 
the decreases per year is. But if you look at the whole 
workforce, the rate is still the lowest.
    Senator Harkin. Well, let me read this again. The rate of 5 
fatalities per 100,000 workers--that is all workers--recorded 
for Hispanic workers was a 25 percent higher rate than the rate 
of 4 fatalities per 100,000 workers recorded for all workers.
    Secretary Chao. You are talking about the changes. You need 
to take a look at the whole workforce.
    Senator Harkin. Well, I am looking. When I see that 990 
Hispanics workers are fatally injured and it is a new series 
high and it represents a 7 percent increase, I do not care 
about the total workforce. You were talking about Hispanic 
workers.
    Secretary Chao. No.
    Senator Harkin. If I were to read that sentence, Madam 
Secretary, I would say, ``oh, it just declined by 17 percent. 
Boy, that is pretty good news.'' But I read this.
    Secretary Chao. Over a 7-year period, yes.
    Senator Harkin. That is not true. It is not true.
    Secretary Chao. It is true.
    Senator Harkin. Has declined by 17 percent of what?
    Secretary Chao. The OSHA injury and illness rate is down by 
17 percent between 2002 and 2006. The fatality rate is down 7 
percent between 2001 and 2006.
    Senator Harkin. For Hispanic workers.
    Secretary Chao. The Hispanic fatality rate is down by 16.7 
percent. If you took the 2001 number, take a look at 2006, it 
is a 16.7 percent decrease. OSHA inspections in fiscal year 
2007 are up by 7.6 percent.
    Senator Harkin. Well, Madam Secretary, please send that up 
to me because I would like to take a look at that because that 
is not what this says. Now, I do not know what you are talking 
about. All I can do is read what the plain English is on your 
Web site, and I will say one more time, 2006, 990 Hispanic 
workers fatally injured while at work, a new series high. It is 
a 7 percent increase reported in 2005. Per 100,000 workers, the 
rate of 5----
    Secretary Chao. It is the change.
    Senator Harkin [continuing]. Is 25 percent higher than 
before.
    Secretary Chao. You are talking about the change per year. 
You are talking about the change per year. We are talking about 
the rate overall.
    Senator Harkin. Oh, from 2001 to 2007.
    Secretary Chao. No. The rate of the whole workforce. You 
are talking about the changes from one year to the next.
    Senator Harkin. No. I am just talking about Hispanic 
workers.
    Secretary Chao. Yes, I understand that.
    Senator Harkin. You say that the fatality rate has gone 
down by 17 percent. 17 percent of Hispanic workers?
    Secretary Chao. Between 2001 and 2006.
    Senator Harkin. Of all Hispanic workers----
    Secretary Chao. Hispanic fatality rate, right.
    Senator Harkin. Has gone down by 17 percent.
    Secretary Chao. 16.7, yes.
    Senator Harkin. Well, I am sorry, Madam Secretary. You 
better change your Web site because that is not what that says. 
That is not what that says. I just read it. Unless I forgot my 
English, I mean, it just does not say that. They said here, 
while it decreased in 2002 and 2003, it has gone back up in 
2004 and 2005 and 2006. I guess we do not have it for 2007. The 
rate for Hispanics is 25 percent higher. That is for one year, 
but it is higher than it was in 2002 also. I am just reading 
from this. So maybe you need to correct your sheet here. I do 
not know.
    Secretary Chao. We will take a look.
    [The information follows:]

    Secretary Chao's testimony cited the decline in the rate of 
Hispanic fatalities, the number of Hispanic fatalities divided by 
Hispanic employment, which has fallen by 16.7 percent from 6 per 
100,000 Hispanic workers in 2001 to 5.0 in 2006.
    Senator Harkin cited the count of Hispanic fatalities, which, at 
990 in 2006, was a series high. Because Hispanic employment has grown 
substantially since 2001, this count does not lead to an increase in 
the rate of fatal work injuries to Hispanic workers.
    Also, Senator Harkin correctly noted that the Hispanic fatality 
rate in 2006 (5 per 100,000 workers) is 25 percent higher than that of 
all workers (4 fatalities per 100,000).
    Below are the numbers and rates of Hispanic worker fatalities and 
the fatality rate for all workers from 2001-2006:

----------------------------------------------------------------------------------------------------------------
                                                                    Hispanic worker fatalities      All worker
                              Year                               --------------------------------   fatalities
                                                                      Number         Rate \1\        rate \1\
----------------------------------------------------------------------------------------------------------------
2001............................................................             895             6.0             4.3
2002............................................................             841             5.0             4.0
2003............................................................             794             4.5             4.0
2004............................................................             902             5.0             4.1
2005............................................................             923             4.9             4.0
2006............................................................             990             5.0             4.0
----------------------------------------------------------------------------------------------------------------
\1\ Rate reflects the number of fatalities per 100,000 workers.

    Senator Harkin. I see our distinguished Senator from 
Washington is here, and I will yield to her for any statement 
or questions. Senator Murray?
    Senator Murray. Well, thank you very much, Mr. Chairman, 
and welcome, Secretary Chao. I am sorry I am late. I have 
several committee hearings going on today.

                  HIGH GROWTH JOB TRAINING INITIATIVE

    But I wanted to come and chat with you because in your 
testimony today and previously before this subcommittee, I have 
heard you speak about the Department's five critical priorities 
in budget and policy planning. One of those is--and I quote--
``increasing the competitiveness of America's workforce.''
    I have also heard you and many other administration 
officials talk about your agency's efforts to support the 
President's ``results-driven agenda.''
    Now, to me, ``results'' implies being able to measure the 
impact and effectiveness of programs that are supported by your 
Department. So today I was pretty disappointed that the GAO 
report released today finds that for almost $900 million spent 
under the President's demand-driven workforce agenda, your 
agency has failed to establish any kind of benchmarks that 
would allow you to adequately monitor whether any of these 
grants met the statutory requirements that they were awarded 
under or allow you to measure the performance of the programs 
that received this funding.
    Now, I initiated this report, along with Senator Harkin and 
Senator Kennedy, after we learned that the Employment and 
Training Administration awarded 90 percent of its high growth 
dollars noncompetitively over the last 6 years.
    I find the GAO's findings particularly troubling given that 
the agency intended to use these grants to shift the focus of 
our Nation's workforce development system, but because there 
has been very little planning by your agency on the front end, 
it is impossible now to compare these initiatives to the other 
programs under the Workforce Investment Act.
    It means that providing that your initiatives are more 
successful in ``increasing the competitiveness of America's 
workforce'' is really out of the question. In fact, GAO found 
that the Department failed to even integrate these initiatives 
fully under its strategic plan. Now, in my opinion, that fails 
to live up to a results-driven agenda.
    So given the findings of this GAO investigation and the 
Inspector General's audit that I believe Senator Harkin talked 
about in the High Growth grants, I think everyone on this 
subcommittee is eager to hear how you plan to demonstrate the 
effectiveness of the President's demand-driven job training 
program today.
    Reference reports: Dept. of Labor IG--Office of Audit, Rep. 
Number: 02-08-204-03-390, released April 29, 2008. GAO Report 
Number GAO-08-486.
    Can you tell us why we should continue to fund what seems 
like an effort to derail the Nation's workforce investment 
development system under WIA?
    Secretary Chao. I will be more than glad to. First of all, 
the GAO report was conveniently released this morning. We have 
not had a chance to review it.
    Number two----
    Senator Murray. Conveniently released?
    Secretary Chao. I do not have it.
    The High Growth Job Training Initiative was designed to 
respond to, as you well know, a demand-driven system. Every 
year there are in excess of $1 billion in unspent funds. There 
are duplicative structures within the system. That is an issue 
that the authorization committee has to take care of. But there 
is something called Employment Services and there is something 
called Workforce Investment Act. Much of the funding that goes 
on goes to Employment Services, which is a duplicative, side-
by-side structure next to workforce investment. If we are 
really concerned about increasing the competitiveness of our 
workforce, there is a crying need to reform the system, and 
that is what we are trying to do.
    Of the High Growth Job Training program, that is an effort 
to respond to the skills that are needed in our economy. As I 
mentioned before, if we are to have the trust and confidence of 
workers to come into our system seeking training, we need to 
give them relevant training, number one. Number two, we need to 
ensure that when they get the training, they actually can get a 
job when they leave. They demand no less. We can do no less.
    Senator Murray. Will you give us your commitment that you 
will look at this GAO report as soon as possible?
    Secretary Chao. Sure.
    Senator Murray. Will you implement its recommendations?
    Secretary Chao. I need to see what it is, but sure.
    Senator Murray. Well, we expect you to do that, and I am 
certain the committee would like to hear back about that.

                           WIA CONSOLIDATION

    I am concerned about the consolidation of the WIA funding 
streams for adult dislocated workers and youth. Obviously, that 
is something you continue to push. Even though your proposals 
have been rebutted by Congress on a bipartisan basis here, we 
have seen a continual decline in dollars in training and 
employment. This is a time when the economy is really hurting. 
Our constituents are asking how can we get the employment and 
training we need. We have seen proposals to eliminate 
employment services by zeroing out the $703 million that we 
have available for State grants. So line item after line item, 
we are seeing a continued decline in dollars here, yet people 
are very worried about holding on to their jobs. Does that not 
concern you?
    Secretary Chao. Of course, it concerns me. It concerns me 
that there are such duplication and excess funds in this system 
that is not helping people get the training that they need.
    Senator Murray. Give me a specific.
    Secretary Chao. We have $863 million, something like that, 
in unspent funds in the system.
    Senator Murray. Why is that? Is it being held back?
    Secretary Chao. We have duplicative systems. If we visit 
the workforce investment system, on the one side of the 
building is employment services. On the other side is workforce 
investment. They should be combined so that workers can get the 
training that they need. Currently that is not happening, and 
we are training people for jobs that do not exist. That is 
terrible.
    Senator Murray. That is exactly why under WIA we think the 
Workforce Development Councils at the local level who know 
their own local communities better than any of us here in 
Washington, DC----
    Secretary Chao. But they are separate from----
    Senator Murray. Well, we have a difference of philosophy 
that is not going to be solved in the next several months.
    I came in when the chairman was asking you about the 
workplace injuries and illnesses, and this is something that we 
have had a number of OSHA oversight hearings in my Employment 
Workforce Safety Subcommittee, when Dr. David Michaels 
testified recently. He told us that the true incidence--and I 
am quoting him--``is far higher than reported by the Bureau of 
Labor Statistics since these data do not include approximately 
two-thirds of occupational injuries and illnesses.''
    In all of our oversight hearings, it became very clear that 
the under-reporting of workplace injuries and illnesses is a 
serious issue today. Is this something you are hearing about or 
you are concerned about--under-reporting?
    Secretary Chao. I do not believe there is under-reporting, 
but if you are concerned about it, I will take a look at it.
    Senator Murray. This is something that our committee looked 
extensively at. It is very clear that there is under-reporting 
throughout the process. We will give you some of our hearing 
backgrounds because I think it may change your view on whether 
or not there is a decreased number of injuries.
    Mr. Chairman, I have several other questions I will submit 
for the record, but I appreciate the opportunity this morning. 
Thank you, Madam Secretary.
    Secretary Chao. Thank you.
    Senator Harkin. Thank you, Senator.

                            WIA RESCISSIONS

    I would just follow up a little bit on that, Madam 
Secretary. Of the 20 States that responded, 19 reported they 
needed waivers so they could cover the rescissions with fiscal 
years 2007 and 2008 funds. In other words, they did not have 
enough 2005 and 2006 funds left that could be used to cover the 
rescission. We went through this last year.
    Secretary Chao. We did not ask for the rescission. It was 
the Congress.
    Senator Harkin. No.
    Secretary Chao. I take it back. I am sorry.
    Senator Harkin. Yes. You asked for $335 million and we 
did--well, let me get the right figure here. Yes, we did $250 
million. You asked for $335 million.
    Secretary Chao. So the question was----
    Senator Harkin. Well, I am just pointing out that the 
States did not have enough funds. I just thought I heard you 
say that there is all this leftover money out there. Did I hear 
that?
    Secretary Chao. Yes.
    Senator Harkin. Yes. Well, the data we have does not show 
that there is all that leftover money. Of 20 States that 
responded, 19 said they needed waivers.
    Secretary Chao. Okay. I will take a look at that.
    [The information follows:]

    As indicated in the attached table, a total of 47 States 
(including the District of Columbia and the Navaho Nation) have 
requested approval to use Program Year (PY) 2007 funds to 
satisfy the rescissions. The appropriations language 
specifically allows the Secretary to grant such approval. 
However, the appropriations language does not contain any 
authority for the Secretary to grant a waiver enabling a State 
to pay back money due to the rescission from a subsequent 
program year (i.e., PY 2008). Therefore, a waiver allowing the 
use of Program Year 2008 or other future funds cannot be 
granted and no States have made such a request. Additionally, 
the State of Tennessee has requested a separate waiver in 
response to the rescissions that will provide greater 
flexibility in the recapture and reallocation of local funds. 
This waiver does not contradict any of the requirements 
contained within the rescissions and is regularly granted under 
the Workforce Investment Act.

DEPARTMENT OF LABOR EMPLOYMENT AND TRAINING ADMINISTRATION $250 MILLION 
RESCISSION OF UNEXPENDED BALANCES DISTRIBUTION OF RESCISSION BY FUNDING 
                    YEAR AS REQUESTED BY THE STATES


----------------------------------------------------------------------------------------------------------------
                                                                  Funding year                      Requested
                     State                      ------------------------------------------------  waiver to use
                                                     PY 2005         PY 2006         PY 2007      PY 2007 funds
----------------------------------------------------------------------------------------------------------------
ALASKA.........................................         645,570         752,251  ..............               N
ALABAMA........................................         864,407         876,360       1,118,950               Y
ARKANSAS.......................................  ..............       1,308,786       2,915,426               Y
ARIZONA........................................          74,501       3,512,795       5,891,464               Y
CALIFORNIA.....................................         262,937       1,501,341      11,790,901               Y
COLORADO.......................................          51,160       3,569,938       5,144,692               Y
CONNECTICUT....................................  ..............  ..............         669,896               Y
DC.............................................  ..............  ..............       2,292,101               Y
DELAWARE.......................................  ..............         378,486          58,289               Y
FLORIDA........................................       1,659,910       2,099,438       6,833,750               Y
GEORGIA........................................  ..............       7,183,495       2,250,192               Y
HAWAII.........................................  ..............  ..............         239,536               Y
IOWA...........................................  ..............         286,198         993,132               Y
IDAHO..........................................  ..............  ..............         210,683               Y
ILLINOIS.......................................       1,220,530       5,203,752       1,751,880               Y
INDIANA........................................       6,876,594       4,093,268  ..............               N
KANSAS.........................................  ..............         751,532       4,896,619               Y
KENTUCKY.......................................          82,357         135,469       2,290,279               Y
LOUISIANA......................................  ..............  ..............       4,426,629               Y
MASSACHUSETTS..................................         393,273         789,873         431,815               Y
MARYLAND.......................................  ..............  ..............       2,087,739               Y
MAINE..........................................  ..............         220,066          40,068               Y
MICHIGAN.......................................         216,223         123,913       5,213,936               Y
MINNESOTA......................................  ..............         573,853         294,427               Y
MISSOURI.......................................  ..............  ..............       1,503,748               Y
MISSISSIPPI....................................          30,677       1,912,858       1,407,583               Y
MONTANA........................................  ..............         189,376  ..............               N
NORTH CAROLINA.................................       1,561,572  ..............       1,308,565               Y
NORTH DAKOTA...................................         238,238  ..............         147,895               Y
NEBRASKA.......................................         437,191       1,154,684         759,836               Y
NEW HAMPSHIRE..................................  ..............         216,222         145,238               Y
NEW JERSEY.....................................  ..............  ..............       2,393,715               Y
NEW MEXICO.....................................         132,350       1,489,196       1,185,327               Y
NEVADA.........................................  ..............  ..............         390,190               Y
NEW YORK.......................................      20,657,557       9,954,817       7,053,353               Y
OHIO...........................................       2,500,000      10,557,343       6,725,717               Y
OKLAHOMA.......................................         822,272       5,221,830       4,213,712               Y
OREGON.........................................         674,514       1,925,147       2,231,011               Y
PENNSYLVANIA...................................  ..............  ..............       4,434,297               Y
PUERTO RICO....................................       3,170,099       6,581,296  ..............               N
RHODE ISLAND...................................  ..............  ..............         314,971               Y
SOUTH CAROLINA.................................  ..............  ..............       5,637,141               Y
SOUTH DAKOTA...................................  ..............         555,825         362,605               Y
TENNESSEE......................................         661,037       5,153,561       4,508,974               Y
TEXAS..........................................       5,782,445       3,635,845  ..............               N
UTAH...........................................  ..............       1,884,533  ..............               N
VIRGINIA.......................................       1,279,747       2,510,039         868,365               Y
VERMONT........................................  ..............  ..............         141,574               Y
WASHINGTON.....................................  ..............  ..............       2,651,487               Y
WISCONSIN......................................  ..............  ..............         583,404               Y
WEST VIRGINIA..................................  ..............  ..............         476,806               Y
WYOMING........................................  ..............          78,180         184,289               Y
NAVAHO NATION..................................          73,492  ..............       1,777,574               Y
                                                ------------------------------------------------
      Total....................................      50,368,654      86,381,565     113,249,781
----------------------------------------------------------------------------------------------------------------

    Senator Harkin. Okay.

                       WORKERS COMPENSATION DATA

    Madam Secretary, I want to cover a couple of other issues 
with you. One is this. Your whole statement about the fact that 
injuries are down and fatalities are down. Serious injury and 
illness rates have fallen to record lows, et cetera. I went 
over the Hispanic thing with you. I will not go back over that. 
Just the totality of it, and we are finding some really 
disturbing information here.
    I will just read this again. This is from your own Web 
site. ``While BLS occupational injury and illness data have 
been the subject of scrutiny from time to time, a study 
released in early 2006 is the first specific research 
documenting missing cases in individual firms as determined by 
comparisons between BLS and State workers compensation data.''
    Well, I have asked my staff to take a closer look at this. 
It looks like what we have here is under-reporting. So how do 
we know that what you are telling us is so when your own BLS 
says that the first specific research documented missing cases 
out there? So how do we know that these figures are even 
remotely correct when BLS says that there are missing cases out 
there documented that they picked up?
    In other words, what they did is they went to State 
workman's comp offices, looked at people who had got workman's 
comp for an injury, looked at the injury data from that place 
back to your Department and said they were not reported. They 
were injured or had serious illness--I do not know which--were 
receiving workman's comp but were not reported. This is very 
disturbing that we do not know. That way we do not have the 
accurate data.
    Secretary Chao. OSHA conducts audit programs for these. 
They do audits of all these programs, and OSHA has conducted 
these audit programs for about the last 10 years. They believe 
that the accuracy rate is about 90 percent.
    Senator Harkin. Well, the Bureau of Labor Statistics is 
saying that they have got missing cases that they documented. 
So if OSHA is out there doing it, they are missing something. 
Something is being missed here. What I do not know is the 
extent of it. We do not know the extent of it. I intend to get 
to the bottom of it sometime either this year or next or 
something like that and find out. We may include language in 
this bill to find out. I may have to get the GAO to do another 
investigation. I do not know.
    Secretary Chao. We will be more than glad to work with you 
because OSHA basically checks the record keeping on every 
inspection that it does.
    Senator Harkin. If the BLS says they are not doing it right 
or they are missing something, then you have got to wonder 
about the validity of their data.

                      LM-30 REPORTING REQUIREMENTS

    Now, as I said earlier, only three significant safety and 
health regulations were issued, and you are going to send me 
these other ones that you did so I can see what they look like.
    In contrast, however, DOL has issued revised regulations 
for the LM-2 and the LM-30 reporting programs. Now, I have 
heard a lot about this. The new LM-30 reporting requirements 
force rank and file union members to report on personal loans 
even at market rates, such as a mortgage, student loan, or car 
loan. Because of these reporting requirements, unions are 
telling me that this has a dampening effect, discouraging 
members from serving even as a shop steward because then they 
have got to give all this data out, or they do not serve as 
board members.
    Now anticipating that you might say, ``Well, this has to do 
with ensuring there are no conflicts of interest,'' these are 
loans that are offered to the general public. These are market 
rate loans, and yet you are requiring that data to be 
submitted.
    So I am just wondering what is the purpose of having rank 
and file union members report on personal loans that they get 
at market rates, such as mortgages, student loans, car loans, 
et cetera, since these loans in question are on terms offered 
to the general public. What is the purpose of collecting that 
kind of data?
    Secretary Chao. You know, there is so little that we do in 
OLMS. We have only issued two regulations--not even issued. We 
have updated these regulations, LM-2, LM-30s. They have not 
been updated since 1959. The LM-30s are required by law, and 
there was very bad compliance. Until we focused on this, there 
was no compliance at all. I have no other laws within the 
Department of Labor in which there is no compliance. With LM-
2s, it was 50 percent compliance within a 3-year period.
    This is a very small office. The budget is only $50 million 
in a budget of $10.5 billion.
    On the issue that you raise, if there is no conflict of 
interest, then there is no need to file.
    Senator Harkin. Well, I am told they have to file it if 
they have got a loan, if they have got a mortgage or they have 
got a student loan or a car loan. They still have to file that. 
Is that wrong?
    Secretary Chao. I will check into that for you. If there is 
no conflict of interest, then there is no need to file. The 
only purpose for this is to ensure that rank and file members 
know about non-arm's-length transactions occurring with the 
leadership of their unions.
    Senator Harkin. I have no problem with that. Well, maybe my 
information is wrong. I do not know. We will find out.
    Secretary Chao. If there is a misunderstanding, we need to 
clarify that.
    Senator Harkin. Will you have somebody find out for me if 
this is wrong or not?
    Secretary Chao. Sure.
    [The information follows:]

    Under the revised Form LM-30 rules, no report is due unless 
there is a potential conflict of interest. For this reason, 
there are different rules depending on whether the financial 
institution is affiliated, or does business, with the union.
    Generally, a union official or employee filing a Form LM-30 
need not report bona fide loans, interest or dividends from 
national or State banks, credit unions, savings or loan 
associations, insurance companies, or other bona fide credit 
institutions, so long as these transactions are made on terms 
unrelated to the official's status in the labor organization.
    However, union officials and employees must report such 
payments when the labor organization established, or selects 
the directors of, the financial institution. In this 
circumstance, there is a potential conflict of interest because 
of the potential for self dealing when a financial institution 
affiliated with a union is lending money, or making other 
payments, to an official of that union.
    In addition, loans to union officials must be reported when 
made by financial institutions that do business with the union 
or union-affiliated organizations, or do substantial business 
with the employer of the union members. The potential conflict 
of interest is plain. Union members have a right to know if 
their union is doing business with a financial institution 
because it is offering the best terms available or because a 
union official is getting special deals from the institution.
    Finally, there is never any requirement to report everyday 
financial matters such as credit card transactions (including 
unpaid balances) or interest and dividends paid on savings 
accounts, checking accounts or certificates of deposit.

    Senator Harkin. But I would just point out that on page 157 
of your performance and accountability report, you say that 
OLMS--I quote--``met its target of 7.5 percent for the 
percentage of unions with indicators of fraud. Private sector 
research indicates that this rate of fraud is significantly 
lower than fraud in corporations, which is estimated at 10 
percent.'' So, again, why do we keep increasing the money for 
that office when your own thing says it has met its target of 
7.5 percent? Why keep asking for more money and for more 
people?
    Secretary Chao. In the 1980s, the compliance audits was 
about 1,500. By the year 2000, there were less than 204 
international audits. There were international audits in fiscal 
year 2000 of two labor unions. Of the 33,000 labor 
organizations, only 3,000 have been audited since 2001. This is 
required by the law. The FTE in that little office was slashed 
more than 7--I do not want to say 7--my impression was 70 
percent. We are just trying to build it up. In the late 1980s, 
the FTE was 435. We are currently at 321. It is still much 
below what it was then. In the decade of the 1990s, the FTEs 
were slashed. There are international unions that have never 
been audited.
    Senator Harkin. Again, your documentation here--this is 
from your performance and accountability report. I was 
intrigued by this because here on page 156 it talks about the 
union financial integrity and transparency. That is where we 
got the 7.5 percent.
    Down here it says, ``Percent of union reports meeting 
standards of acceptability.'' Your target for fiscal year 2004 
was 75 percent. The result, 92 percent. Your target for 2005 
was 95 percent. The result was 94 percent. Fiscal year 2007 
goal was 95 percent. I am sorry. The target was 97 percent. The 
result is 95 percent. So 95 percent of union reporting meeting 
standards of acceptability are 95 percent.
    Secretary Chao. That is great. That is how it should be. 
But you have to have audits.
    Senator Harkin. But now you are telling me--I thought I 
just heard you say that these were not acceptable reports and 
stuff that were coming in, and so you have to have more audits. 
I am saying no.
    Secretary Chao. We have to have audits.
    Senator Harkin. By your own thing----
    Secretary Chao. But that is our statutory responsibility. 
We have to conduct audits. We have not been conducting audits.
    Senator Harkin. When did you start?
    Secretary Chao. No, no. They have been going on, but it has 
been much reduced. In fiscal year 2001, for example, we did 220 
audits.
    Senator Harkin. When?
    Secretary Chao. Fiscal year 2001, I believe. We did 220 
audits. There were 110 indictments. That is an incredible 
number. What we are trying to do is to enforce the law.
    Senator Harkin. That was 2001?
    Secretary Chao. Yes. It was 2001. I do not have the exact, 
but it is around that time frame. Yes. I can get that for you.
    [The information follows:]

    OLMS audits, indictments and convictions for each year 
2001-2007 are as follows:

----------------------------------------------------------------------------------------------------------------
                                                                   Fiscal year
                                         ---------------------------------------------------------------  Total
                                            2001     2002     2003     2004     2005     2006     2007
----------------------------------------------------------------------------------------------------------------
Indictments.............................       99      166      131      110      115      121      100      842
Convictions.............................      102       89      152      111       97      133      118      802
Compliance Audits (CAP).................      238      277      255      532      612      737      775    3,426
International Compliance Audits  (I-CAP)        1        2  .......        1        7        5        7       23
----------------------------------------------------------------------------------------------------------------

    Senator Harkin. The figures you just gave me--there were 
220----
    Secretary Chao. Audits done in fiscal year 2001.
    Senator Harkin. 110 indictments.
    Secretary Chao. Yes.
    Senator Harkin. Do you know what they were for subsequent 
years?
    Secretary Chao. I do not have that. That was just the first 
year. The Inspector General's Semi-Annual Report shows all of 
the activities in OLMS as does the OLMS Annual Report as well.
    Senator Harkin. Would you get me the same type of data, how 
many audits and how many indictments for every year?
    Secretary Chao. Yes. I thought I had that, but I do not.
    Senator Harkin. I just do not have it. All I have got is 
this right here.
    Secretary Chao. But again, we are just trying to enforce 
the law here and to ensure compliance. That is all.

                       LABOR-MANAGEMENT REPORTING

    Senator Harkin. Well, I guess my point is that--I remember 
one time a long time ago when we were having a debate on food 
stamp fraud and people were going on about all the fraud in 
food stamps and stuff. I made the point. I said there is a 
clear way to stop all fraud in food stamps or any other 
Government program like that. You just make sure that every 
recipient has an account assigned to them and a priest, rabbi, 
or minister. You will stop all the fraud. Of course, it will 
cost 10 quadrillion dollars to do it, but you will not have any 
fraud.
    So, again, in all of these things, it has to do with what 
is the acceptable level, and if we are down to 7.5 percent in 
indicators, then it seems to me that to be adding more money 
and more money and requiring more reports does not seem to be 
cost effective.
    Secretary Chao. This is one of the least regulated areas in 
the whole Department. As I mentioned, there have only been two 
regulations, LM-2, LM-30s, and there has been very little 
compliance. With LM-2s, we can get you the numbers on that, and 
there has been a tremendous decrease in audits, tremendous 
increase in enforcement, tremendous decrease in compliance. It 
is not that we are singling out any one community. We are just 
trying to enforce the law, and the record for compliance in 
this area has been very disappointing.
    Senator Harkin. I come back to that point and you have only 
issued three in 8 years, three OSHA. But you are going to send 
me the other 23 too I guess and let me take a look at it.
    Secretary Chao. OSHA has a huge program. This is a little 
agency of $50 million. It has a disproportionate level of 
attention. I do not understand it. It is not that we are 
singling it out. It is a $50 million little agency. All we are 
trying to do is enforce two regulations.
    Senator Harkin. Yes, but the LM-30s that you have issued, 
in terms of all this reporting--but you are going to tell me 
whether or not it is right that they have to report all these 
things.
    Secretary Chao. Yes, we will.
    Senator Harkin. I will find out about that.
    Secretary Chao. We have actually had workshops to try to 
clarify, not that it is so complicated, but what is requested. 
We have actually held workshops. But we will certainly provide 
that information.
    Senator Harkin. I would like to know whether I am right on 
that or not. I do not know.

                         MINE SAFETY AND HEALTH

    In November 2007, the DOL Inspector General issued a report 
regarding missed safety and health inspections in underground 
coal mines. MSHA is required by law to inspect underground 
mines not fewer than four times a year. Here is what the IG 
found. During fiscal year 2006, 15 percent of the Nation's 
underground coal mines were inspected at least one time fewer 
than the four times required by law. Second, the number of 
inspectors relative to mining activity increased from fiscal 
year 1997 to 2001, but decreased significantly, 25 percent 
inspectors--decreased 25 percent from fiscal year 2002 to 2006. 
MSHA said inspector resource limitations affected their ability 
to complete all of the required inspections in fiscal year 
2006, noting that lack of funding prevented MSHA from hiring or 
filling vacancies.
    Again, it is priorities. You are asking more money for 
labor-management reporting, which I pointed out you said you 
have already met your goal of 7.5 percent, and yet you cut the 
funding from MSHA. Your request is $332 million. It is a 
reduction of almost $2 million from the amount provided in 
2008. Congress had to provide MSHA with $20 million more than 
your budget request last year to help MSHA meet its 
obligations. So, again, on the one hand, you are putting more 
money here, but you are taking money out of MSHA. I have to 
wonder about priorities here.
    Secretary Chao. The budget request for OLMS is the same 
this year as it was last year. Last year the Congress added 
$936 million more to the President's request for worker 
protection, and yet it cut $2 million from OLMS. We are just 
asking for the same amount of money in an effort to try to 
restore the funding and the functions of this office to pre-
1991 levels.
    On the issue of worker protection, we have consistently 
asked for increased budgets for worker protection programs 
throughout our whole tenure here. In 2008, MSHA's budget was 
not cut. There was a one-time expense to MSHA such as roof 
replacement for the MSHA academy, high methane detectors for 
inspectors. We have had earmarks of $3.4 million, Wheeling 
Jesuit, $1.2 million; UMWA, $2.2 million. We have had 
regulations for technical support equipment. These are one-time 
expenses. So if you take out the one-time expenses, our request 
this year is actually higher than the previous year.
    Senator Harkin. Okay. Is your budget request less than what 
we provided last year for MSHA?
    Secretary Chao. Yes, it is.

                           ERGONOMIC INJURIES

    Senator Harkin. Ergonomics. Again, this has been an issue 
that quite frankly, Madam Secretary, we just keep kicking the 
can down the road on ergonomics. As you know, that was the 
first thing I think that President Bush argued for after he 
took office.
    One-third of all injuries--we were told, approximately one-
third--and illnesses and days away from work are 
musculoskeletal disorders from exposure to ergonomic hazards on 
the job. In 2006, 375,540 serious ergonomic injuries resulting 
in time off the job reported by employers.
    Getting back to issuing regulations, 375,540. Yet, no 
regulations.
    In 2002 you, Madam Secretary, announced a comprehensive 
plan to address ergonomic injuries, including ``industry-
targeted guidelines and tough enforcement measures.'' Those 
were your words. To quote you further, ``Our goal is to help 
workers by reducing ergonomic injuries in the shortest possible 
timeframe.''
    Well, let us see what has happened. OSHA has only issued 19 
ergonomic citations since 2001, and there was one in 2005, none 
in 2006 or 2007. In 2006, there were 375,540 serious ergonomic 
injuries resulting in time off the job.
    According to information you provided to the committee last 
year, the number of hazard alert letters also appears to be 
declining. In 2003, there were 224 ergonomic hazard alert 
letters issued. In 2004, 109. The number fell to 52 in 2005 and 
31 letters issued in 2006.
    So if we see there were 375,540 serious ergonomic injuries 
in 2006, why have the number of hazard alert letters declined 
so significantly? Is OSHA inspecting workplaces for ergonomic 
hazards?
    Secretary Chao. Yes.
    Senator Harkin. They are.
    Secretary Chao. Yes.
    Senator Harkin. But then why are the hazard alert letters 
going down when we see all these injuries?
    Secretary Chao. We send out approximately 625 hazard alert 
letters.
    Senator Harkin. How many?
    Secretary Chao. 625.
    Senator Harkin. 625? When?
    Secretary Chao. I do not have those dates. I can get that 
for you, but we have sent approximately 625 hazard alert 
letters to notify employers of ergonomic problems.
    We have also issued final ergonomic guidelines for nursing 
homes, retail grocery stores, poultry processing, and 
shipyards. We have also conducted over 700 ergonomic 
inspections per year, and overall ergonomic injuries have been 
declining.
    Senator Harkin. Well, just a second about that. I will tell 
you that I do not have 2001 or 2002, but I do have 2003, 2004, 
2005, and 2006, and that adds up to maybe 330-some. I do not 
know where the 625 comes from. Maybe that comes from 2001 and 
2002 that I just do not have here.
    My point is that it went from 224 to 109 to 52 to 31, and I 
am just wondering why are the number of hazard alert letters 
going down so precipitously.
    Secretary Chao. I will take a look at the numbers, but I 
think, as I mentioned, we have issued approximately 625 hazard 
alert letters. I will go and try to clarify that for you.
    [The information follows:]

    The Occupational Safety and Health Administration did not 
start tracking the ergonomics hazard alert letters until mid-
2002 when the Secretary's four-pronged ergonomics program was 
launched. For 2002-2008, the following information is provided 
on the number of ergonomics hazard alert letters that were 
issued by OSHA:

------------------------------------------------------------------------
                         Year                            Alert letters
------------------------------------------------------------------------
2002.................................................                 31
2003.................................................                259
2004.................................................                128
2005.................................................                 81
2006.................................................                 38
2007.................................................                 49
2008.................................................            \1\ 18
------------------------------------------------------------------------
\1\ Through April 2008.

    Secretary Chao. Let us take a look at the injury rate 
involving days away from work declined because of ergonomic 
injuries--our injury rate for all injuries, and they have 
basically have been declining. So in terms of injuries and days 
lost in terms of work, the trend again has been positive and it 
has been better than in previous years.
    Senator Harkin. I would ask you to submit that for the 
record what data you have on showing that decline in ergonomic 
injuries. Again, I will just say once again if BLS says that 
they have evidence that they are documenting missing cases 
because they have workman's comp cases out there but they are 
not being reported, then I wonder about the validity of how 
much ergonomic injuries are going down. Even if they are going 
down, in 2006, it was 375,540. So even if it is coming down, 
that is way, way----
    [The information follows:]

   NUMBER AND INCIDENCE RATE OF OCCUPATIONAL INJURIES AND ILLNESSES 
INVOLVING DAYS AWAY FROM WORK WITH MUSCULOSKELETAL DISORDERS IN PRIVATE 
                     INDUSTRY FOR ALL UNITED STATES


------------------------------------------------------------------------
                                     Number of cases    Rate per 10,000
               Year                        \1\              workers
------------------------------------------------------------------------
2006..............................            357,160               38.6
2005..............................            375,540               41.3
2004..............................            402,700               45.2
2003..............................            435,180               49.6
2002 \2\..........................            487,915               55.3
2001..............................            522,528               57.5
------------------------------------------------------------------------
\1\ Includes cases where the nature of injury is: sprains, strains,
  tears; back pain, hurt back; soreness, pain, hurt, except back; carpal
  tunnel syndrome; hernia; or musculoskeletal system and connective
  tissue diseases and disorders and when the event or exposure leading
  to the injury or illness is: bodily reaction/bending, climbing,
  crawling, reaching, twisting; overexertion; or repetition. Cases of
  Raynaud's phenomenon, tarsal tunnel syndrome, and herniated spinal
  discs are not included. Although these cases may be considered MSDs,
  the survey classifies these cases in categories that also include non-
  MSD cases.
\2\ Effective January 1, 2002, the Occupational Safety and Health
  Administration (OSHA) revised its requirements for recording
  occupational injuries and illnesses. Due to the revised recordkeeping
  rule, estimates from the 2002 survey are not comparable with those
  from previous years prior to 2002.

Source.--BLS Annual Survey of Occupational Injuries and Illnesses.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Secretary Chao. We are concerned about it, of course.
    Senator Harkin [continuing]. Way too many.
    Secretary Chao. Yes, but that is the overall measurement, 
is it not? Overall injuries and illnesses?
    Senator Harkin. Yes, but you have only issued 19 ergonomic 
citations since 2001. You had one in 2005 and none in----
    Secretary Chao. We have a four-prong approach. It is 
enforcement. It is education and outreach. It is research. It 
is compliance assistance. Obviously that four-prong approach is 
working.
    Senator Harkin. Well, when there are 375,540 in 2006, it 
does not seem like it is working too well.
    Secretary Chao. Obviously, it is working. The current 
approach has provided positive results, but we can always do 
better.
    Senator Harkin. Your National Advisory Committee on 
Ergonomics recommended 16 industries for the development of 
guidelines, but only 4 were issued. Do you have a timeline when 
the rest of them will be issued?
    Secretary Chao. The appropriations bill last year asked us 
to further evaluate these 16 and that is what we are doing now.
    Senator Harkin. I am sorry.
    Secretary Chao. The fiscal year 2008 appropriations bill 
asked for the Department to further evaluate these 16, and we 
are doing so.
    Senator Harkin. You are evaluating the 16? Four were 
issued.
    Secretary Chao. Right. There were 16 additional ones. You 
are asking for 16 additional ones.
    Senator Harkin. You are evaluating those now?
    Secretary Chao. So we are looking at those, yes.
    Senator Harkin. Okay. Well, just let us know when those are 
going to be issued.
    I do not have the 2007 figures for ergonomic injuries. Do 
you have them for 2001, 2002, 2003, 2004, and 2005?
    Secretary Chao. I do not have them with me.
    Senator Harkin. I only have 2006.
    Secretary Chao. I will provide them.
    [The information follows:]

    The Department of Labor has taken a comprehensive approach to 
ergonomics since 2002, including development of industry- and task-
specific guidelines, enforcement, outreach and assistance, and 
research. As part of this effort, OSHA has committed considerable 
resources to preventing MSDs in the workplace.
    OSHA published guidelines for three industries recommended for 
guideline development by the National Advisory Committee on Ergonomics 
(NACE): nursing homes, retail grocery, and poultry processing. OSHA has 
also just recently published its fourth set of guidelines in the 
series, which is Ergonomics for the Prevention of Musculoskeletal 
Disorders: Guidelines for Shipyards.
    Further OSHA analysis has identified industries for which the 
incidence rates for MSDs resulting in days away from work were more 
than twice the national average for at least 2 of the 3 years for which 
data were examined. The analysis identified the following 24 
industries:
    (NAICS 238140) Masonry contractors
    (NAICS 311423) Dried and dehydrated food manufacturing
    (NAICS 311500) Dairy product manufacturing
    (NAICS 312000) Beverage and tobacco product manufacturing
    (NAICS 321992) Prefabricated wood building manufacturing
    (NAICS 327100) Clay product and refractory manufacturing
    (NAICS 331420) Copper rolling, drawing, extruding and alloying
    (NAICS 331500) Foundries
    (NAICS 334416) Electric coil, transformer, and other inductor 
manufacturing
    (NAICS 336100) Motor vehicle manufacturing
    (NAICS 336214) Truck trailer and camper manufacturing
    (NAICS 336391) Motor vehicle air-conditioning manufacturing
    (NAICS 336600) Ship and Boat Building
    (NAICS 337215) Showcase, partition, shelving, and locker 
manufacturing
    (NAICS 424400) Grocery and related product merchant wholesalers
    (NAICS 424800) Beer, wine and distilled alcoholic beverage merchant 
wholesalers
    (NAICS 444100) Building material and supplies dealers
    (NAICS 481000) Air transportation
    (NAICS 485100) Urban transit systems
    (NAICS 492000) Couriers and messengers
    (NAICS 493100) Warehousing and storage
    (NAICS 562100) Waste collection
    (NAICS 621900) Other ambulatory health care services
    (NAICS 623000) Nursing and residential care facilities
    OSHA is currently reviewing this list to determine the next 
industries to target with ergonomics guidance beyond guidance that has 
already been issued.

    Senator Harkin. I would like to see how much they are 
declining by.
    Secretary Chao. Okay, will do.
    Senator Harkin. Still one of the highest reasons for people 
not being able to work and losing time off the job is ergonomic 
injuries. Quite frankly, this is going to have to be addressed. 
I do not suppose it will be, obviously, this year in this 
administration, but whichever the next administration is, if I 
am here, I am telling you we are going to get onto ergonomics. 
Something has to be done because I have been to places.
    I have been in places where they have had ergonomic 
injuries and time off, and sometimes the companies took it upon 
themselves. Their board of directors said something needs to be 
done and they did it. By changing simple, little things and 
providing for different heights of tables and different things 
like that, you can really cut down on these. I think your 
Department----
    Secretary Chao. I agree with you on that. It is not a one-
size-fits-all, but it is giving general guidelines, education, 
and research and how employers can adapt the technology and 
their knowledge to their specific workplace because there is no 
one-size-fits-all solution to this.
    Senator Harkin. Right, I agree.
    Well, it seems to me you had a plan. Well, to me, just 
again looking at it, it does not seem like you are really 
implementing your own plan.
    Secretary Chao. It is a four-prong strategy and a great 
deal of it rests with education, outreach, helping employers 
and worker groups find their own solution on reducing ergonomic 
injuries.
    Senator Harkin. I do not disagree with you. That is. But 
sometimes a good citation----
    Secretary Chao. We certainly do that too.
    Senator Harkin [continuing]. Wakes people up.
    Secretary Chao. Yes, and we have inspections.
    Senator Harkin. Wait a minute. No, you do not----
    Secretary Chao. We use alert letters.
    Senator Harkin. You do not do citations. You did none in 
2006 and none last year, not one. There are 375,540 serious 
injuries in 2006, and you issued no citations. I mean, if it 
had been three or four, okay. You only issued 19 since 2001. 
Like I said, sometimes a good citation wakes people up and they 
start doing things.
    Secretary Chao. We do have inspections too. We have 700 
ergonomic inspections every year.
    Senator Harkin. You have 700 ergonomic inspections every 
year for the entire country. I do not find that too impressive 
a figure, I got to tell you.
    Secretary Chao. I understand. But the overall injury rate 
is down, and we can talk about that. We will give the numbers 
to you.
    Senator Harkin. Well, that is okay. I am glad it is down. 
It is just awfully high.
    Your table says here for fiscal year 2007, there were only 
449 ergonomic inspections.
    Secretary Chao. Well, we seem to have a difference of 
opinion. So let me find out what the difference is. My notes 
said----
    Senator Harkin. It is in your budget request.
    Secretary Chao. That is not good. Let us find out what 
happened because I have 700 ergonomic inspections per year.
    Senator Harkin. The actual fiscal year 2007 was 449 in your 
own book.
    Secretary Chao. Over what period, may I ask?
    Senator Harkin. Fiscal year 2007.
    Secretary Chao. Okay. Let me take a look at that because my 
notes here said it is 700. So there must be some disconnect.
    [The information follows:]

    In fiscal year 2006, OSHA conducted 795 ergonomic inspections. In 
fiscal year 2007, the Agency conducted 705 ergonomic inspections. The 
discrepancy between this number and the erroneous reporting for fiscal 
year 2007 in the Agency's fiscal year 2009 Congressional Budget 
Justification reflects the correction of an error in the coding of 
inspections that was made subsequent to the publishing of the 
Congressional Budget Justification.

    Secretary Chao. But from 2003 to 2006, the ergonomic injury 
rate again declined about 22 percent overall. So this broad-
based, multi-prong approach does have value.
    Senator Harkin. From 2002 to 2006?
    Secretary Chao. Right.
    Senator Harkin. Well, I would again appreciate those every 
year. But again, I will always look at that askance until I 
find out whether or not we are getting accurate reporting, and 
we are going to include language in our bill for the Department 
to go after this and find out what the BLS is saying. Why are 
they saying that there is missing cases out there? Is it big? 
Is it small? I do not know. I have not the foggiest idea, but I 
think we need to find out whether that is real or not because 
it brings into question whether it has really been a 22 percent 
decline or not. I do not know until we get a better handle on 
missing cases and what that means in terms of reporting.

                            OSHA STATE PLANS

    Iowa is an OSHA State plan State. How many States are State 
plans?
    Secretary Chao. About half.
    Senator Harkin. How many?
    Secretary Chao. About half.
    Senator Harkin. Half?
    Secretary Chao. Yes.
    Senator Harkin. About half the States have State plans. It 
means that the Division of Labor Services rather than OSHA 
administers the State's workplace safety and health program. 
Under the Occupational Safety and Health Act, States are 
authorized to develop their own occupational safety and health 
plans. The Federal Government will provide 50 percent of the 
costs. Half of the States operate such a plan. I have got that 
there.
    Dave Neil, the Commissioner of the Department of Labor 
Services, wrote me earlier this year and noted that the Federal 
amount provided to Iowa in fiscal year 2008, which we are in, 
is $1.6 million, or 37.8 percent, rather than the 50 percent 
required by OSHA. Why? Why is it less than the 50 percent? And 
are other States like this? I only know my own State. But why 
are they getting 37.8 percent rather than the 50 percent?
    Secretary Chao. I actually boned up on the answer for this, 
and I do not have it handy with me right now.
    Senator Harkin. Well, if you do not have it, just submit it 
for the record.
    Secretary Chao. Let me get that for you.
    [The information follows:]

    There are 26 States that operate OSHA-approved State Plans, which 
deliver the OSHA program to 40 percent of the Nation's employers and 
employees. Twenty-one States (including Iowa) and Puerto Rico operate 
complete plans, which cover both the private and public (State and 
local government) sectors. Three States and the Virgin Islands operate 
plans that are limited in scope to the public sector.
    Section 23(g) of the Occupational Safety and Health Act provides 
for funding of these State programs at a level which ``may not exceed'' 
50 percent of the total cost to the State of such a program. Annual 
appropriations language ensures that no State plan is required to 
contribute more than a 50 percent match of the available Federal funds. 
However, many States have chosen to contribute significant amounts of 
additional funding. Iowa, for the first time in fiscal year 2008, is 
one of those States.
    The Federal funds available for State Plan grants in fiscal year 
2008 total $89,502,000, less than the President requested as a result 
of final congressional action. Based on the State programs' funding, 
all States matched the available funds and 20 States contributed 
additional funds above their match. Iowa contributed $1,096,040 over 
and above their $1,580,800 match.

    Senator Harkin. That is fine. All I would like to know is 
what would that impact be. Why are they getting less than 50 
percent, and how many other States that have State plans are 
getting less than 50 percent?
    We have talked about disability policy.
    This will be my last issue I want to go over, and that is 
the job training portion. Again, the BLS statistics say there 
are 1.6 million more individuals unemployed today than there 
were when this President took office, when you took office. The 
unemployment rate is higher, 5 percent versus 4.2 percent. 
Nevertheless, this budget cuts training and employment services 
account programs by almost 14 percent, or $484 million.
    Again, this is training and employment services. Well, with 
unemployment going up, the number of unemployed going up, why 
is your budget cutting the training and employment services 
account by 14 percent?
    Secretary Chao. Well, let me say, again, the workforce 
expands by about 1 million--800,000 workers a year--8.6 million 
net new jobs have been created since August 2003. The 
unemployment rate is 5 percent. This is lower than the average 
unemployment rate of the decade of the 1990's, which is 5.7 
percent.
    We still have an estimated $875 million carryover of 
unspent WIA funds available to the States, even after 
completing the $250 million rescission required by the fiscal 
year 2008 appropriations bill.
    There is a major debate about the Workforce Investment Act 
and how we should proceed.
    Senator Harkin. Yes, I heard that.
    Secretary Chao. Yes. It is an issue with the authorizing 
committees. We obviously have very different points of view 
about it. With every successive round of reforms to the system, 
there are overlays of new systems upon the old. It is to the 
point now that there are duplicative structures.
    So we have an employment services. They are staffed by 
wonderful people. I do not mean to disrespect the professionals 
who do this work. But I think they also must face some 
frustration in dealing with the bureaucracy that is 
duplicative, that is not responsive to the needs of a new 
century in which higher skill jobs are being created and more 
training of more specialized types is required. That is not 
currently being provided fully by the system.
    So, again, with unspent funds of $1.7 billion sometimes to 
currently this year of $875 million, there is a lot of 
carryover.
    Senator Harkin. I just told my staff--I said I got to get a 
handle on this. I know there is a 3-year roll on that thing.
    States have been reporting to you how much they have to 
return because of this rescission that we had. Iowa's share is 
$1.3 million. They returned almost $1 million of funds 
available for current operations, and they did not have any 
excess money out there. So as a result, they are going to 
provide less training and job search and placement.
    So this excess funds is not right. I keep hearing you say 
that, but I look at my own State and they do not have any.
    Secretary Chao. I do not have the State-by-State breakdown. 
I usually carry it with me. We can provide that for you. Even 
after the rescission--I do not know about Iowa, but most of 
them do have excess funds left over.
    Senator Harkin. My staff said what they are doing is they 
are taking it out of current money, of course. That is exactly 
what they are doing.
    But all I know is Iowa does not have it, and I just do not 
know how many States--well, that might be interesting. Do we 
know what States?
    Secretary Chao. It is pretty much across the board.
    Senator Harkin. My staff says they are reporting today on 
that. The Department of Labor is reporting on this today. So I 
will take a look at that also.
    Secretary Chao. But there are duplicative structures. 
Beyond the excess unspent funds, there is a larger issue about 
workforce investment. WIA was supposed to be a one-stop 
shopping center for workers, dislocated workers, unemployed 
workers. It has still not fulfilled this one-stop function 
through a variety of reasons. There are other agencies who have 
not joined in. There are duplicative structures that are still 
outstanding.
    I totally agree with you. We need to invest in our 
workforce, but we need to make sure that the reforms are there 
so that workers are, indeed, getting trained. Currently not as 
many are getting the training as they need, and that is the 
real tragedy.
    Senator Harkin. Well, I agree with you on that, but I do 
not think there is all that excess money out there that you 
keep talking about.
    Secretary Chao. Well, if you go a workforce investment 
system--and I love the system dearly. These are wonderful 
people who staff this system, but you have duplicative 
services. You go into a building. On the left is employment 
services. On the right is workforce investment, and they do not 
work with one another. Something needs to be done about that, 
which is what the reform package is all about.
    I am optimistic. I think that this discussion is ongoing on 
a national level. It will take some more time for the system to 
come to some consensus on how to reform this, but there are 
some real reforms that are necessary.
    Senator Harkin. Well, Madam Secretary, thank you very much. 
You have been very kind with your time, and these are tough 
areas. Some of them you and I have just had disagreements on 
for a long time, on that ILAB and a few other things like that. 
But on that ILAB, I still think it is an important thing that 
they are doing on that grant program.
    I want to get a handle on this BLS issue on under-
reporting.
    But I will close with this. Madam Secretary, last year's 
appropriations bill and report called for reports on a number 
of issues, including noncompetitive awards, the issuing of 
safety and health regulations, among other topics. I would 
request that you personally look into moving those reports 
along.
    Secretary Chao. I will.
    Senator Harkin. Like I said, sometimes I do not know if 
what we have here is right or not. We have to look at these 
things. So I would ask that you move those reports along so we 
can take a look at them.
    Also, I would leave the record open for any members of the 
subcommittee who could not be here to submit questions for you 
in writing for the record.
    Secretary Chao. Thank you. I also realized I did not answer 
your question about the refinery inspections, and I certainly 
do not want to drag this anymore. But if I can provide a fuller 
answer on what happened there, in terms of inspections, I would 
appreciate that.
    Senator Harkin. That would be good. That was one issue that 
sort of stuck out like a sore thumb there.
    Well, Madam Secretary, unless you have anything else----
    Secretary Chao. Thank you very much.
    [The information follows:]
    The Occupational Safety and Health Administration's refinery 
National Emphasis Program (NEP) was initiated in June 2007. At that 
time, OSHA stated that the agency will conduct all of the refinery 
inspections covered by the NEP within 2 years--June of 2009. The agency 
is on track to meet that timeline.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Harkin. There will be some additional questions 
which will be submitted for your response in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted by Senator Tom Harkin
                          program integration
    Question. In the Department's response to congressional concerns 
about adult, dislocated, and youth programs at local one-stop career 
centers overlapping statewide labor exchange services provided through 
the State unemployment insurance and employment services operations 
account, the Department indicated that it has worked with States to 
develop and submit plans for program integration.
    How many States have developed and submitted such plans?
    Answer. The Department has worked with States to develop and submit 
plans for Workforce Investment Act (WIA) and Wagner-Peyser Act 
Employment Service program integration; these plans are part of the 
WIA/Wagner-Peyser Act Strategic State Plans that are regularly 
submitted by the States. WIA section 112 requires all States to submit 
a State Plan as a condition of receiving funds. The Plans address 
multiple requirements of WIA, including program integration, governance 
structures, performance accountability systems, effective use of funds, 
and planned service delivery strategies.
    Question. Please describe specifically the policies implemented to 
break down barriers to program integration; how States plan to increase 
the efficient use of administrative resources; and how States plan to 
coordinate the use of Wagner-Peyser Act and WIA funds to avoid 
duplication?
    Answer. The State Plan Guidance issued by the Department for 
Program Years (PY) 2007-2008 was supplemented by a revised National 
Strategic Direction issued in Training and Employment Guidance Letter 
13-06. The National Strategic Direction outlined a vision for 
transforming the public workforce investment system to develop and 
implement talent development strategies that support growth in economic 
regions, contributing to the Nation's economic competitiveness. Program 
integration is a key pillar in this approach, and the National 
Strategic Vision articulates a need for the workforce system to operate 
as a seamless system functionally organized around service delivery 
rather than as an array of separate programs with separate processes, 
where customers are seen as customers of the entire workforce system 
rather than of a particular program.
    In keeping with that vision of integration, the State Plan 
instructions required States to: (1) describe policies in place to 
change or modify barriers to integration; (2) describe more efficient 
uses of administrative resources, such as eliminating duplicative 
facility and operational costs; (3) promote models or strategies for 
local use that support integration; (4) describe how services provided 
through One-Stop partners will be coordinated; and (5) describe how 
States will coordinate Wagner-Peyser Act funds to avoid duplication. 
State Plans for Program Years 2007-2008 were last submitted in May 
2007, and will expire June 30, 2009. States will next submit plans in 
April 2009 for Program Year 2009.
    The Department has made an effort to use State Plans as a strategic 
tool to advance a transformed workforce system. To this end, the 
Department regularly monitors States' implementation of the strategies 
outlined in their State Plans, including their level of integration, 
and offers technical assistance to States that require it. The 
Department has also developed a comprehensive technical assistance 
plan, based in part on the needs of States the Department identified by 
reviewing their State Plans and monitoring their implementation.
    All States have developed and submitted State Plans, and all plans 
address program integration. One specific example of a State effort to 
break down barriers to program integration is setting program 
integration as a State policy objective. For instance, Massachusetts 
has established the ``Regional Directors of Workforce Integration'' to 
ensure program integration at One-Stop Career Centers, and Oregon's 
workforce development leadership personally visits areas in the State 
that need technical assistance to achieve State integration of service 
goals. Another State policy to break down barriers to integration is 
combining and integrating State government agencies that oversee 
different workforce programs. For example, New Mexico's legislature 
recently created the New Mexico Department of Workforce Solutions, 
California consolidated its WIA and Employment Service programs into a 
single integrated unit called the Workforce Services Division, and Utah 
administers a number of federally-funded workforce programs under the 
Department of Workforce Services. Other States have looked to improve 
One-Stop Career Center operations to improve program integration. For 
instance, Maine has organized its staffing and services around a 
functional team concept, rather than teams driven by funding source, to 
deliver seamless and integrated services to participants. Lastly, 
several States, such as New Jersey, require satisfactory levels of 
integration in order to certify sites as One-Stop Career Centers.
    State Plans also define strategies to increase the efficient use of 
administrative resources as well as strategies to use funds to avoid 
duplication. For instance, Texas administers a number of Federally-
funded workforce programs through the Texas Workforce Commission and 
gives local workforce investment boards wide discretion in the use of 
funds to best serve their local population and regional economy. 
Arizona has moved to centralize service delivery in structures where 
overhead and administrative services are shared, particularly in rural 
areas.
    Question. Is there any evidence that these plans are leading to 
better program integration, more efficient use of Federal resources and 
better program outcomes?
    Answer. The Department believes that strategic planning does lead 
to better program integration, more efficient use of Federal resources, 
and better program outcomes. Because all States have been required to 
submit State Plans since the inception of WIA, the Department cannot 
compare States with plans to States without plans, or compare 
performance before and after a plan in order to produce ``evidence'' 
that plans result in positive changes. However, experience shows that 
States that have written strong, strategic State Plans are more likely 
to have integrated service structures, resulting in more efficient use 
of funds and improved program outcomes. For instance, Oregon, which 
ranks among the top 10 States on the entered employment rates for both 
the Adult and Dislocated Worker programs, submitted a plan that showed 
close coordination between workforce programs, and has recently closed 
a number of ``stand-alone'' Employment Service offices. Michigan, which 
also ranks among the top 10 States on both Adult and Dislocated Worker 
entered employment rates, submitted an exemplary State Plan that 
includes creative solutions for programs integration, regional 
planning, and innovative talent development strategies.
    Although the strategic use of State Plans encourages program 
integration, the statutory requirements of WIA and the Wagner-Peyser 
Act still result in duplication in the public workforce investment 
system. By streamlining these systems, States can train more workers 
and provide more services. The Department has consistently supported 
legislative proposals to consolidate WIA title I and Wagner-Peyser Act 
Employment Service programs, most recently in the WIA reauthorization 
and reform proposal, ``Workforce Investment Act Amendments 2007,'' 
submitted to Congress in April 2007. Further, the Department has 
pursued rule making that would require local Employment Service offices 
to be located in the comprehensive One-Stop Career Centers and not be 
considered affiliate sites (Federal Register: December 20, 2006, Vol. 
71, No. 244). However, Congress barred the implementation of this 
revision in the fiscal year 2007 and fiscal year 2008 Appropriations 
Acts.
                    capacity building and evaluation
    Question. Please describe the specific actions (including any 
discretionary grant funding) ETA has taken to build the capacity in 
States to share best practices and undertake rigorous evaluations on 
the impact of WIA State grant funding?
    Answer. One of the Department's core missions is to build the 
capacity in States to effectively provide workforce services and to 
actively engage with a wide array of strategic partners in workforce 
development strategies. Examples of strategies to support sharing of 
best practices include the Workforce\3\One Web site, the Workforce 
Innovations Conference, Transformational Forums, and the National 
Business Learning Partnership.
  --Workforce\3\One is an interactive Web site designed to build the 
        capacity of the public workforce investment system through 
        training, resources, and regular communication 
        (www.workforce3one.org). The Workforce\3\One Web site offers 
        the workforce system an innovative knowledge network designed 
        to create and support community solutions that respond directly 
        to business needs and to develop strategies that enable 
        individuals to be successful in the 21st century economy.
  --Workforce Innovations is a forum hosted by the Department for 
        States to share best practices. The conference draws over 3,000 
        participants from industry, education, the economic development 
        community, and the workforce system, offering an opportunity to 
        explore their important roles in meeting the national challenge 
        of global competition.
  --The Transformational Forums series, is a broad-based capacity 
        building initiative to transform the workforce system, and 
        provides an opportunity for States to share best practices. The 
        Forums offer teams, comprised of State and local workforce 
        representatives, a unique, customer-driven learning experience 
        designed to provide support as they envision energized, and 
        catalyzed innovative service delivery strategies.
  --The National Business Learning Partnerships (NBLP), a peer-to-peer 
        collaborative technical assistance effort among State and local 
        Workforce Investment Boards and the Employment and Training 
        Administration's regional and national offices, provides States 
        an opportunity to build their workforce system capacity and 
        share best practices.
    In addition to capacity building the Department is currently 
conducting, a rigorous non-experimental net impact evaluation of the 
receipt of Workforce Investment Act (WIA) core and intensive services 
and the incremental impact of WIA training on participant's earning, 
employment, and retention. The evaluation involves comparing the 
outcomes of WIA participants to the outcomes of similar individuals 
drawn from a matched comparison group. Results from this evaluation 
will be provided to the Department in the fall of this year.
    In June 2008, the Department will launch the Workforce Investment 
Act Gold Standard Evaluation (WGSE). The WGSE is a 7-year, rigorous, 
random assignment evaluation of the Adult, Dislocated Worker, and Youth 
formula programs established under title I of WIA. The evaluation will 
examine these programs' impacts on participants' post-program 
employment and earnings and their cost effectiveness. The evaluation 
will compare outcomes of WIA participants to the outcomes of similar 
individuals who do not receive WIA services. The results of the 
evaluation will be used to determine what aspects of the current system 
work versus those that do not work. This information will help improve 
the workforce investment system and inform any WIA reforms, as 
applicable. Interim evaluation results will from the WGSE will be 
generated periodically beginning in the fall of 2011 and final results 
are anticipated to being available in 2015.
    Question. What has been the outcomes associated with these 
activities?
    Answer. The outcomes associated with the Department's activities to 
build the capacity in States to share best practices include:
  --Workforce\3\One.--There is currently over 31,000 registrants of the 
        site. Registrants engage in Webinar events, download materials, 
        and share best practices by submitting content. Individuals 
        have visited the site over 72,000 times in the past year, have 
        downloaded over 15,000 pieces of content, and thousands of 
        individuals have engaged in Webinars.
  --Workforce Innovations.--States have directly shared best practices 
        through workshop sessions, conference materials, and structured 
        and informal opportunities for networking.
  --Transformational Forums.--A total of 55 teams, representing over 40 
        States, were able to explore critical workforce system 
        challenges and opportunities, receive customized coaching from 
        mentors and peers, develop concrete action steps for advancing 
        talent development strategies for economic growth, and 
        contribute to the development of a shared national vision for 
        workforce system transformation
  --National Business Learning Partnerships.--A total of 44 State and 
        local workforce investment boards attended workshops, 
        established mentor/protege teams, shared technical assistance, 
        documented best practices, and published numerous case studies 
        and other technical assistance materials.
    Question. What is proposed in the 2009 budget for this purpose?
    Answer. The Department's fiscal year 2009 budget requests $16.88 
million to support workforce information, electronic tools, and system 
building. In addition, the Department has requested $32 million for 
labor market information grants; these grant funds are part of the 
administration's WIA reform proposal. With this request, the Department 
will continue to share innovative demand-driven talent development 
strategies in support of regional economic competitiveness through the 
Workforce\3\One Web site. The Department will also implement a 
comprehensive technical assistance strategy that continues the work of 
the Transformational Forum teams, offer Webinars on topics to address 
capacity-building needs identified through the WIA/Wagner-Peyser State 
Planning process, and support various strategies to integrate program 
and services. Lastly, the Department will continue to develop expanded 
sets of strategic partnerships with community colleges, the economic 
development community, faith and community-based organizations, 
foundations, and other Federal agencies.
                           wia youth services
    Question. In February of this year, the Government Accountability 
Office (GAO) issued a report on disconnected youth. The report noted 
that researcher estimates of the number of disconnected youth range 
from 2.3 million to 5.2 million. According to GAO, funding for many of 
the key Federal programs we reviewed that serve disconnected youth has 
remained the same or declined since 2000. The report also found that 15 
directors with Federal WIA Youth funding noted that the need to meet 
certain WIA youth performance goals within short-term time frames 
discouraged them from serving youth that may need more time and 
assistance to achieve specified outcomes. What is the Department's plan 
for ensuring that funds are able to be used to effectively address 
youth most in need of WIA services?
    Answer. As a long-term strategy to ensure that WIA Youth Formula 
funds are used to effectively address youth most in need of WIA 
services, in 2004, the Department adopted and announced its new 
strategic vision to serve more effectively those youth most in need of 
services: out-of-school youth and at-risk youth. Recognizing the need 
to involve other Federal agencies, the Department pursued an outreach 
and recruitment strategy that led to the creation of a national cross-
agency group. This group has evolved into the Shared Youth Vision 
Federal Partnership and includes the U.S. Departments of Agriculture, 
Education, Health and Human Services, Housing and Urban Development, 
Justice, Labor, and Transportation; the Social Security Administration; 
and the Corporation for National and Community Service. By leveraging 
other Federal resources in support of WIA enrolled youth, WIA youth 
service providers and local workforce areas can focus their resources 
on employment and training needs while also collaboratively supporting 
other important issues faced by a needier youth population, including 
health, substance abuse, transportation, and housing.
    The Federal Partnership has been actively involved in sponsoring 
numerous activities to promote the Shared Youth Vision to State and 
local agencies serving youth. These activities have included: (1) a 
series of Shared Youth Vision technical assistance forums nationwide 
for State teams; (2) the selection of 16 Shared Youth Vision Pilot 
Project State teams to develop and implement strategic approaches that 
leverage their State-level coordination at the local service delivery 
level; (3) the development and implementation of a comprehensive 
technical assistance plan for infusing the collaborative vision in all 
States throughout the country; and (4) funding a Shared Youth Vision 
Implementation Study to conduct an analysis of the work of the Federal 
Partnership and the work of the State pilot teams to better serve the 
neediest youth. The findings from this analysis will be widely 
distributed throughout the country.
    The Department also intends to work with workforce investment 
boards to identify constraints and plans to issue guidance to the 
public workforce investment system in the fall of 2008 that will 
provide specific examples on how local service providers successfully 
serve youth at varying skill levels, but with an emphasis on youth most 
in need. In addition, the Department will provide technical assistance 
to support the implementation of this guidance.
    Question. How have the funding reductions noted in the GAO report 
impacted program performance, including youth participation and 
outcomes?
    Answer. Although fewer total youth have been served through the 
Workforce Investment Act (WIA) Youth program, more of the youth being 
served are out-of-school youth who require more intensive services. 
Despite this challenge, there has been no significant change to the 
performance outcomes of participants in the WIA Youth program. In its 
report, the Government Accountability Office State that the increased 
Federal coordination efforts currently underway should help to address 
the challenges faced by local programs.
                    national farmworker jobs program
    Question. According to the Department's website, the National 
Farmworker Jobs Program (NFJP) entered employment rate rose from 64 
percent in the quarter ending 9/30/06 to 76 percent in the quarter 
ending 9/30/07, an increase of almost one-fifth in the percentage of 
exiters who found jobs. This sounds like an effective investment. Did 
the Department base its decision to eliminate program funding on some 
other outcome information? If not, why would the Department propose 
eliminating funding for this successful program?
    Answer. Individuals being served by the National Farmworker Jobs 
Program (NFJP) have similar types of barriers to full-time employment 
as other workers, and the relatively small NFJP do not provide its 
participants with the full array of benefits they would derive from the 
public workforce investment system. Historically, many program 
participants received only supportive services in the NFJP. Rather than 
placing farmworkers into a program that has not always provided year-
round employment to its participants, the Department believes that 
these workers should have access to the full spectrum of workforce 
investment services and a broader employment network.
    For the past 6 fiscal years (fiscal year 2003-2008), the 
administration has not requested budget authority for Workforce 
Investment Act section 167 NFJP. Instead, the Department has pursued 
other strategies to ensure agricultural employers and farmworkers have 
access to the full spectrum of workforce investment services available 
through the broader workforce system, including:
  --Providing technical assistance and information to increase the 
        level of collaboration and coordination among One-Stop partners 
        to increase services to farmworkers in the One-Stop system; and
  --Investing $1 million in a cross-training demonstration in 
        California focused on integrating services available to 
        farmworkers.
    Question. Previously, the Department has stated that one of the 
reasons funding has not been requested for this program is that migrant 
and seasonal farmworkers can be served through the workforce investment 
system. Does the Department have any data that reflect service levels 
to this population through the workforce system?
    Answer. The most recent performance data pertaining to services 
provided through Wagner-Peyser Employment Service funding indicates 
approximately 150,000 migrant and seasonal farmworkers have been served 
in PY 2007.
    Question. State and local workforce boards have developed plans to 
address this population. What evidence do you have that activities 
planned are actually being implemented? Is there any evidence that they 
are resulting in effective services to migrant and seasonal farmworker 
population?
    Answer. The Department has been actively implementing a strategy 
within the current National Farmworker Jobs Program (NFJP) and 
Workforce Investment Act (WIA) programs to integrate farmworker 
services into the broader public workforce investment system. The 
States have provided the Department with preliminary indications that 
State and local workforce boards have been expanding the network of 
employers using the workforce investment system, targeting occupations 
in high-growth industries and operationalizing the integration of 
services.
    The most recent WIA State Plans included specific State and local 
activities:
  --The Missouri workforce system has established a strong partnership 
        with the NFJP grantee. This partnership results in the sharing 
        of knowledge and collaboration to perform planned community 
        activities and intake for the migrant and seasonal farmworker 
        (MSFW) population. The combined local expertise of faith-based, 
        community, and other organizations that specialize in serving 
        the MSFW population have increased the capacity and 
        effectiveness of the One-Stop system.
  --The New Mexico Workforce Centers will provide on-site services in 
        local workforce investment areas where the MSFW population is 
        employed.
  --Tennessee will conduct an outreach program designed to contact 
        MSFWs who are not reached by usual intake activities and inform 
        them of the full range of services available.
    Additionally, since WIA requires the Department to conduct a 
biennial grant competition for the NFJP, the last three Solicitations 
for Grant Applications have required applicants to design their 
programs around priorities engineered to continue the drive towards the 
full integration of services. The next round of grant applications is 
due June 2, 2008. In reviewing these applications, the Department will 
look for additional indicators of improved service delivery for 
farmworkers.
    Question. The National Agricultural Workers Survey (NAWS) is an 
employment-based, random survey of the demographic, employment, and 
health characteristics of the U.S. crop labor force. It has been more 
than 3 years since the 2001-2002 report was released and I understand 
the Department collected the 2003-2004 data some time ago. When will 
the 2003-2004 report be issued? What is the timeline for future data 
collections and reports related to the NAWS?
    Answer. The Department's Employment and Training Administration 
(ETA) is currently working on two National Agriculture Workers Survey 
(NAWS) national level findings reports. The first report will summarize 
NAWS data collected in fiscal years 2003 and 2004; the second will 
summarize fiscal years 2005-2006 NAWS data. ETA expects both of these 
reports to be available via the NAWS Web site in August, http://
www.doleta.gov/agworker/naws.cfm.
    NAWS data are collected annually in three interview cycles. The 
third interview cycle for fiscal year 2008 began on June 3, 2008 and is 
expected to continue through September 2008. The first interview cycle 
of fiscal year 2009 will begin in October 2008. Depending on the 
availability of resources, NAWS reports are published biannually. The 
summary report of the fiscal 2007-2008 findings is expected to be 
available by September 2009.
    ETA has focused its efforts over the last 2 years in developing and 
obtaining approval for release of a NAWS public access data set. This 
decision was prompted by the large number of requests for a wide range 
of data and findings from the NAWS.
    We are very pleased to report that the public access data set 
covering fiscal years 1989 to 2006, as well as the codebook, English 
and Spanish versions of the questionnaire, the interviewer training 
manual, and documents describing the statistical methodology and tips 
for analyzing the data, were posted to the NAWS Web site in November 
2007. The release of these materials was announced to all State 
Workforce Agencies and liaisons via Training and Employment Notice 18-
07, http://wdr.doleta.gov/directives/attach/TEN/ten2007/TEN18-
907acc.pdf.
                               youthbuild
    Question. Congress passed legislation to move the YouthBuild 
program to the Department of Labor in response to the White House Task 
force on Disadvantaged Youth recommending that YouthBuild was better 
aligned with the DOL's mission to bring the most disadvantaged youth 
into productive employment. How do you see YouthBuild fitting into that 
mission and how is this first year going? And, how do you plan to 
expand to meet the growing demand for YouthBuild services?
    Answer. The YouthBuild model balances in-school learning, geared 
toward a high school diploma or GED, and construction skills training, 
geared toward career placement. The in-school component is an 
alternative education program that assists youth who are often 
significantly behind in basic skills to obtain a high school diploma or 
GED credential. The primary target populations for YouthBuild are high 
school drop-outs, adjudicated youth, youth aging out of foster care, 
and other at-risk youth populations. The YouthBuild model enables these 
youth to access the education and training they need to secure 
employment in the 21st century economy.
    The first year of administering the YouthBuild program is going 
extremely well.
    The YouthBuild Transfer Act was enacted on September 22, 2006. 
Since that time, the Department has:
  --Held its first YouthBuild grant competition in the spring of 2007 
        and awarded 96 grants on October 15, 2007;
  --Developed, implemented, and trained grantees on a Web-based Case 
        Management and Performance system that provides quarterly 
        performance reports and captures performance data on the 
        effectiveness of the YouthBuild program;
  --Initiated the process of developing regulations for the YouthBuild 
        program;
  --Provided on-going technical assistance to YouthBuild grantees; and
  --Created an oversight structure for grant monitoring.
    In fiscal year 2009, the program will continue to provide job 
placement and employment opportunities for disadvantaged youth, and 
will serve an estimated 3,200 participants.
            community service employment for older americans
    Question. The 2009 budget proposes $350,000,000 for the Community 
Service Employment for Older Americans program, a reduction of 
$171,625,000 from the 2008 level. This would result in a cut in the 
number of authorized training slots from 59,316 supported by the 2008 
appropriation to 36,300 allowed by the budget request. What 
appropriation level is needed in 2009 to avoid the reduction proposed 
in the 2009 President's budget?
    Answer. An fiscal year 2009 Appropriation of $571,924,872 would be 
needed to fund the number of slots funded by the 2008 level (59,316 
slots).
                      assistance to older workers
    Question. The recently released report ``Current strategies to 
employ and retain older workers'' which was commissioned by the 
Department to support the Task Force on the Aging of the American 
Workforce highlights the challenges older workers face, particularly 
with low skills, in the labor market. Many SCSEP participants have 
additional barriers to employment that WIA programs are less suited to 
adequately assist.
    With deep cuts proposed to the workforce system and the elimination 
of funding for the Employment Service, One-Stop centers will have fewer 
resources with which to attempt to serve effectively this population. 
How can the administration request cuts to this program, once again, at 
a time when our senior population continues to grow with low employment 
prospects?
    Answer. The fiscal year 2009 budget request complements the 
administration's proposal for job training reform, which seeks to 
provide services in a more cost-effective way and will benefit older 
workers, as well as others. Overall, the fiscal year 2009 budget makes 
a substantial investment in job training to the benefit of all workers, 
including older individuals.
    Older workers are a diverse group. Some older workers have retired 
and want to or need to go back to work for self-fulfillment or 
financial reasons, or both. Other older workers are approaching 
retirement and are looking for more flexible alternative employment 
that will allow them to balance work, leisure, and the pursuit of other 
interests. Still others have lost their jobs due to business closures 
and downsizings before they qualify for a pension or Social Security 
and they need a new job, often in a different career field, to support 
themselves and their families until they are eligible for retirement. 
What these workers have in common is the need to acquire new skills to 
qualify for jobs in today's labor market. The Career Advancement 
Accounts proposed by the administration offer a flexible new approach 
that will allow older workers in each of these situations to obtain the 
training and education they need to obtain new jobs.
    Older workers will benefit from the administration's reform 
proposals in other ways, too. The requirements relating to the 
eligibility of training providers, which under current law have had the 
unintended consequence of deterring many training providers from 
participating in WIA, would be simplified. This change in eligibility 
requirements will substantially increase the number of training 
providers, such as community colleges, and provide participants with a 
greater availability of choices. Also, training will be available for 
incumbent workers to help them move up career ladders. Most important, 
the public workforce investment system will be made more productive, 
with three times the number of workers trained compared with the 
current system--this means more opportunities for older workers.
     state unemployment insurance and employment service operations
    Question. What is the 5-year funding history of obligations for 
automation investments, including the most recent year for which 
information on such obligations is available? How have these 
investments contributed toward the goals of detecting overpayments and 
facilitating re-employment?
    Answer. Between fiscal year 2004 and fiscal year 2008, $12.8 
billion was appropriated for State Unemployment Insurance (UI) 
Administration. Of that amount, the Department has information on a 
relatively small portion, approximately $83.7 million or 0.658 percent 
, that it allocated to the States for specific automation investments. 
Additionally, States have used appropriated funds allocated for overall 
UI program administration, as well as a significant amount of State 
funds, to make automation investments. However, information about the 
specific uses of those funds is not collected. Such funds were 
typically used for major automation acquisitions, such as the 
replacement of computer hardware and the modernization of State benefit 
and tax system software systems. These major modernization projects 
usually cost between $30 million to $70 million.
    The $83.7 million the Department provided the States for specific 
automation investments was used as follows:
  --$6.9 million was obligated to States specifically for integrating a 
        software package developed by the Department into their UI and 
        Workforce automated systems that significantly improve the 
        accuracy and efficiency of UI claimant occupational coding. 
        Improving the accuracy of occupational coding ensures that 
        those charged with providing re-employment services have the 
        best information available to match UI claimants to employment 
        opportunities.
  --$31.6 million was obligated to correct information technology (IT) 
        security vulnerabilities identified through IT security audits. 
        These improvements help protect electronically stored data 
        (personal identifiable information and wage information) that 
        States store on virtually every worker in the country that if 
        stolen could lead to identity theft, fraudulent UI claims, and 
        other problems for the affected workers.
  --$15.6 million purchased systems that support the detection and 
        collection of improper payments, such as tools to aid the 
        investigation of potential overpayments and the collection of 
        outstanding overpayment debts.
  --$12.9 million implemented a variety of systems that helped detect 
        fraudulently filed claims, such as multiple claims filed from 
        the same telephone number or multiple benefit payments going to 
        the same address.
  --$6.8 million was used for State system changes necessary for 
        electronic access to the National Directory of New Hires which 
        allows States to determine if UI beneficiaries have recently 
        returned to work anywhere in the country and are ineligible to 
        claim and collect UI benefits.
  --$6.7 million allowed States to cross-match information provided by 
        UI claimants with other sources of information, such as 
        departments of motor vehicles to ensure the claimants' 
        identity, or prison records to ensure inmates were not 
        collecting benefits.
  --$1.8 million helped implement debit cards as a means of paying UI 
        benefits, thus, improving efficiency and also preventing stolen 
        benefit checks.
  --$0.7 million implemented electronic access to the Social Security 
        Administration database to validate Social Security Numbers of 
        UI claimants, thereby eliminating the possibility of an 
        individual using a bogus number to collect benefits 
        fraudulently.
  --$0.7 million for internal security software to monitor employee 
        access to confidential records to detect unusual patterns that 
        might signal fraudulent activity.
            re-employment and eligibility assessments grants
    Question. The Department is requesting $40 million for the re-
employment eligibility assessments initiative, to build on the grants 
that have been made available over the past several years. What has the 
experience been with this initiative in terms of helping UI claimants 
find jobs faster, thereby reducing the duration of unemployment and 
saving UI trust fund resources? Have sufficient resources been 
available to provide all of the follow-up services required to make 
this an effective initiative?
    Answer. The Department conducted an evaluation of Reemployment and 
Eligibility Assessment (REA) programs in 2006 and 2007. The 
evaluation's final report was published in March 2008. Nine States were 
part of the evaluation which included an in-depth analysis of the REA 
initiative in two of these States, North Dakota and Minnesota. The 
findings of this study indicated strong positive effects on 
Unemployment Insurance (UI) claimants' return to work, as well as 
significant cost savings for the States. The analysis suggests that 
REAs are an effective strategy for reducing overpayments and expediting 
return to work.
    In addition to the results from this evaluation, there is anecdotal 
evidence from several other States suggesting that REAs have 
demonstrated impact. For example, Maine and New York have independently 
conveyed the following information:
  --During the period from April 2005 through March 2006, New York 
        showed a savings of $1.9 million from reduced benefit durations 
        of claimants participating in REAs versus a comparison group. 
        The savings were $3 for each $1 invested in REAs.
  --During the period from June 15, 2005, through June 15, 2006, Maine 
        calculated savings at more than $2 million, or $3.33 for each 
        $1 invested.
    As a result, the Department is now pursuing further analysis of the 
REA initiative, as the aforementioned savings mean fewer dollars 
expended from the States' UI trust funds, which translates into lower 
taxes on employers. The planned analysis will benefit from obtaining 
impact and cost data from three to five States. This in-depth study 
will yield reliable statistical estimates of UI trust fund savings, 
duration reductions, and re-employment impacts, as determined for UI 
recipients who participate in the REA initiative.
    Because of the demonstrated success of the REA initiative, some 
participating States requested additional funds to expand their REA 
programs statewide. Additionally, 11 States not currently participating 
with REA submitted strong proposals to implement an REA initiative in 
2008. However, funds were not appropriated to expand the REA 
initiative.
    We are not aware of resource constraints for re-employment services 
resulting from REA activities. An interim evaluation report indicated 
that the participating States saw the REA initiative as an opportunity 
to expose more claimants to available re-employment services.
     state unemployment insurance and employment service operations
    Question. The 2009 budget justification indicates that ETA will use 
the 2008 appropriation for the disability program navigator initiative 
to support States whose grant ended on June 30, 2008 as recommended by 
the committee. How many of those States and new States have expressed 
interest in such funds? ETA also is working with States to identify 
alternative sources of funding. What resources have been identified to 
support the DPN initiative and make it sustainable without a separate 
funding stream?
    Answer. Currently, 31 Disability Program Navigator (DPN) grants 
will expire on June 30, 2008. All 31 States have indicated an interest 
in receiving funds to continue their DPN grant work.
    The Department has issued the annual program planning guidance 
instructing the State DPN grantees on how to revise and submit key 
program documents necessary to receive program funding in the next 
year, and we are now reviewing their submissions. We will award the 
remaining Program Year (PY) 2007 funds by June 30, 2008, and awarding 
new PY 2008 funds shortly after July 1, 2008. We are also extending the 
period of performance for all 31 States for an additional year, until 
July 1, 2009. By August 2008, a new Solicitation for Grants (SGA), with 
$2.5 million in PY 2008 funds, will be disseminated to fund cooperative 
agreements for States and territories that do not currently have a DPN 
grant. Those States and territories are: American Samoa, Guam, Virgin 
Islands, Arkansas, Kentucky, Nevada, North Dakota, and Wyoming. When 
the Department issued an SGA for DPN funding over a year ago, several 
of these States were not interested in applying, and we do not know how 
many of these eight States and territories will now apply for DPN 
funding.
    We have been encouraging the States with DPN cooperative agreements 
to develop sustainability strategies and plans. Such plans include 
seeking funds from Medicaid Infrastructure Grants, Vocational 
Rehabilitation agencies, the Workforce Investment Act 15 percent State 
set-aside, the Department of Transportation's related programs, other 
public or private organizations, or as an Employment Network (EN) under 
the Social Security Administration's newly revised and issued Ticket to 
Work Program regulations. The new Ticket to Work regulations make it 
much easier for the One-Stop Career Centers and State/Local Workforce 
Investment Boards to become ENs, thereby simplifying their ability to 
get reimbursed for eligible customers they are already serving.
                  employment service grants to states
    Question. According to the Government Accountability Office's (GAO) 
2007 Study of One Stop Centers, WIA funds and Employment Services 
Grants to States are the primary funding sources for the one-stop 
infrastructure. GAO reports that over the last 4 years, 19 States have 
reported a decrease in the number one stop centers, often citing a 
decrease in funds as one of the primary reasons.
    Some States reported an increase in demand for services. Given the 
proposed consolidation of programs and the reduction in funding that 
you propose, how will the Department ensure that unemployed people 
receive the services they need?
    Answer. The services needed by unemployed people will continue to 
be provided under the fiscal year 2009 budget request, which 
complements the administration's proposal for job training reform. This 
reform proposal would consolidate the Employment Service and the 
Workforce Investment Act Adult, Dislocated Worker, and Youth funding 
streams into a single funding stream to be used for Career Advancement 
Accounts and employment services. This consolidated funding stream will 
provide services in a more cost-effective way by eliminating 
duplication, replacing the current siloed system of separate training 
programs, reducing administrative and overhead costs, and, most 
importantly, significantly increasing the number of individuals who 
receive job training. Under the current system, approximately 200,000 
individuals receive training through the public workforce investment 
system each year. However, the proposed reforms would increase the 
number of workers trained to over 600,000.
    Additionally, an estimated 10,878,000 participants would receive 
employment services. The need for labor exchange services, such as 
resume posting and job search assistance, have largely been privatized 
and job seekers now have free access to Internet job boards that allow 
them to search for jobs and often post their resumes.
               assistance with making training decisions
    Question. The Department proposes to significantly restructure the 
way unemployed people receive the services they need to once again 
become productively employed. Part of the new strategy would be to 
consolidate ES and WIA and to shift more funds into training vouchers 
for the unemployed and much less funding into up front services such as 
counseling and assessment. Yet GAO has found that such case management 
services are integral to ensure that unemployed people get the right 
services and the most appropriate training that will lead to a job. How 
will the budget proposal help the unemployed make good training 
decisions and effectively use the vouchers you propose?
    Answer. Some individuals will undoubtedly need the assistance of 
career counselors in making training decisions, and States and local 
areas can provide this type of assistance with the portion of funds 
that can be used for employment services. This includes counseling, 
both basic and intensive, and assessment. However, many, if not most 
individuals, will be able to make training choices through a basic up-
front assessment (as contrasted with ongoing and costly case 
management) and good consumer information on training providers. The 
Department of Labor also funds the development of workforce 
information, including information on high-growth occupations, which 
may be useful in making these decisions; under the administration's WIA 
reform proposal this funding will be provided to the States as part of 
the consolidated grant.
    Under the Career Advancement Account (CAA) proposal, States would 
be required to ensure the credibility and accountability of training 
providers. States would also ensure that CAA recipients have sufficient 
consumer information on the quality and outcomes of the education and 
training provided by the institutions where the accounts can be used. 
Furthermore, it is in the State's interest to ensure that high quality 
training is provided in order to meet performance outcomes.
    Findings from the Individual Training Account (ITA) Experiment have 
informed the development of our Workforce Investment Act 
reauthorization and CAA proposal. The outcomes of this demonstration 
suggest that (1) additional counseling and career guidance do not 
significantly affect the employment and training outcomes of 
participants; (2) more people access training with ITAs when given 
individual choice and flexibility; and (3) individuals are capable, on 
their own, of choosing an appropriate training path that leads to 
sustainable employment. Furthermore, approximately 5 million low income 
individuals receive Pell Grants each year through a rather flexible 
process. The use of CAAs should provide similar flexibility.
                 federal support of employment services
    Question. The Department acknowledges in their fiscal year 2009 
budget justification a majority of States (35 States) have integrated 
WP Act services into their one-stop career centers, and only a minority 
of States are running separate and duplicative systems of employment 
services. Because of this alleged duplication of services in a small 
minority of States, the Department concluded all Employment Services 
funds should be eliminated. In the majority of States where services 
are already integrated, how will States continue to undertake 
employment service activities without Federal support? What actions has 
DOL taken to support better integration in the minority States that 
have not achieved it?
    Answer. Employment services will continue to receive Federal 
support, but through the Workforce Investment Act (WIA) One-Stop 
delivery system. The fiscal year 2009 budget request complements the 
administration's proposal for job training reform, which seeks to 
provide services in a more cost-effective way. This reform proposal 
would consolidate the Employment Service and WIA Adult, Dislocated 
Worker, and Youth funding streams into a single funding stream to be 
used for Career Advancement Accounts and employment services. In 
addition to eliminating the duplication between the Employment Service 
and WIA One-Stop delivery system that still exists in a number of 
States, it would replace the current siloed system of separate training 
programs, reduce administrative and overhead costs, and, most 
importantly, significantly increase the number of individuals who 
receive job training.
    In addition, under our budget request, an estimated 10,878,000 
participants would receive employment services. While this represents a 
smaller number of individuals receiving labor exchange services, it 
needs to be recognized that the recruitment process has changed and 
because much more is available to individual workers. The need for 
labor exchange services, such as resume posting and job search 
assistance, have largely been privatized and job seekers now have free 
access to Internet job boards that allow them to search for jobs and 
often post their resumes.
    In order to strengthen program integration within the One-Stop 
Career Centers in States that have not achieved it, the Department 
offers technical assistance through tools such as Workforce\3\One, the 
Department's interactive communications and learning platform, which is 
designed to build the capacity of the workforce investment system, and 
Workforce Innovations, the Department's annual workforce system and 
partners conference.
    The Department also uses the WIA/Wagner-Peyser Act State Plan 
process as a vehicle for States and workforce investment boards to set 
forth policy expectations for program integration. As part of a State 
plan modification required to be submitted by each State in 2007, 
States were specifically required to (1) describe policies in place to 
change or modify barriers to integration; (2) describe more efficient 
uses of administrative resources, such as eliminating duplicative 
facility and operational costs; (3) promote models or strategies for 
local use that support integration; (4) describe how services provided 
through One-Stop partners will be coordinated; and (5) describe how 
States will coordinate Wagner-Peyser Act funds to avoid duplication. 
The Department regularly monitors State WIA and Employment Service 
programs, including implementation of the integration strategies 
outlined in their State Plans, and offers technical assistance to 
States that require it.
                 office of foreign labor certification
    Question. The Department's budget lacks any measures of program 
integrity with respect to program performance under the foreign labor 
certification program. This is a major management challenge identified 
by the DOL inspector General due to the existence of fraud and 
vulnerabilities in this program. What actions are being implemented in 
2008 and are proposed in the 2009 to address this challenge? How will 
resources proposed in the 2009 budget request be used specifically to 
both improve the timeliness and increase the integrity of the 
certification process? What performance measures related to program 
integrity is the Department considering for this program?
    Answer. These critical activities are an integral part of our 
ongoing application processing, and the Department will undertake a 
number of measures in fiscal year 2008 and fiscal year 2009 to 
strengthen the integrity of its employment-based immigration programs.
    The following are actions that are being implemented in fiscal year 
2008 or are planned for fiscal year 2009 based on resources contained 
in the fiscal year 2009 budget request:
  --Establishment of a new Fraud Detection and Prevention Division 
        within OFLC.
  --Implementation of the most recent regulation amending the permanent 
        labor certification program, ``Labor Certification for the 
        Permanent Employment of Aliens in the United States: Reducing 
        the Incentives and Opportunities for Fraud and Abuse and 
        Enhancing Program Integrity,'' which includes the authority to 
        debar employers, attorneys, and or agents in certain specific 
        circumstances.
  --Linkage of the web-based technologies currently used in the 
        Permanent Labor Certification Program (PERM) program to the H-
        1B database. This technology will add greater efficiency in 
        confirming the status of employers filing applications and 
        support both the timeliness and integrity of the PERM program. 
        This action will begin in January 2009 as a pilot under a re-
        engineered Labor Condition Application form (ETA Form 9035).
  --The PERM program application (ETA Form 9089) is expiring and has 
        been significantly re-engineered based upon program experience 
        over the past 3 years. This re-engineering will include changes 
        to the database ``behind'' the actual application and its 
        accompanying audit flags and triggers. The new system is set to 
        be operational in January 2009.
    Many of these integrity activities have the potential to lengthen 
the timeliness of case processing. However, the Department plans to 
monitor and review appropriate performance indicators both before and 
after the additional integrity functions are implemented.
    Additionally, the Department has begun collecting new internal 
measures that will be used to track fraud and integrity efforts. These 
measures include the number of:
  --Referrals or follow-ups by the Office of the Inspector General, the 
        Department of Homeland Security, or others;
  --Grand Jury testimonies or other witness testimonies;
  --Targeted audits;
  --Cases assigned to supervised recruitment;
  --Program debarments initiated;
  --Cease and desist orders issued; and
  --User accounts disabled as a result of inappropriate usage.
                   oig audit on consultation program
    Question. The budget proposes to increase funding for OSHA's 
voluntary protection programs by $5 million over the 2008 amount. 
However, DOL's Inspector General found in a 2007 Audit Report that 
consultation program officials did not ensure the existence of interim 
protection for serious hazards before granting employers' requests for 
additional time to correct them; OSHA considered serious hazards as 
``corrected in a timely manner'' if employers completed corrective 
actions within 14 days of the latest correction due date agreed to by 
the consultant, rather than the original date corrective action is 
expected; and employers were not referred for enforcement action 
because they feared it would discourage employers from participating in 
this voluntary program.
    What specific actions have been taken by DOL to address the 
findings and recommendations of the IG, including the recommendation 
related to the performance measure for ``timely'' correction of serious 
hazards with which OSHA disagrees? What has the impact been of these 
actions in terms of timely correction of serious hazards relative to 
the original due date; and referral of employers for enforcement for 
not correcting serious hazards?
    Answer. The proposed increase of $5.1 million in the Compliance 
Assistance budget activity for fiscal year 2009 represents inflationary 
increases and the restoration of funding and staffing eliminated by the 
across-the-board budget reductions in the fiscal year 2008 Consolidated 
Appropriation. This same approach was taken in all OSHA budget 
activities and does not represent programmatic increases for any 
specific program area.
    In response to the audit by the Office of the Inspector General 
(OIG) on the consultation program, OSHA accepted all four of the 
recommendations contained in the report to tighten and ensure 
compliance with existing program requirements by State consultants. 
OSHA's Assistant Secretary highlighted the OIG's recommendations and 
reinforced the importance of adhering to the corresponding corrective 
actions being taken by the agency in a memorandum sent to OSHA Regional 
Administrators and Consultation Project Managers in October 2007.
    With respect to the recommendations made by the OIG, OSHA added a 
provision in the Consultation Cooperative Agreements that required 
documentation of good faith efforts and all available interim 
protection measures being taken by employers whenever an extension was 
made for the correction of serious hazards. OSHA also added a provision 
to the Agreements in response to another OIG recommendation to require 
notification of the proper OSHA enforcement authority if an employer 
fails to take the action necessary to correct a serious hazard within 
the established time frame. In accordance with a third OIG 
recommendation, OSHA established a specific performance measure related 
to the initial correction due date of serious hazards. Finally, in 
response to the remaining recommendation for OSHA to provide guidance 
to States on acceptable types of interim protections, the October 2007 
memorandum from OSHA's Assistant Secretary contained information on the 
availability of resources and guidance for States in the selection of 
acceptable interim protection. The OIG accepted all of OSHA's actions 
as being responsive to its recommendations.
                     attracting and retaining staff
    Question. Many Federal agencies are facing human capital changes 
associated with the retirement of the baby boom generation. Please 
describe OSHA's plan for attracting and retaining individuals with the 
skills and abilities OSHA needs to carry out its mission. What level of 
resources is proposed in fiscal year 2009 to carry out OSHA's plan?
    Answer. OSHA has used training dollars and Departmental and 
Government-wide programs to assist in succession planning and 
leadership development. The agency has also successfully utilized the 
Department of Labor's Senior Executive Service candidates' program, 
Management Development and the Masters in Business Administration 
Fellows' program to invest in its human capital.
    In addition, OSHA will continue to explore three levels of 
leadership development. Technical/Professional (GS-11/12 employees), 
Supervisory/Management (GS-13/14 employees), and Executive Development 
(GS-14/15 employees). The agency will also use programs for the hiring 
of summer interns to expose students and others to the mission of the 
agency.
    The OSHA Training Institute (OTI) provides training and education 
in occupational safety and health for Federal and State compliance 
officers, and State consultants, by offering a series of basic, 
intermediate and advanced courses. To meet the continuing need for 
highly trained CSHOs, OSHA has developed a new training program for 
newly hired and experienced compliance personnel. The curriculum is 
designed to ensure that more comprehensive training is provided to 
compliance personnel so they are better equipped to apply technical 
information and skills in their work.
                  osha standards and guidance activity
    Question. For each of the past 15 years, please provide the number 
of notices of proposed rulemaking, final rules, guidance/informational 
materials and SBREFA reviews conducted or issued by OSHA.
    Answer. The three charts below provide the requested information:

            OSHA FINAL AND PROPOSED RULES BY YEAR, 1993-2007
------------------------------------------------------------------------
              Year                Proposed rules \1\    Final rules \1\
------------------------------------------------------------------------
1993............................  Occupational        Air Contaminants
                                   Exposure to 2-      (remand)
                                   Methoxyethanol, 2- Lead Exposure in
                                   Ethoxyethanol and   Construction--Int
                                   their Acetates      erim Rule
                                   (Glycol Ethers).   Permit-Required
                                  Retention of         Confined Spaces
                                   Markings and
                                   Placards (DOT)
1994............................  Permit Required     Electrical Power
                                   Confined Spaces     Generation,
                                   (general            Transmission, and
                                   industry).          Distribution;
                                  Respiratory          Electrical
                                   Protection          Protective
                                  Longshoring and      Equipment
                                   Marine Terminals   Reporting of
                                  Abatement            Fatality or
                                   Verification        Multiple
                                  Indoor Air Quality   Hospitalization
                                                       Incidents
                                                      Personal
                                                       Protective
                                                       Equipment for
                                                       General Industry
                                                      Logging Operations
                                                      Occupational
                                                       Exposure to
                                                       Asbestos
                                                      Safety Standards
                                                       for Fall
                                                       Protection in the
                                                       Construction
                                                       Industry
                                                      Confined and
                                                       Enclosed Spaces
                                                       and Other
                                                       Dangerous
                                                       Atmospheres in
                                                       Shipyard
                                                       Employment
                                                      Retention of DOT
                                                       Markings,
                                                       Placards, and
                                                       Labels
1995............................  Powered Industrial  Occupational
                                   Truck Operator      Exposure to Lead
                                   Training (general  Basic Program
                                   industry).          Elements for
                                                       Federal Employee
                                                       Occupational
                                                       Safety and Health
                                                       Programs; Record
                                                       keeping
                                                       Requirements
                                                      Basic Program
                                                       Elements for
                                                       Federal Employee
                                                       Occupational
                                                       Safety and Health
                                                       Programs
1996............................  Exit Routes (Means  Personal
                                   of Egress).         Protective
                                  Miscellaneous        Equipment for
                                   Changes to          Shipyard
                                   General Industry    Employment (PPE)
                                   and Construction   Safety Standards
                                   Standards;          for Scaffolds
                                   Proposed            Used in the
                                   Paperwork           Construction
                                   Collection,         Industry
                                   Comment Request    Occupational
                                   for Coke Oven       Exposure to 1,3-
                                   Emissions and       Butadiene
                                   Inorganic Arsenic.
                                  Occupational
                                   Injury and
                                   Illness Recording
                                   and Reporting
                                   Requirements.
                                  Powered Industrial
                                   Truck Operator
                                   Training
                                   (construction).
1997............................  Occupational        Occupational
                                   Exposure to         Exposure to
                                   Tuberculosis.       Methylene
                                                       Chloride
                                                      Reporting
                                                       Occupational
                                                       Injury and
                                                       Illness Data to
                                                       OSHA Abatement
                                                       Verification
                                                      Longshoring and
                                                       Marine Terminals
1998............................  Methylene Chloride  29 CFR Parts 1910
                                  Dipping And          and 1926
                                   Coating             Standards
                                   Operations (Dip     Improvement
                                   Tanks)              (Miscellaneous
                                  Safety Standards     Changes) for
                                   for Steel           General Industry
                                   Erection            and Construction
                                                       Standards;
                                                       Paperwork
                                                       Collection for
                                                       Coke Oven
                                                       Emission and
                                                       Inorganic Arsenic
                                                      Methylene Chloride
                                                      Powered Industrial
                                                       Truck Operator
                                                       Training
                                                      Permit-Required
                                                       Confined Spaces
                                                      Procedures for the
                                                       Handling of
                                                       Discrimination
                                                       Complaints Under
                                                       Federal Employee
                                                       Protection
                                                       Statutes
                                                      Occupational
                                                       Exposure to
                                                       Asbestos
                                                      Respiratory
                                                       Protection
1999............................  Ergonomics Program  Dipping and
                                  Nationally           Coating
                                   Recognized          Operations
                                   Testing
                                   Laboratories;
                                   Fees; Reduction
                                   of Public Comment
                                   Period on
                                   Recognition
                                   Notices.
                                  Employer Payment
                                   For Personal
                                   Protective
                                   Equipment.
2000............................  None..............  Nationally
                                                       Recognized
                                                       Testing
                                                       Laboratories--Fee
                                                       s
                                                      Occupational
                                                       Exposure to
                                                       Cotton Dust
2001............................  None..............  Safety Standards
                                                       for Steel
                                                       Erection
                                                      Occupational
                                                       Exposure to
                                                       Bloodborne
                                                       Pathogens;
                                                       Needlestick &
                                                       Other Sharps
                                                       Injuries
                                                      Occupational
                                                       Injury and
                                                       Illness Recording
                                                       and Reporting
2002............................  Fire Protection in  Occupational
                                   Shipyard            Injury and
                                   Employment.         Illness Recording
                                  Standards            and Reporting
                                   Improvement         Requirements
                                   Project--Phase II   (hearing loss)
                                                      Exit Routes,
                                                       Emergency Action
                                                       Plans, and. Fire
                                                       Prevention Plans
                                                      Safety Standards
                                                       for Signs,
                                                       Signals, and
                                                       Barricades
2003............................  Longshoring and     Procedures for the
                                   Marine Terminals;   Handling of
                                   Vertical Tandem     Discrimination
                                   Lifts.              Complaints Under
                                  Assigned             Section 519 of
                                   Protection          the Wendell H.
                                   Factors             Ford Aviation
                                  Controlled           Investment and
                                   Negative Pressure   Reform Act for
                                   REDON Fit Testing   the 21st Century
                                   Protocol.
                                  Commercial Diving
                                   Operations
2004............................  Occupational        Commercial Diving
                                   Exposure to         Operations
                                   Hexavalent         Fire Protection in
                                   Chromium.           Shipyard
                                  Steel Erection;      Employment
                                   Slip Resistance    Controlled
                                   of Skeletal         Negative Pressure
                                   Structure Steel.    REDON Fit Testing
                                  Electrical           Protocol Fire
                                   Standard (subpart   Protection in
                                   5)                  Shipyard
                                                       Employment
                                                      Basic Program
                                                       Elements for
                                                       Federal Employee
                                                       Occupational
                                                       Safety and Health
                                                       Programs and
                                                       Related Matters;
                                                       Subpart I for
                                                       Record keeping
                                                       and Reporting
                                                       Requirements
                                                      Updating OSHA
                                                       Standards Based
                                                       on National
                                                       Consensus
                                                       Standards;
                                                       General,
                                                       Incorporation by
                                                       Reference;
                                                       Hazardous
                                                       Materials,
                                                       Flammable and
                                                       Combustible
                                                       Liquids; General
                                                       and Environmental
                                                       Controls,
                                                       Temporary Labor
                                                       Camps; Hand and
                                                       Portable Powered
                                                       Tools and Other
                                                       Hand Held
                                                       Equipment,
                                                       Guarding of
                                                       Portable Powered
                                                       Tools; Welding,
                                                       Cutting, and
                                                       Brazing, Arc
                                                       Welding and
                                                       Cutting; Special
                                                       Industry,
                                                       Sawmills
                                                      Procedures for the
                                                       Handling of
                                                       Discrimination
                                                       Complaints Under
                                                       Section 806 of
                                                       the Corporate and
                                                       Criminal Fraud
                                                       Accountability
                                                       Act of 2002,
                                                       Title VIII of the
                                                       Sarbanes-Oxley
                                                       Act of 2002
2005............................  Electric Power      Standards
                                   Generation,         Improvement
                                   Transmission, and   Project--Phase II
                                   Distribution;      Procedures for the
                                   Electrical          Handling of
                                   Protective          Discrimination
                                   Equipment           Complaints Under
                                   (Subpart V).        Section 6 of the
                                                       Pipeline Safety
                                                       Improvement Act
                                                       of 2002
                                                      Roll-Over
                                                       Protective
                                                       Structures
2006............................  None..............  Occupational
                                                       Exposure to
                                                       Hexavalent
                                                       Chromium
                                                      Updating OSHA
                                                       Standards Based
                                                       on National
                                                       Consensus
                                                       Standards in
                                                       OSHA's Standard
                                                       for Fire
                                                       Protection
                                                      Assigned
                                                       Protection
                                                       Factors
                                                      Occupational
                                                       Exposure to
                                                       Hexavalent
                                                       Chromium
                                                       (amendment to
                                                       implement
                                                       settlement
                                                       agreement)
2007............................  Abbreviated         Procedures for the
                                   Bitrex             Handling of
                                   Qualitative Fit-    Retaliation
                                   Testing Protocol.   Complaints Under
                                  General Working      the Employee
                                   Conditions in       Protection
                                   Shipyard            Provisions of Six
                                   Employment.         Federal
                                  Confined Spaces in   Environmental
                                   Construction        Statutes and
                                  Updating OSHA        Section 211 of
                                   Standards Based     the Energy
                                   on National         Reorganization
                                   Consensus           Act of 1974, as
                                   Standards;          Amended
                                   Personal           Electrical
                                   Protective          Standard (subpart
                                   Equipment.          S)
                                  Explosives          Employer Payment
                                                       for Personal
                                                       Protective
                                                       Equipment
                                                      Updating OSHA
                                                       Standards Based
                                                       on National
                                                       Consensus
                                                       Standards
------------------------------------------------------------------------
\1\ Proposed and final rules include traditional health and safety
  standards, rules concerning Federal agency standards, anti-
  discrimination, and the process by which OSHA recognizes Nationally
  Recognized Testing Laboratories (NRTLs).

    Proposed and final rules do not include rules that are purely 
administrative, grants, technical amendments, corrections notices, 
withdrawals, changes to State plan and consultation regulations, and 
procedural notices such as extensions of comment periods, hearing 
notices, and extensions of compliance dates. They also do not include 
alternate standards for Federal agencies, variance application notices, 
and the recognition of specific NRTLs.
    Direct final rules are published with a concurrent proposed rule. 
For this table, both notices are counted as one final rule.

    SUMMARY OF THE OCCUPATIONAL SAFETY AND HEALTH ADMINISTRATION (OSHA) SMALL BUSINESS ADVOCACY REVIEW PANELS
                   MANDATED BY THE SMALL BUSINESS REGULATORY ENFORCEMENT FAIRNESS ACT OF 1996
----------------------------------------------------------------------------------------------------------------
                                                                  Date         Date      Published    Final rule
                         Rule title                             convened    completed     NPRM \1\    published
----------------------------------------------------------------------------------------------------------------
Tuberculosis................................................     09/10/96     11/12/96     10/17/97  ...........
Safety & health program rule................................     10/20/98     12/19/98  ...........  ...........
Ergonomics program standard.................................     03/02/99     04/30/99     11/23/99     11/14/00
Confined spaces in construction.............................     09/26/03     11/24/03     11/28/07  ...........
Electric power generation, transmission, and distribution...     04/01/03     06/30/03     06/15/05  ...........
Occupational exposure to Crystalline Silica.................     10/20/03     12/19/03  ...........  ...........
Occupational exposure to Hexavalent Chromium................     01/30/04     04/20/04     10/04/04     02/28/06
Cranes and derricks in construction.........................     08/18/06     10/17/06  ...........  ...........
Occupational exposure to Beryllium..........................     09/17/07     01/15/08  ...........  ...........
----------------------------------------------------------------------------------------------------------------
\1\ Notice of Proposed Rulemaking (NPRM) published in the Federal Register.

    A number of guidance products were issued by OSHA in the 1990s 
associated with rulemaking efforts and include such items as booklets 
and brochures that summarize employer responsibilities as well as 
Hazard Information Bulletins (now called Safety and Health Information 
Bulletins or SHIBs). OSHA has made an effort to compile a comprehensive 
listing of its work products responsive to this question but it is 
difficult to ensure a completely accurate catalogue of these products 
since no itemized database was ever maintained prior to 2005. Over the 
past 15 years, the issuance of electronic guidance has become a much 
more common and effective way to disseminate information than 
publishing guidance in print. Virtually all current OSHA compliance 
assistance products are posted on OSHA's public Web site at http://
www.osha.gov/pls/publications/publication.html. OSHA began a compliance 
assistance database in 2005 to track non-policy guidance from its 
national office (this excludes such items as enforcement compliance 
directives, which are often used by employers as guidance for how to 
interpret standards). The following table includes guidance that has 
been issued by OSHA's national office since 2005.

------------------------------------------------------------------------
               Product name                             Type
------------------------------------------------------------------------
29 CFR Part 1910. Subpart T, Commercial     Directive (with outreach
 Diving Operations Directive.                component)
Abrasive Blasting in Shipyards............  Guidance Document
Aerial Lifts..............................  Fact Sheet
Aerial Lifts Card.........................  Card
All About OSHA............................  Booklet
All Terrain Vehicles......................  Safety and Health
                                             Information Bulletin (SHIB)
Application of HAZWOPER to Worksite         Guidance Document
 Response and Cleanup Activities.
Asbesto...................................  Fact Sheet
Asbestos-Automotive Brake and Clutch        Safety and Health
 Repair Work.                                Information Bulletin (SHIB)
Avian Flu Quick Card: Animal Handlers.....  Card
Avian Flu Quick Card: Food Handlers.......  Card
Avian Flu Quick Card: General Precautions.  Card
Avian Flu Quick Card: Health Care Workers.  Card
Avian Flu Quick Card: Laboratory Workers..  Card
Avian Flu Quick Card: Poultry Workers.....  Card
Avian Flu fact sheet......................  Fact Sheet
BLSR Hazards Associated with E & P Waste    Safety and Health
 Liquids.                                    Information Bulletin (SHIB)
Basic Steel Products......................  Safety and Health Topics
                                             Page
Best Practices for the Safe Use of          Guidance Document
 Glutaraldehyde in Health Care.
Business Case for Safety..................  Safety and Health Topics
                                             Page
Carbon Monoxide Card......................  Card
Chain Saws................................  Fact Sheet
Chain Saws Card...........................  Card
Chippers Card.............................  Card
Cleaning Industry.........................  Safety and Health Topics
                                             Page
Cleanup Hazards...........................  Fact Sheet
Combustible Dust..........................  Safety and Health Topics
                                             Page
Combustible Dust Explosions...............  Fact Sheet
Combustible Dust in Industry: Preventing    Safety and Health
 and Mitigating the Effects of Fire and      Information Bulletin (SHIB)
 Explosions.
Concrete and Concrete Products:             Safety and Health Topics
 Manufacturing and Construction.             Page
Confined Spaces Card......................  Card
Confined Spaces Poster....................  Poster
Confined Spaces, Atmospheric Testing Card.  Card
Construction eTool, Spanish translation...  eTool
Container Gantry Crane Radio Communication  Fact Sheet
 on Marine Terminals.
Crane Safety Card.........................  Card
Critter fact sheet: Black Widows..........  Fact Sheet
Critter fact sheet: Brown Recluse Spiders.  Fact Sheet
Critter fact sheet: Cottonmouth (Water      Fact Sheet
 Moccasin).
Critter fact sheet: Fire Ants.............  Fact Sheet
Decontamination, General..................  Fact Sheet
Decontamination, General (Card)...........  Card
Demolition Safety Tips....................  Fact Sheet
Demolition Safety Tips Card...............  Card
Downed Electrical Wires...................  Fact Sheet
Drop-in Article: Lay press on landscaping   Other
 safety for summer jobs among teens.
Drop-in Article: Protect Your Working Teen  Other
 from Machinery Hazards.
Drop-in Article: Protect Your Working Teen  Other
 from Pesticides.
Drop-in Article: Protect Your Working Teen  Other
 from Strains and Sprains.
Drop-in Article: Protect Your Working Teen  Other
 from Summer Sun and Health Illnesses.
Electricity, Working Safely With..........  Fact Sheet
Electricity, Working Safely With (Card)...  Card
Entanglement Hazards of Augur Drilling....  Safety and Health
                                             Information Bulletin (SHIB)
Ergonomic Guidelines for Shipyards........  Guidance Document
Ergonomic Solutions for Electrical          eTool
 Contractors: Installation and Repair
 Module.
Ergonomic Solutions for Electrical          eTool
 Contractors: Prefabrication Module.
Ergonomics Guidelines for Shipyards.......  Guidance Document
Ergonomics for the Printing Industry:       eTool
 Flexography Module.
Ergonomics for the Printing Industry:       eTool
 Lithography Module.
Ergonomics for the Printing Industry:       eTool
 Screen Printing Module.
Fire Department S&H Topics Page...........  Safety and Health Topics
                                             Page
Fire Service Features of Buildings and      Booklet
 Fire Protection Systems.
First Aid Best Practices..................  Guidance Document
Flavorings-Related Lung Disease...........  Safety and Health Topics
                                             Page
Flood Cleanup.............................  Fact Sheet
Four Leading Construction Hazards.........  Card
Four Leading Construction Hazards Card....  Card
Frequently Asked Questions for OSHA's       FAQs
 Injury and Illness Recordkeeping Rule for
 Federal Agencies.
Fungi Hazards and Flood Cleanup...........  Fact Sheet
Globally Harmonized System of               Guidance Document
 Classification and Labeling of Chemicals
 (GHS) Guidance Document.
Guardrail System for Tunnel Form Stripping  Safety and Health
 Platform.                                   Information Bulletin (SHIB)
Guidance for Hazard Determination.........  Guidance Document
Guidance on Preparing Workplaces for a      Guidance Document
 Potential Pandemic Influenza.
Guidance on Safe Sling Use................  Guidance Document
Hand Hygiene and Gloves...................  Fact Sheet
Hand Hygiene and Gloves Card..............  Card
Handling Human Remains....................  Fact Sheet
Hazard Communication Guidance for Diacetyl  Guidance Document
 and Certain Food Flavorings Containing
 Diacetyl.
Hazards Associated With Transporting        Safety and Health
 Granite and Marble Slabs.                   Information Bulletin (SHIB)
Hazards of Manually Lifting Balloon Framed  Safety and Health
 Walls.                                      Information Bulletin (SHIB)
Hazards of Manually Lifting Balloon Framed  Safety and Health
 Walls (Spanish transla-  tion).             Information Bulletin (SHIB)
Hazards of Unintended Movement of Dump      Safety and Health
 Truck Body Beds.                            Information Bulletin (SHIB)
Hazards of Wood Chippers..................  Safety and Health
                                             Information Bulletin (SHIB)
Hazards with Hand-Feeding Bar               Safety and Health
 Straightening Machines.                     Information Bulletin (SHIB)
Health Effects of Hexavalent Chromium.....  Fact Sheet
Hearing Conservation Issues for the         Safety and Health
 Hearing Impaired.                           Information Bulletin (SHIB)
Hearing Loss in Construction Toolbox        Guidance Document
 Training.
Heat Stress...............................  Fact Sheet
Hexavalent Chromium FAQs..................  FAQs
Hexavalent Chromium Fact Sheet(s).........  Fact Sheet
Hexavalent Chromium Small Entity            Guidance Document
 Compliance Guide.
Hexavalent Chromium fact sheet............  Fact Sheet
Hospitals and Community Emergency           Booklet
 Response--What You Need  to Know.
Hydrogen Sulfide..........................  Fact Sheet
Hydrogen Sulfide Card.....................  Card
ICS Survival Sheet........................  Other
Inspection Guidelines for the Chromium      Directive (with outreach
 (VI) Standards.                             component)
Inspection Procedures for 29 CFR 19 10.120  Directive (with outreach
 and 1926.65(q): Emergency Response to       component)
 Hazardous Substance Releases.
Latex SHIB................................  Safety and Health
                                             Information Bulletin (SHIB)
Lead Hazards..............................  Fact Sheet
Lead in Construction......................  Fact Sheet
Lead in Construction Card.................  Card
Longshoring and Marine Terminal...........  Directive (with outreach
                                             component)
Machine Guarding eTool: Thermoforming       eTool
 Module.
Marine Terminal Fall Protection for         Fact Sheet
 Personnel Platforms.
Mass Care Shelter Workers Checklist.......  Guidance Document
Mold......................................  Fact Sheet
Mold Card.................................  Card
Motor Vehicle Safety Guidance for           Brochure
 Employers to Reduce Motor Vehicle Crashes.
OSHA Guidance Update for Protecting         Guidance Document
 Workers From Avian Flu (Influ-  enza).
OSHA Poster...............................  Poster
Occupational Exposure to Ethylene Oxide...  Guidance Document
Oil and Gas Well Drilling, Servicing and    Safety and Health Topics
 Storage: Storage Tank Module.               Page
Overhead Launching Gantry Crane...........  Safety and Health
                                             Information Bulletin (SHIB)
Pandemic Influenza Preparedness and         Guidance Document
 Response Guidance for Healthcare Workers
 and Healthcare Employers.
Personal Protective Equipment:              Card
 Construction.
Pest Control Pyrotechnics.................  Card
Portable Generators.......................  Fact Sheet
Portable Generators Card..................  Card
Portable Generators: Grounding............  Fact Sheet
Portable Ladder Safety....................  Card
Portable Ladder Safety Card...............  Card
Potential Flammability Hazard Associated    Safety and Health
 With Bulk Transportation of Oilfield        Information Bulletin (SHIB)
 Exploration and Production Waste Liquid.
Preparing and Protecting Security           Guidance Document
 Personnel in Emergencies.
Preventing Falls..........................  Fact Sheet
Preventing Falls Card.....................  Card
Preventing Mold-Related Problems in the     Guidance Document
 Indoor Workplace: A Guide for Building
 Owners, Managers, and Occupants.
Preventing the Uncontrolled Release of      Safety and Health
 Anhydrous Ammonia at Loading Station.       Information Bulletin (SHIB)
Psychological First Aid Materials and       Other Web Products
 Information.
Quick Start: Construction Module..........  Other Web Products
Quick Start: Health Care Module...........  Other Web Products
Recordkeeping Handbook....................  Guidance Document
Rescue of Animals (Dogs) by Disaster        Card
 Relief Personnel.
Respiratory Disease Among Employees in      Safety and Health
 Microwave Popcorn Processing Plants.        Information Bulletin (SHIB)
Respiratory Protection Card...............  Card
Respiratory Protection Guidance for         Safety and Health
 Employers and Workers.                      Information Bulletin (SHIB)
Rodents, Snakes, and Insects Card.........  Card
Safe Driving Quick Card...................  Card
Safeguarding Equipment and Protecting       Booklet
 Workers from Amputations.
Safety Hazards of Overloaded Cable Trays..  Fact Sheet
Safety Pays Advisor.......................  eTool
Safety and Health Cheddist for Community    Guidance Document
 Service Organizations Engaged in Disaster
 Recovery Demolition and Construction
 Activities.
Scaffold Quick Card (#2): Supported         Card
 Scaffold Inspection Tips.
Scaffolding (Supported) Card..............  Card
Search and Rescue.........................  Fact Sheet
Seasonal Influenza Vaccinations--Important  Fact Sheet
 Protection for Healthcare Workers.
Shipyard..................................  Directive (with outreach
                                             component)
Shipyard Employment: Fire Protection        eTool
 Module.
Shipyard eTool: Barge Cleaning module.....  eTool
Shipyard eTool: Best Practices for Marine   eTool
 Hanging Staging Module.
Shipyard eTool: Ship Breaking module......  eTool
Shipyard eTool: Ship Building module......  eTool
Silicosis Card............................  Card
Teen Worker Bookmark (OSHA/WHD))..........  Other
Tips for Improving Workplace Safety and     Fact Sheet
 Health.
Traffic Safety in Marine Terminals........  Guidance Document
Tree Care Industry........................  Safety and Health Topics
                                             Page
Tree Trimming.............................  Fact Sheet
Tree Trimming Card........................  Card
Trenching and Excavation Safety...........  Fact Sheet
Use of Blunt Suture Needles to Decrease     Safety and Health
 Percutaneous Injuries to Surgical           Information Bulletin (SHIB)
 Personnel.
Use of Blunt Tip Suture Needles to          Safety and Health
 Decrease Percutaneous Injuries to           Information Bulletin (SHIB)
 Surgical Personnel.
West Nile Virus...........................  Fact Sheet
West Nile Virus Card......................  Card
Whistleblower Protection for Employees in   Fact Sheet
 the Aviation Industry.
Whistleblower Protection for Employees in   Fact Sheet
 the Transportation Sector.
Whistleblower Protection for Employees of   Fact Sheet
 Public Transportation Agen-  cies.
Whistleblower Protection for Railroad       Fact Sheet
 Employees.
Whistleblower Protection for Trucking       Fact Sheet
 Employees.
Whistleblower Protections and the           Fact Sheet
 Environment.
Work Zone Safety..........................  Fact Sheet
Work Zone Safety Card.....................  Card
Worker Protection Matrix for Hurricane      eTool
 Response and Recovery Workers.
Working Outdoors in Warm Climates.........  Fact Sheet
Young Worker Fact Sheet (Update)..........  Fact Sheet
------------------------------------------------------------------------

                      enhanced enforcement program
    Question. For each of the past 5 years, please provide the number 
of enhanced enforcement program cases and the associated number of 
major enforcement outcomes.
    Answer. If an inspection is classified as an Enhanced Enforcement 
Program (EEP) case, it may receive additional enforcement efforts such 
as: an enhanced follow-up inspection to verify that both the cited 
conditions and other, similar, hazards have been corrected; in cases 
that can be settled, more comprehensive abatement requirements in the 
settlement agreements; and potential Federal court contempt enforcement 
of the citations or settlement provisions pursuant to Section 11(b) of 
the Occupational Safety and Health Act. In addition, other workplaces 
of the employer may be inspected through the following mechanisms:
    SST-Related Inspections in General Industry.--When other 
establishments of the same corporate employer (other than construction 
employers) are included on OSHA's current Site-Specific Targeting (SST) 
primary or secondary inspection lists, they will be moved to the 
current SST inspection cycle.
    Related Inspections.--Additional establishments of the same 
employer in both general-industry and construction may be inspected if 
there is evidence of showing that the safety and health problems 
identified in the initial EEP inspection are part of a broader company-
wide problem.
    The following chart shows data for OSHA's original Enhanced 
Enforcement Program, which was initiated October 1, 2003.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                         General                    Enhanced     11(b)
                                                                   EEP 1      Follow-up   SST-related   industry-   Construction-  settlement    court
                          Fiscal year                           inspections  inspections                 related        related                 actions
                                                                                          inspections  inspections   inspections   agreements    to SOL
--------------------------------------------------------------------------------------------------------------------------------------------------------
2004..........................................................         314           54            1            2            10            60          5
2005..........................................................         589          108           19            9             7            88          2
2006..........................................................         473          128            8           12            12            49          2
2007..........................................................         717          174           18            3             6            84          1
2008 \1\......................................................         277           46            8            4             1            33          1
                                                               -----------------------------------------------------------------------------------------
      Totals..................................................       2,370          510           54           30            36           314         11
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ From 10-1-07 thru 5-22-08.

    On January 1, 2008, OSHA issued its revised Enhanced Enforcement 
Program. The revision changed the EEP criteria to place greater 
emphasis on those employers that have a history of violations with OSHA 
(including history with State Plans).
    Because there are significant differences between the original EEP 
(EEP 1) program as implemented in October 2003, and the revised EEP 
(EEP 2) program initiated in January 2008, the data from the two 
programs are not directly comparable and are reported separately.
    The following chart shows data for OSHA's revised Enhanced 
Enforcement Program, which was initiated January 1, 2008:

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                   EEP 2                                 General                                 11(b)
                                                                inspections   Follow-up   SST-related   industry-   Construction-   Enhanced     court
                          Fiscal year                            (number of  inspections  inspections    related       related     settlement   actions
                                                                fatalities)                            inspections   inspections   agreements    to SOL
--------------------------------------------------------------------------------------------------------------------------------------------------------
2008 \1\......................................................      \1\ 13   ...........  ...........  ...........  .............  ..........  .........
                                                               -----------------------------------------------------------------------------------------
      Total...................................................      \1\ 13   ...........  ...........  ...........  .............  ..........  .........
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ From 1-1-08 thru 5-22-08.

                         whistleblower activity
    Question. What is OSHA's experience to date in terms of workload 
numbers and time involved in carrying out new whistleblower/anti-
discrimination protections provided for in recent legislation, such as 
the 9/11 Commission bill? What does the budget assume for these 
workloads in fiscal year 2009?
    Answer. To date, cases filed under the Federal Rail Safety Act 
(FRSA) and the National Transit Security Systems Act (NTSSA), the 
whistleblower provisions of which were assigned to OSHA in the 
Implementing Recommendations of the 9/11 Commission Act of 2007, 
constitute less than 2 percent of OSHA's caseload. Based on past 
experience, the cases can be expected to increase as public awareness 
of the laws increase. The new statutes require a great deal of 
deliberation, as the agency works to address novel jurisdictional and 
coverage issues, develops implementing regulations, establishes working 
relationships with the agencies that enforce the substantive provisions 
of those laws, and develops and plans to deliver comprehensive training 
to investigators and supervisors.
    OSHA's fiscal year 2009 budget includes a total workload estimate 
of 2,055 whistleblower-case investigations and a discussion of the 
challenges of administering these new whistleblower statutes, but 
individual workload estimates are not established for each statute 
administered by the agency.
                        osha information system
    Question. Please provide more detail on the major steps, timeline, 
and costs for fiscal year 2008 and 2009 associated with the OSHA 
Information System. What are the outcomes expected to be achieved under 
this new information system?
    Answer. When fully implemented, OSHA's Information System (OIS) 
will replace the agency's current data system, the Integrated 
Management Information System (IMIS). The current project timetable for 
the OIS schedules full deployment by the end of fiscal year 2010. 
During fiscal year 2008 and 2009, work will be continued in three major 
areas: system design, a pilot to test approximately 20 percent of the 
total function for the new system, and completion of system 
development. OSHA estimates that OIS will cost $24 million to fully 
implement by September 30, 2010.
    When OIS is fully implemented, the agency will have an enhanced 
ability to more quickly identify local trends unique to States or 
counties, and to predict emerging trends such as new hazardous 
chemicals affecting workers. Unlike the current system, the analytical 
tools employed by OIS will have the capacity to recognize and detect 
events and occurrences that are unique to specific industry sectors and 
geographical areas, allow improved targeting and utilization of 
resources for both enforcement and compliance assistance activities, 
and more accurately set and monitor progress towards reaching 
performance targets.
                     susan harwood training grants
    Question. The budget once again proposes to eliminate funding for 
the Susan Harwood Training grants and Institutional Competency Building 
grants programs. What proportion of the grantees under these programs 
met their performance goals, based on a review of the most recent grant 
periods for which data are available?
    Answer. The most recent period for which Susan Harwood Training 
grant data are available for grantees that completed their programs is 
fiscal year 2007. This activity reflects grants awarded in fiscal year 
2006. The data indicate that 82 percent of Susan Harwood Training 
grantees met or exceeded their performance goals. Current Institutional 
Competency Building grantees are operating several years beyond the 
initial period designed for their development and 100 percent of them 
met or exceeded their performance goals originally established for 
them.
                          recordkeeping audits
    Question. During the budget hearing, Secretary Chao stated that 
OSHA completes inspections of employer recordkeeping of workplace 
injuries. Please describe specifically the steps involved in these 
recordkeeping audits. How many have been done for each of the last 5 
years and what specifically did these audits find? Do these audits 
include a specific and effective attempt to identify injury cases 
missing from the employer logs? What follow-up actions were taken in 
response to findings of inaccurate logs?
    Answer. OSHA collects injury and illness data from a universe of 
approximately 130,000 employers in high-rate industries for the purpose 
of identifying individual high-rate establishments for potential OSHA 
interventions. The program for conducting recordkeeping audits involves 
(1) onsite visits to a statistically valid sample of establishments 
that submitted data to OSHA; (2) a sample of employees within the 
establishment selected for inspection; (3) a comprehensive review of 
documentation concerning any injuries or illnesses for each employee 
file selected; and (4) a comparison of recordable cases discovered from 
the employee files compared with the establishment's original OSHA 300 
log to determine if any cases discovered were (or were not) properly 
recorded on the log. The audit program also entails (1) an interview of 
the recordkeeper; (2) comparison of the log summary data found onsite 
and the data the employer submitted to OSHA for the agency's Data 
Initiative; and (3) employee interviews.
    The following table reflects the number of audits completed over 
the past 5 years and their findings:

----------------------------------------------------------------------------------------------------------------
                                                                                                    Percent of
                                                                                                  establishments
                                                                                                    classified
                                                                                                   with accurate
                                                                                                   recording for
                                                                  Reference year     Number of         total
                              Year                                     data           audits        recordable
                                                                                                   cases (at-or-
                                                                                                   above the 95
                                                                                                      percent
                                                                                                   threshold of
                                                                                                     accuracy)
----------------------------------------------------------------------------------------------------------------
2003............................................................            2001             246           95.53
2004............................................................            2002             252           94.84
2005............................................................            2003             251           92.43
2006............................................................            2004             256           95.70
2007............................................................            2005             245         ( \1\ )
----------------------------------------------------------------------------------------------------------------
\1\ Analysis pending.

    Accuracy data pertain to the number of establishments recording 
correctly and does not attempt to estimate the actual number of 
instances where cases may have been under or over reported. The audit 
protocol was specifically designed to detect unrecorded cases as well 
as mis-recorded and over-recorded cases. This is done through a 
comprehensive onsite review of multiple record sources including 
medical records, workers compensation records, first-aid logs, and 
employee interviews. The sampling methodology was independently 
developed by the National Opinion Research Center at the University of 
Chicago to allow estimates of recordkeeping accuracy. Since these 
audits are conducted as part of an OSHA inspection, violations 
discovered are cited and require abatement by the employer.
                      cranes and derricks standard
    Question. Nearly 4 years after labor and management reached 
consensus on a safety standard for cranes and derricks, a proposed rule 
has yet to be issued. In the meantime, workers continue to be hurt and 
killed. On March 6 workers and one member of the public was killed in a 
crane collapse in New York City. Several days later two more workers 
lost their lives in a crane collapse in Miami, Florida. What is OSHA's 
timeline for completing action on this issue? Why has there been such a 
delay in moving forward based on the consensus reached 4 years ago?
    Answer. The cranes and derricks proposed rule will comprehensively 
address the hazards associated with the use of cranes and derricks in 
construction. As a consequence, this complex rule has required 
extensive time to conduct the required analyses and reviews. Pursuant 
to requirements enacted by Congress, OSHA is required to conduct a 
regulatory flexibility analysis, small business review, and paperwork 
burden analysis of the proposed rule. In addition, OSHA is required to 
explain the basis and purpose of the rule. OSHA anticipates issuing a 
notice of proposed rulemaking for this standard in Fall 2008.
               employee benefits security administration
    Question. As you may know, I have long been involved in maximizing 
retirement security for Americans. I am deeply concerned by the growing 
shift from secure defined benefit pensions to 401(k) plans. That is why 
I appreciate the Department's focus on fees associated with these 
plans, and as you know I have also introduced legislation on this 
critical issue. Studies show a small percentage increase in fees can 
have a dramatic impact on overall retirement security. I have a couple 
of questions for you on this front.
    Clearly, there are a number of parties that need to be made aware 
of plan fees. Of most interest to the press and public is the 
information that participants receive, since most plans are 
participant-directed and they pay most of the fees. However, the plan 
sponsor actually bears fiduciary responsibility in selecting plans that 
best serve the participants' interests and as they select plan options 
with reasonable fees, the participant ends up being in the happy 
position of choosing from several favorable options. And finally, in 
order to keep an eye on these plans, the Government needs information 
on fees.
    So far the Department has issued regulations on the information 
that the Government and plan sponsors receive--when do you plan to 
issue regulations on the information that participants get?
    Answer. The Department has developed proposed regulations 
concerning the disclosure of plan fee and expense information to plan 
participants and beneficiaries which are now in the final stages of 
review. We anticipate publication of our proposal in the Federal 
Register in early summer.
                 disclosure to plan sponsor regulations
    Question. With regard to the proposed regulation on disclosure to 
plan sponsors, I have sent a comment letter detailing all of my 
concerns with the proposed rule. I have also heard from plan sponsors 
and providers who have commented to DOL about this rule.
    Can you discuss how these comments are being integrated and what 
the timeline currently is anticipated in issuing a final rule?
    Answer. In December 2007, the Department published a proposed 
regulation and related prohibited transaction class exemption 
concerning the disclosure of service provider compensation and 
conflicts of interest information to plan sponsors. To date, the 
Department has received over 100 public comments on this regulatory 
initiative. Further, the Department conducted 2 days of administrative 
hearings on March 31 and April 1 of this year to further develop the 
public record and to provide Department representatives an opportunity 
to obtain additional information concerning the many issues raised by 
public commenters.
    The Department currently is reviewing these comments, as well as 
testimony presented at the public hearings, and analyzing the proposed 
regulation and class exemption in light of the legal, technical, and 
practical issues that have been raised. We have been and continue to 
pursue the goal of transparency for plan sponsors who are engaging 
service providers and selecting investment products for their plans, 
and we intend to finalize this regulatory initiative by November 2008.
                          administrative fees
    Question. I want to clear up specifically a debate that seems to be 
raging about bundled services. I keep hearing that it doesn't matter if 
plan sponsors understand all of the various kinds of fees that 
participants are being charged as long as the overall level is 
competitive. However, that doesn't take into account things like 
whether some costs are reasonable over time. For example, the cost per 
participant to administer a plan for 100 people is going to be 
significantly higher than the per participant costs for a plan covering 
five times as many people.
    So how is a plan sponsor to gauge the reasonableness of 
administrative fees as their plan grows if they only know the overall 
fee level that includes asset-based fees and investment fees? Don't you 
think that insuring reasonable administrative costs is inherent to 
fiduciary responsibility?
    Answer. ERISA prohibits the payment of fees to service providers 
unless the plan pays no more than reasonable compensation. Plan 
fiduciaries have an obligation to make sure that the plan is getting 
its money's worth whenever it makes an investment or enters into a 
contract with a service provider. To do so, the fiduciary needs to 
understand how much the plan is going to pay and what it is going to 
get in return. In order to make a judgment about whether fees are 
reasonable, the fiduciary needs to understand precisely what services 
are being rendered, the quality of those services, and whether the fees 
are structured in such a way that the interests of the service provider 
run counter to the interest of the plan.
    When administrative and investment fees are ``bundled'' together, 
for instance when they both are assessed through asset-based fees, a 
fiduciary needs to have the information necessary to make these 
assessments. Whether or not the fiduciary needs to look at the pricing 
of a particular component, for example administrative expenses, is 
likely to depend on the facts and circumstances. For example, in many 
instances, it may be relatively easy for the fiduciary to assess the 
benefits of purchasing each service separately or in a bundle simply by 
looking at the competitor's prices for the individual services. In such 
cases, if the contract does not give the service provider any improper 
incentives, the aggregate price may be all that matters to the plan. 
The fact that fees are bundled does not necessarily mean that the 
services and fees are hidden or that the plan is paying more for 
bundled services than if services were selected individually.
                 pension benefits guaranty corporation
    Question. I am very interested in movement by the PBGC as mentioned 
in the fiscal year 2009 budget request to modify investment policy more 
aggressively to reduce the long-term shortfall in obligations. I ask 
that you keep Congress fully apprized of such strategies as you move 
forward. I see that there could be some benefit in this approach, as 
reserves can be shored up without further increasing the strain on 
employer contributions, which in turn strains their ability to provide 
guaranteed benefit plans to their workers. However, this must be 
balanced with the investment policy that will not increase risk unduly. 
On a related note, I am hearing rumors of activity by the PBGC to 
examine whether to allow third-party financial institutions to purchase 
assets in frozen pension plans. I find this concept deeply troubling. 
ERISA of course requires that plan fiduciaries manage pensions solely 
in the interest of the participant. I fail to understand how adding 
another profit motive to the equation is accomplishing that 
requirement. Furthermore, I believe that an employer has more interest 
in protecting participant assets than a third party financial 
institution.
    Can you please comment on the PBGC's activity with regard to 
examining such plan asset sales?
    Answer. The three ERISA agencies have been approached by several 
financial institutions interested in assuming sponsorship of frozen 
pension plans from employers. The various proposals would transfer 
sponsorship and all aspects of plan administration and plan asset 
investment from the employer to a newly created subsidiary of the 
financial institution, which would become the new plan sponsor. Because 
the proposals involve ongoing plans that will not terminate, primary 
regulatory responsibility for these proposals rests with the Internal 
Revenue Service and Department of Labor. The IRS is actively examining 
whether such transactions are consistent with the requirements of the 
Internal Revenue Code. PBGC has asked the financial institutions to 
clarify the possible risks and benefits to plan participants and the 
pension insurance program.
                         wage and hour division
    Question. Please provide the information requested in last year's 
2008 Senate committee report related to the misclassification of 
workers and enforcement efforts in low-wage industries.
    Answer. ESA is working to finalize the requested report, and 
expects to transmit the full report to the Congress in the near future.
    Question. Staffing for the wage and hour division has fallen by 20 
percent from 2001 to 2008. What has been the impact of this reduction 
on the mission of the wage and hour division?
    Answer. The Wage and Hour Division's (WHD) mission is to promote 
and to achieve compliance with labor standards to protect and to 
enhance the welfare of the Nation's workforce. The President's fiscal 
year 2007 budget requested an additional increase of $6 million to hire 
39 FTE for WHD. The fiscal year 2008 budget requested an additional 
increase of $5 million to hire 36 FTE for WHD. The fiscal year 2009 
budget request includes funding to hire an additional 75 Wage and Hour 
enforcement staff to target resources on industries and workplaces that 
employ low-wage, immigrant workers.
    As has long been its mission, WHD is committed to protecting 
workers, particularly in low-wage industries. To make the best use of 
resources, WHD employs complementary strategies--enforcement, 
compliance assistance, and partnerships--that strengthen the agency's 
ability to protect the employment rights of workers in low-wage 
industries and to promote compliance by covered employers.
    We believe the ultimate impact of the resources we are given is 
shown in the enforcement results that WHD has achieved, rather than in 
the number of FTEs. In fiscal year 2007, WHD recovered more than $220 
million in back wages, the largest amount ever, for over 341,600 
employees, the second largest number since 1993. Since fiscal year 
2001, WHD has recouped more than $1.25 billion for nearly 2 million 
workers.
    Question. For each of the past 10 years, what share of wage and 
hour resources has been dedicated to self-directed investigations 
versus employee complaint-initiated actions?
    Answer. WHD has the following data for the past 10 years relating 
the percent of concluded cases that are self-directed and the percent 
of concluded cases that are initiated as a result of a complaint.

------------------------------------------------------------------------
                                           Self-directed    Complaint-
                                            cases as a    based cases as
               Fiscal year                  percent of     a percent of
                                             concluded       concluded
                                               cases           cases
------------------------------------------------------------------------
1998....................................            29.1            70.9
1999....................................            27.9            72.1
2000....................................            27.5            72.5
2001....................................            30.7            69.3
2002....................................            25.7            74.3
2003....................................            26.7            73.3
2004....................................            23.4            76.6
2005....................................            22.6            77.4
2006....................................            22.7            77.3
2007....................................            23.3            76.7
------------------------------------------------------------------------

    Question. What has the impact been on wage and hour's ability to 
respond effectively to employee wage and hour complaints?
    Answer. In fiscal year 2007, WHD investigators concluded complaint 
cases in 97 days on average. This is less than the 108 average numbers 
of days that it took to conclude complaint cases in fiscal year 2003. 
WHD has also improved the effectiveness of its complaint intake 
strategies and this has increased the percent of WHD complaint 
investigations that find violations of WHD laws. In fiscal year 2003, 
72 percent of WHD complaint investigations, excluding conciliations, 
found violations. By the end of fiscal year 2007, 79 percent of 
complaint investigations found violations.
budget justification of spending for special personal services payments 
                    and other personnel compensation
    Question. The Employment Standards Administration (ESA) budget 
justification (page ESA-19 for 2009 and page ESA-17 for 2008) shows a 
significant increase in the 2008 estimate of spending for special 
personal services payments and other personnel comp. The 2008 spending 
on such activities increases from $3.6 million under the president's 
2008 request (which ESA did not receive) to $6.6 million, an increase 
of more than 80 percent. What is the explanation for such a dramatic 
increase in this category of spending? Specifically, how does this 
proposed spending support the goals of ESA?
    Answer. After further review, we realize that our initial response 
to an informal question from the committee was incomplete. The 
appearance of a significant increase in the fiscal year 2008 estimate 
of spending for ``special personal services payment and other personnel 
comp'' is the result of the Employment Standards Administration's 
(ESA's) inconsistent use of some of the detailed budget object classes 
for personnel compensation. This issue, which became known when the 
Department implemented its new budget system that displayed a more 
detailed object class breakout, has been corrected.
    Although the fiscal year 2008 funding for object class 11.5 was 
included in the requested funding level for 11.0 (Total Personnel 
Compensation, which includes funding for regular salaries, as well as 
awards, overtime, and other personnel costs), it was not displayed in 
detailed object class 11.5 as it should have been. It was, 
unfortunately, displayed in other object classes within 11.0. With the 
implementation of the Department's new budget system, ESA is now 
providing a more accurate object class breakout.
    Moreover, in fiscal year 2008, ESA requested a total amount of 
$267.879 million for total personnel compensation (11.0), but was 
appropriated only $253.264 million--$14.615 million less than 
requested. The actual amount enacted for fiscal year 2008 for total 
personnel compensation was reflected correctly in the fiscal year 2009 
submission.
                  office of labor-management standards
    Question. According to the Department's evaluation of the Labor 
Management Reporting and Disclosure program, OLMS technology creates a 
problem for timely filing of required reports, as do difficulties with 
understanding LM form instructions and recordkeeping. What steps is 
OLMS taking in 2008 and planning in 2009 to address these findings? 
What level of resources will support these actions?
    Answer. In fiscal year 2007, DOL contracted with Eastern Research 
Group (ERG) for an analysis and evaluation of the OLMS reporting and 
disclosure program. In its October 31, 2007 report, ERG stated that, in 
general, ``OLMS has well established, organized, and documented 
policies and procedures in place to assist union officers in complying 
with LMRDA reporting requirements, to encourage compliance, and to 
rectify compliance problems with individual unions.'' The report also 
noted that issues with electronic filing and difficulties with 
understanding LM form instructions represent obstacles to union 
compliance with LMRDA reporting.
    To obtain further information on electronic filing difficulties, 
DOL commissioned ERG to perform a cost benefit analysis regarding 
potential improvements to the OLMS Electronic Labor Organization 
Reporting System (e.LORS). The e.LORS system provides labor 
organizations with the capability to electronically submit their 
reports, enables OLMS personnel to secure and analyze reported data, 
and provides a means for public disclosure of LM reports filed by labor 
organizations through an Online Public Disclosure Room.
    In its March 14, 2008 report, ERG noted four concerns with the 
current e.LORS system and recommended that OLMS replace the Adobe Forms 
and Adobe Server components of e.LORS with a Web-based alternative that 
would alleviate all of the business and technical gaps. ERG also 
suggested that an alternative ``pin and password'' process could 
replace the existing electronic signature requirement, and that the 
existing date query system could be replaced with a more versatile web-
based application.
    OLMS has been reviewing ERG's recommendations and expects to 
develop a plan to implement selected ERG recommendations. Congressional 
assistance will be important to implementing this plan, as fiscal year 
2009 budget considerations will affect the extent to which ERG 
recommendations can be implemented. Meeting the President's budget 
level is critical to improving e.LORS.
    OLMS is also focusing on compliance assistance to help union 
officers better understand the LM Form instructions. At mid-year fiscal 
year 2008, OLMS field offices had completed 50 compliance assistance 
sessions to over 1,300 attendees. These sessions assist attendees on 
how to understand the LM forms and instructions.
    OLMS' existing metric of ``percent of union reports meeting 
standards of acceptability'' was created in 2003 prior to the advent of 
substantial numbers of unions filing reports electronically. At that 
time only 73 percent of paper reports met the criteria of 
``acceptability,'' meaning that the form was facially compliant with 
the LMRDA (i.e., that required information fields were filled out) but 
not measuring accuracy or otherwise evaluating the filing. Thus, a 
report that meets the minimum level of ``acceptability'' may 
nevertheless contain serious deficiencies. Consistent cooperation with 
unions and extensive compliance assistance along with free software 
developed by OLMS and provided to unions, which assists in ensuring 
acceptability by pointing out facial inaccuracies or missing 
information, has allowed OLMS to increase the ``acceptability'' measure 
to 95 percent. As noted in the 2007 Performance and Accountability 
Report, OLMS plans to replace the acceptability measure with a new 
performance measure--increased electronic filing--which would drive 
continuing improvements in LMRDA reporting compliance, provide more 
timely disclosure of reports and improve agency efficiency in managing 
reports and public disclosure.
    A new baseline for electronic filing is being developed this year 
and future reports will use that baseline to measure OLMS performance. 
Acceptability remains a component of the new metric because as more 
unions file electronically, the percentage of reports meeting standards 
of acceptability also will rise.
    Question. How does the OLMS track who uses the Union Reports.gov 
website and how is the information used to support the purposes of the 
LMRDA? Please provide the number or share of hits by different types of 
visitors, such as union members, employers, academics, etc.
    Answer. OLMS does not collect information on who uses the union 
reports disclosure site and, therefore, has no way of determining the 
number or share of hits by different types of visitors. In calendar 
year 2006, OLMS recorded 79,319 visits to its Online Public Disclosure 
Room (www.unionreports.gov) home page, and in calendar year 2007 there 
were 228,154 visits.
    The following chart provides more specific information with regard 
to 2007.

----------------------------------------------------------------------------------------------------------------
                                                                                     Officer/
                      Month                         Union/trust     Payer/payee      employee         Yearly
                                                      Search          Search          Search
----------------------------------------------------------------------------------------------------------------
Jan.............................................          41,071           1,917           4,548           1,274
Feb.............................................          36,814           1,608           4,290           1,184
Mar.............................................          34,353           1,521           3,987           1,168
Apr.............................................          27,745           1,065           2,777             839
May.............................................          44,454           1,986           5,202           1,674
Jun.............................................          43,207           2,062           4,646           1,790
Jul.............................................          43,227           2,233           4,579           1,842
Aug.............................................          36,378           1,598           4,330           1,456
Sep.............................................          35,228           1,376           3,419           1,311
Oct.............................................          31,766           1,358           3,597           1,262
Nov.............................................          19,406             770           2,053             761
Dec.............................................          16,351             724           1,654             591
                                                 ---------------------------------------------------------------
      Yearly total..............................         410,000          18,218          45,082          15,152
----------------------------------------------------------------------------------------------------------------

    The first column shows the number of union financial disclosure 
reports retrieved or searched from the disclosure site. The second 
column shows the number of queries seeking to retrieve data on payments 
from a union to a particular individual or company, or vice versa. The 
third column shows the number of queries concerning transactions 
involving union officers or union employees. The fourth column shows 
the number of times the contents of the database were downloaded.
    The number of searches exceeds the number of visits to the 
disclosure home page because a single visit may involve multiple 
searches and individuals may access the disclosure site through a 
bookmarked page or by other means that circumvent the disclosure home 
page.
    One of the primary purposes of the LMRDA is to publicly disclose 
the financial conditions and operations of labor organizations. See 29 
U.S.C.  435 (Reports Made Public Information). ``By such disclosure, 
and by relying on voluntary action by members of labor organizations, 
abuses can be eradicated effectively.'' Senate committee report, S. 
Rep. No. 187 (1959), at 15. Publicly disclosed information empowers 
union members to become educated about their labor organization, to 
express knowledgeable opinions at membership meetings, and to cast 
informed votes at union officer elections.
                        family and medical leave
    Question. Family and Medical Leave Enforcement: I frequently hear 
from constituents the hardships they are having because their FMLA 
claims are denied, many of them incorrectly, but in some cases, in ways 
that would become legal under this new regulation. I have heard the 
following complaints:
  --The employer requires diagnosis of health condition on FMLA form.
  --The employer contacts the worker's medical provider directly and 
        demands more medical information than required under 
        regulations.
  --Multiple employers are refusing to approve completed FMLA paperwork 
        or they frequently ask employees to return to health care 
        provider for more information at great inconvenience to workers 
        who are already spending a great deal of time coping with a 
        chronic health condition.
  --Employers fail to inform employees of rights to FMLA when they ask 
        for medical leave.
  --The employer issues attendance points for absences that should have 
        been covered under FMLA.
  --The employer asks for recertification more often than allowed under 
        regulations.
  --The employer attempts to limit the amount or frequency of 
        intermittent leave for a serious health condition.
  --The employer uses FMLA absences to downgrade an employee's 
        performance rating or evaluation.
    I would like to know if the Department has considered the 
complaints they have received from the field about employers engaging 
in the very same activities that the regulations would permit.
    Answer. On February 11, 2008, the Department of Labor published 
proposed revisions to certain regulations implementing the Family and 
Medical Leave Act of 1993 (FMLA). The public comment period closed on 
April 11, 2008, and the Department is carefully reviewing all of the 
4,500 comments that it received from workers, employers, health care 
providers, and other stakeholders.
                        american time use survey
    Question. The American Time Use Survey provides critical 
information on Americans' work and commuting schedules, the time they 
spend taking care of children and sick adults, the time teenagers spend 
doing homework and all of the other activities that make up Americans' 
days. The survey costs only $4.3 million per year. Over 1,500 
researchers (including 4 Nobel Prize winners) signed a statement 
requesting that the Congress restore funding for the American Time Use 
Survey.
    Why does the Department's budget propose eliminating this critical 
survey?
    Answer. The administration made the decision to eliminate the ATUS 
in order to partially offset the rising costs of the Current Population 
Survey (CPS), a Principal Federal Economic Indicator. Eliminating the 
ATUS--one of BLS's newest and lowest priority surveys--allows BLS to 
focus its resources on higher priority programs that protect the 
accuracy and reliability of the monthly data on the Nation's labor 
force. Also, it is worth noting that not all industrialized countries 
that conduct time use surveys do so on an annual basis. On the other 
hand, CPS data--most notably the monthly unemployment rate--are among 
the Nation's most critical and widely used economic indicators in 
setting economic and social policies, and the preservation of the 
survey's sample size is most critical.
                    documenting missing injury cases
    Question. According to the Bureau of Labor Statistics website, BLS 
is taking a number of steps to learn more about research results 
documenting missing injury cases in individual firms, as determined by 
comparisons between BLS and State workers' compensation data, and to 
address any deficiencies in it survey operations.
    Please describe the efforts planned or underway in fiscal year 2008 
and planned for fiscal year 2009 to address the documents 
underreporting?
    Answer. The annual DOL reports of occupational injury and illness 
estimates come from the BLS annual Survey of Occupational Injuries and 
Illnesses (SOII). The survey captures data from Occupational Safety and 
Health Administration (OSHA) logs of workplace injuries and illnesses 
maintained by employers. Recent outside research has indicated that 
both SOII and workers' compensation programs missed cases. Beginning in 
fiscal year 2008 and continuing into fiscal year 2009, the BLS is 
examining and extending the results of this research to better 
understand the research methodology and the nature of the comparisons 
to determine if any changes in BLS survey operations are needed. In 
addition, the BLS conducted its own ``follow-back'' study in fiscal 
year 2007, with final results tabulated in fiscal year 2008. The 
results indicate that the survey correctly captured the data that 
employers recorded on their OSHA logs.
    In fiscal year 2008, the BLS began interviewing a small number of 
SOII respondents to learn about the decisions they make about reporting 
cases to workers' compensation programs and on the OSHA log. The 
purpose is to understand situations where workers' compensation cases 
might not be recorded on OSHA logs and vice versa. These interviews are 
being conducted by a BLS cognitive survey methodologist. At the request 
level, the BLS plans to expand the number of these interviews conducted 
in fiscal year 2009. Finally, the BLS has documented much of its 
analysis of the undercount issue to date, and its plans for future 
research, and will publish a research note in an upcoming issue of the 
Monthly Labor Review.
    The BLS has updated its ``Frequently Asked Question'' (FAQ) on this 
topic at http://www.bls.gov/iif/peoplebox.htm#faqaa.
    Question. How much is being spent or planned to be spent in fiscal 
year 2008?
    Answer. The BLS plans to spend approximately $240,000 on these 
activities in fiscal year 2008.
    Question. How much is requested in the BLS 2009 budget for these 
activities?
    Answer. At the 2009 request level, the BLS expects to spend 
approximately $300,000 for the activities described above relating to 
potential underreporting.
    Question. The BLS website also indicates that BLS is developing its 
own ``follow-back'' study to ensure the survey correctly captures the 
data that employees have recorded in the OSHA logs and that further 
research is still being planned as well.
    Please describe the follow-back study as well as future research 
plans?
    Answer. In 2007, the BLS conducted a quality assurance recontact 
survey that indicated that BLS survey processes were not responsible 
for an undercount. A sample of 3,600 establishments who participated in 
the 2006 survey were recontacted and asked to submit their OSHA logs, 
used in filling out the SOII survey form, to the BLS. The BLS then 
compared the OSHA logs to data for the SOII. There was no systematic 
evidence that the data in the SOII undercounted cases recorded on OSHA 
logs. This study did not attempt to ascertain whether the OSHA logs 
were correct or complete; the BLS is not responsible for ensuring the 
accuracy of OSHA logs from which the survey data is derived.
    Question. What resources are being allocated to the study or 
research on this issue in fiscal year 2008?
    Answer. In fiscal year 2008, BLS completed the final tabulations 
and the final report on the fiscal year 2007 recontact survey, with 
minimal staff time used. Under $90,000 was spent to conduct the study 
in fiscal year 2007.
    Question. How much is being requested in 2009 for these areas?
    Answer. The BLS has no current plans to conduct another recontact 
survey related to the SOII undercount issue. Therefore, the BLS request 
includes no funding related to the SOII recontact survey.
                 office of disability employment policy
    Question. The Department's performance goal for the Office of 
Disability Employment Policy is to ``build knowledge and advance 
disability employment policy that affects and promotes systems 
change.'' The performance targets developed by DOL for this goal 
include:
  --The number of policy related documents issued by ODEP, which falls 
        from 34 in fiscal year 2008 to 8 under the DOL budget request 
        for fiscal year 2009; and
  --The number of effective practices developed or validated by ODEP 
        drops from 24 in fiscal year 2008 to 15 under the DOL budget 
        request for fiscal year 2009.
    Does DOL believe that ODEP's mission has been completed and there 
is less of a need for developing effective practices or issuing policy-
related documents?
    Answer. ODEP's mission, ``to provide national leadership by 
developing and influencing disability-related policy and practice 
affecting the employment of people with disabilities'' continues to be 
an important component of the Department's overall mission. From fiscal 
year 2004, when it began tracking the number of effective practices it 
developed, through fiscal year 2007, ODEP's investments resulted in the 
development and dissemination of 79 effective practices. Since fiscal 
year 2006, when it began counting the number of policy documents 
produced as a measure of its performance, ODEP's efforts have produced 
54 policy documents. In fiscal year 2009, ODEP will focus its efforts 
on developing and implementing disability employment policy to increase 
the recruitment, retention and promotion of people with disabilities, 
and eliminate duplicative grant making activities. The requested 
funding level will allow ODEP to develop national policy related to and 
affecting employment of people with disabilities; foster the 
implementation of effective policies and practices within State and 
local workforce systems and with employers; conduct research and 
analysis that identifies and validates effective disability-employment 
strategies; and provide technical assistance on implementing effective 
disability employment policies and practices throughout the workforce 
development system, its partners and employers. The Department believes 
that ODEP's mission continues to support the agency's efforts to 
develop and influence the implementation of policy that reduces 
barriers to employment.
    Question. Please explain the goals, operations and outcomes 
achieved under the ODEP Alliance? How much has been allocated to this 
Alliance over the past 3 years and the 2009 request?
    Answer. The purpose of the Alliance initiative is to increase 
voluntary collaboration between ODEP and other public entities, 
including employers, organizations, and institutions. The operations of 
the Alliance initiative include formalizing the collaborative agreement 
with the Alliance entity, conducting outreach of the Alliance 
initiative, and managing specific Alliances. The goals of the Alliance 
initiative are to promote training and education, disseminate best 
practices, promote outreach and communication, and advance dialogue 
that promotes the employment of people with disabilities. Alliances are 
currently in place with the Society for Human Resources Management 
(SHRM) and CVS/Caremark.
    Since the Alliance initiative began in 2007, the following results 
have been achieved:
  --February 27, 2007: Presentation describing the ODEP/SHRM Alliance 
        to Salisbury (Maryland) Chamber of Commerce members. The 
        Salisbury Chamber is host to the Eastern Shore Business 
        Leadership Network and is a 2003 New Freedom Initiative (NFI) 
        Awardee.
  --October 5, 2007: At the 2007 Virginia State SHRM Conference, 
        Driving Competitive Advantage, in Arlington, Virginia, ODEP 
        presented a paper that describes resources being developed to 
        assist employers in hiring, employing and advancing people with 
        disabilities.
  --ODEP, together with Job Accommodation Network (JAN) and Employer 
        Assistance & Recruiting Network (EARN) staff, welcomed 
        conference attendees to ODEP exhibits at SHRM Conferences and 
        shared information on ODEP policy initiatives, disability 
        employment practices, and JAN and EARN services. Various ODEP 
        policy advisors attended conference sessions and networked with 
        SHRM members:
    --April 23, 2007, Staffing Management Conference and Exposition 
            (750 attendees), New Orleans, Louisiana;
    --June 24, 2007, Annual Conference and Exposition (22,000 
            attendees), Las Vegas, Nevada;
    --October 3, 2007, Virginia SHRM Conference (700 attendees), 
            Arlington, Virginia;
    --October 18, 2007, Diversity Conference (500 attendees), 
            Philadelphia, Pennsylvania; and
    --April 14, 2009, Staffing Management Conference and Exposition 
            (1,200 attendees), Nashville, Tennessee.
    As part of a comprehensive outreach effort, since 2007, ODEP has 
allocated $100,000 toward its Alliance initiative, and the fiscal year 
2009 budget provides $50,000.
                    legal service/solicitor's office
    Question. The 2009 budget indicates that the request level for 
legal services will allow the office to handle 36 percent fewer 
regulatory projects. Please identify by DOL agency the number of 
projects completed in fiscal year 2007, planned/completed in 2008 and 
planned in 2009.
    Answer. Because regulatory initiatives vary widely in complexity 
and the time and resources necessary to complete them, and reflect 
policy decisions made outside the Office of the Solicitor (SOL) rather 
than merely workload capacity in SOL, workload projections are based on 
an average amount of time spent on regulatory projects rather than the 
number of actual regulations. Assuming each ``regulatory project'' 
required the same expenditure of resources, SOL estimates that at the 
funding level requested in fiscal year 2009, it would be possible to 
work on approximately 36 percent fewer such projects than fiscal year 
2006. The 36 percent decrease was derived by comparing the actual hours 
spent by SOL attorneys on all regulatory matters in fiscal year 2006 
and fiscal year 2007 with the hours that are projected to be available 
for such work with the resources requested in fiscal year 2009. It 
should also be noted that some SOL regulatory work includes reviewing 
non-DOL proposed regulations for their potential impact on DOL-
administered laws and regulations. Because these estimates reflect 
average times spent on average regulatory projects, rather than actual 
projects, DOL's Semi-Annual Regulatory Agenda (available at http://
www.dol.gov/asp/regs/unifiedagenda/spring_2008_agenda.pdf and at 
Regulations.gov) should be consulted for an accurate prediction of the 
regulatory projects that DOL will complete in the next 12 months.
                          office of job corps
    Question. During the hearing, Secretary Chao stated that the 2009 
budget request maintains a level of service currently offered by the 
Job Corps. I have heard from a number of my constituents that the 
Denison Center in Iowa has had to reduce teaching staff, which means 
greater class sizes; defer replacement of high school textbooks and 
aging computers; and a reduction of a daycare provider for their solo 
parent program.
    How is it possible to maintain services at the President's budget 
level, when I have heard that the last couple years of funding have 
resulted in program service reductions? What has been the impact of 
relatively flat funding over the past 2 years on the level of service 
offered by the Job Corps program?
    Answer. Current budgetary constraints require us to make difficult 
choices with the resources available. The Job Corps program will 
continue its efforts to find cost efficiencies to offset increases in 
health, energy and transportation so that we can maximize the number of 
students served. The 2009 budget request for Job Corps will enable us 
to maintain the same level of service to its students and keep high 
levels of performance with respect to job placement, diploma 
attainment, and numeracy and literacy gains.
    Question. Additionally, Secretary Chao stated that the Department 
is ``very focused to keep Job Corps a strong program'' that serves 
young people and further stated that a reason for the cut was the 
unused beds within Job Corps.
    If the Department is focused on keeping Job Corps a strong program 
why wouldn't the Department enhance its investment in recruitment of 
students?
    Answer. Job Corps continues to maintain and develop our recruitment 
and outreach efforts. Job Corps consistently spent $6 million for each 
PY from 1999 through 2005 on its recruitment campaign; Job Corps spent 
$5 million in PY 2006 and $6 million in PY 2007. The recruitment budget 
for PY 2008 will not be less than PY 2007 funding levels.
    In October 2006, all Job Corps recruitment efforts were 
consolidated under the National Office. Previously, the National Office 
and each of the six regions had separate outreach support contracts. 
While the separate regional outreach efforts allowed for regional and 
center-specific outreach and recruitment approaches, having materials 
produced by different contractors had the unintended effect of diluting 
the Job Corps brand and duplicating efforts.
    Under this centralized plan, the National Office oversees the 
creation of Outreach & Admissions (OA) and CTS materials such as 
brochures and posters for distribution to Regional Offices and OA and 
CTS project directors. This plan resulted in better utilization of 
resources by providing economies of scale and allowing the program to 
have consistent name brand recognition.
    Question. Why hasn't the Department responded to Congress' 
directive to develop and implement a national plan to increase 
enrollment?
    Answer. Job Corps has responded to Congress' directive to develop 
and implement a plan to increase enrollment. Highlights of that report 
are as follows:
    In October 2006, Job Corps' Consolidated Outreach and Recruitment 
Plan was launched, which combined the outreach efforts of the National 
Office and its six Regional Offices into a single contract. This allows 
Job Corps to take advantage of economies of scale and ensures that a 
single message is communicated to our target audience. With this 
consolidated plan, OJC rolled out new recruitment materials and 
television outreach segments as of May 1, 2007. All OA contractors, 
Regional Offices, and the Job Corps National Call Center are being 
provided with these national materials.
    In May 2007, Job Corps launched the Youth Ambassador program, a 
program that serves as a student speakers' bureau to introduce Job 
Corps to potential workforce and recruitment partners. The ambassadors' 
goals are to: share their Job Corps experiences and success stories to 
select groups/organizations; help recruit new students; educate target 
audiences about the benefit of Job Corps; and serve as mentors. Each 
Job Corps region has two student ambassadors: one primary and one 
alternate. The first ambassador public speaking training conference was 
conducted January 7-10, 2008.
    Job Corps is also in the process of developing a national 
recruitment Web site that provides a single portal for prospective 
students, their parents and other adult influencers; an online 
application process to further streamline the enrollment process will 
also be added to the new site. This site will be a public site which 
will be linked to the primary Job Corps Public website as well as Job 
Corps Center websites. Users will be able to navigate between the 
various sites at their discretion.
    In addition to the national outreach and recruitment strategies OJC 
coordinates regional activities as well. Each Regional OJC administers 
and oversees several Outreach and Admissions (OA) contracts that are 
responsible for both recruiting and enrolling students in Job Corps 
centers. Each Region develops a Geographic Assignment Plan (GAP) using 
a national GAP planning template to ensure consistency across all 
regions, which assigns specific arrival goals to each OA contractor by 
specific Job Corps centers. Regional Offices monitor the success of the 
OA contractor in reaching these goals and review regional-level data to 
make adjustments to the GAP as necessary.
    It is important to note that the number of students enrolled in the 
program is not solely a function of recruitment and admissions. In 
addition to student arrivals, the number of student separations and 
students' average length of stay also factor into the program's On 
Board Strength (OBS). A vital component of increasing Job Corps' on 
board strength (OBS) is student commitment, or the willingness and 
readiness of a student to remain in the program through graduation. To 
improve performance in this area, Job Corps has implemented the 
Speakers, Tutors, Achievement, Retention, and Success program (STARS), 
offering structured tutoring and mentoring to provide those students at 
risk of leaving early the encouragement and support necessary to remain 
longer in the program, thereby increasing the number of program 
graduates. Furthermore, OJC implemented Career Success Standards (CSS), 
which incorporates employability and social skills development into all 
aspects of the program, leading to a more personalized relationship 
between staff and students, improving center culture, and students' 
willingness to remain in Job Corps.
    To further focus on improving student commitment, retention and to 
reduce the number of students who leave the program due to drugs or 
violence, Job Corps implemented a small drug test pilot program in the 
Philadelphia region. Applicants are tested for drug use prior to 
admission to further ensure that the program is enrolling students who 
are committed to their education and ready for the rigor and demands of 
the program. This pilot will allow Job Corps to determine the effect of 
pre-enrollment drug screening on retention, early program separation 
due to drugs and or violence and student outcomes.
    The preliminary results of Philadelphia drug screening pilot and 
the program's early separation analysis provides support that students 
who enter the program drug-free are more likely to remain in the 
program beyond 60 days.
    Thus, Job Corps is addressing challenges with recruitment and 
retention throughout the program in order to implement a more holistic 
solution.
    Question. Please describe the specific steps the department has 
taken to strengthen the interaction between outreach/admission 
contractors and center operators, and to ensure that outreach/admission 
contractors are effectively carrying out their responsibilities?
    Answer. Job Corps has historically taken definitive steps to 
strengthen the interaction between outreach/admissions contractors (OA) 
and center operators and to ensure that OA contractors are effectively 
carrying out their responsibilities.
    Job Corps' performance management system, entitled the Outcome 
Measurement System (OMS), is one of the major factors encouraging 
collaboration between all Job Corps operators and ensuring that each 
are effectively carrying out their respective responsibilities.
    Job Corps' performance management system is comprised of four 
outcome measurement systems:
  --Outreach and Admissions (OA) Report Card
  --Center Report Card
  --Career Transition Services (CTS)
  --Career Technical Training Report Card
    Each outcome measurement system assesses performance in specific 
areas of responsibility with respect to serving students throughout the 
Career Development Services System (CDSS). Combined, these outcome 
measurement systems provide a comprehensive picture of performance 
throughout all phases of students' Job Corps experience. Thus, it is 
critical that the systems be closely aligned to both encourage 
collaboration in delivering quality services to students and provide an 
accurate reflection of efforts towards meeting clearly defined program 
goals.
    Each component of the program's (Outreach Admissions [OA], Center 
and Career Transition Service [CTS]) report cards contains elements 
that are impacted by the performance of the other program components. 
The interdependence is such that one component of the program can not 
perform well overall if other components are performing poorly.
    Additionally, a recent, yet significant, step to hold OA providers 
accountable and strengthen the interaction between OA contractors and 
center operators was the implementation of performance based contracts 
(PBSC) for Outreach and Admissions. Previously only center and career 
transition operators' contracts were performance based. Effective 
February 7, 2008, all new OA contract awards have the appropriate 
performance based contract language added to the contracts.
            veteran's employment and training administration
    Question. Approximately 200,000 service members and 90,000 Reserve 
and National Guard Members are discharged from active duty annually.
    Specifically, how is the 2008 appropriation used to ensure their 
employment rights are being protected and transition and training 
programs are effective and available?
    Answer. Regarding the protection of employment rights, the fiscal 
year 2008 appropriation will be used to train and maintain a corps of 
over 100 trained investigators in our Regional and State offices 
throughout the country, six Senior Investigators (one in each Region) 
and a team of compliance and investigations specialists at the National 
Office. The fiscal year 2008 appropriation will support our aggressive 
outreach program to ensure employees and employers understand their 
respective rights and obligations under the statute. VETS national and 
regional staff will continue briefing deploying and returning military 
units, State Chambers of Commerce, State Bar associations and 
professional associations, and conduct information sessions through a 
variety of electronic media. We are hopeful that our outreach program 
will result in fewer USERRA complaints and violations. However, when we 
receive a USERRA complaint, we thoroughly and promptly investigate to 
ensure compliance with the law. Under the Transition Assistance Program 
(TAP) the appropriation supports the delivery of TAP employment 
workshops and provides VETS with the flexibility to provide targeted 
funding in response to exigent circumstances, such as an increased 
demand for TAP Employment Workshops. The number of TAP Employment 
Workshop participants is expected to continue to increase during fiscal 
year 2008 and fiscal year 2009 as TAP Employment Workshops are being 
extended overseas to serve Guard and Reserve units and individuals; and 
as DOD works to meet its goal of an 85 percent participation rate in 
TAP Employment Workshops. As demand for TAP Employment Workshops 
increases, VETS will coordinate with DOD to provide additional 
workshops while working to maintain optimal class sizes. The additional 
TAP Employment Workshops would be delivered through a combination of 
Disabled Veterans' Outreach Program (DVOP)/Local Veterans' Employment 
Representative (LVER) staff and/or contracted facilitator support.
    Question. Does the fiscal year 2009 request provide sufficient 
funds to address VETS' responsibilities?
    Answer. Yes, the fiscal year 2009 request provides sufficient funds 
to address VETS' responsibilities.
                                 ______
                                 
             Question Submitted by Senator Daniel K. Inouye
                state of hawaii national emergency grant
    Question. On March 20, 2008, Aloha Airlines shut down its passenger 
operations. This is the largest mass lay-off in Hawaii's history. It 
has put approximately 1,900 employees out of work. Hawaii has recently 
filed a National Emergency grant to assist with the job retraining and 
placement of these workers. Madame Secretary, this application is 
pending your review, and I would greatly appreciate your swift and 
favorable review. Time is of the essence so many of these former 
employees can look to new career opportunities as they struggle to get 
their lives back on track. Your review of this is much appreciated. Can 
you inform us of where you are in this process?
    Answer. The Department is in the final stages, working with the 
State of Hawaii, of developing its decision to award a National 
Emergency Grant (NEG). The State's request identified approximately 710 
workers needing services, including 146 pilots who would need training 
on aircraft other than those they flew for Aloha Airlines.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
               providing additional workers with services
    Question. In light of the Department's fiscal year 2009 proposed 
budget cuts to programs under the Workforce Investment Act and the 
elimination of Employment Services, how do you propose to accommodate 
the additional workers who are likely to need employment and training 
services during these turbulent economic times?
    Answer. The fiscal year 2009 budget request complements the 
administration's proposal for job training reform, which seeks to 
provide services in a more cost-effective way. This reform proposal 
would consolidate the Employment Service and the Workforce Investment 
Act (WIA) Adult, Dislocated Worker, and Youth funding streams into a 
single funding stream to be used for Career Advancement Accounts and 
employment services. In addition to eliminating the duplication between 
the Employment Service and WIA One-Stop delivery system that still 
exists in a number of States, it would replace the current siloed 
system of separate training programs, reduce administrative and 
overhead costs, and, most importantly, significantly increase the 
number of individuals who receive job training. Approximately 200,000 
individuals receive training through the public workforce investment 
system each year. However, these reforms would increase the number of 
workers trained to over 600,000.
    Overall, the fiscal year 2009 budget request makes a substantial 
investment in job training. Government-wide, the budget invests more 
than $13 billion in training and employment programs. Including Pell 
Grants for students pursuing training at technical or community 
colleges brings this total to $23 billion.
             assistance to low-income, out-of-school youth
    Question. This is the final budget that you will present for the 
Department of Labor as Secretary of the Department. It comes at a time 
when the United States has the highest proportion of students who drop 
out of secondary schools in the world--our teens ages 16 to 24 have the 
lowest annual average employment rates since World War II--and the 
employment rates for young adults ages 20 to 24 with no 4-year college 
degrees were substantially below those of 2007--especially for young 
men.
    What have you done over the past 7 years as Labor Secretary that 
addresses the needs of the millions of young people who are low-income, 
out-of-school, and out of work in a significant and meaningful way--
beyond Job Corps, which was a service for disadvantaged young people 
before you became Secretary and will continue to be so when your term 
ends?
    Answer. In 2004, the Department adopted and announced its new 
strategic vision to more effectively serve those youth most in need of 
services: out-of-school youth and at-risk youth. Recognizing the 
necessity of involving other Federal agencies that serve other groups 
of neediest youth in this collaborative effort, the Department's 
outreach and recruitment strategy led to the creation of a national 
cross-agency group, which evolved into the Shared Youth Vision Federal 
Partnership. The Federal Partnership now includes nine Federal 
agencies. This group serves as a catalyst at the national, State, and 
local levels to promote the Shared Youth Vision by strengthening the 
coordination, communication, and collaboration among youth-serving 
agencies to support the neediest youth in acquiring the talents, 
skills, and knowledge necessary for their healthy transition to 
successful adult roles and responsibilities.
    The Federal Partnership has been actively involved in sponsoring 
numerous activities to promote the Shared Youth Vision to State and 
local agencies serving youth. These activities have included: (1) a 
series of Shared Youth Vision technical assistance forums nationwide 
for State teams; (2) the selection of 16 Shared Youth Vision Pilot 
Project State teams to develop and implement strategic approaches that 
leverage their State-level coordination at the local service delivery 
level; (3) the development and implementation of a comprehensive 
technical assistance plan for infusing the collaborative vision in all 
States throughout the country; and (4) funding a Shared Youth Vision 
Implementation Study.
    Beginning 3 years ago, the Department's Youth Vision began to 
address the problems created by the large number of youth leaving high 
school without a diploma. The increased national focus on the impact of 
high drop-out rates on regional economic development, as well as the 
lessons learned through DOL-sponsored Alternative Education Listening 
Sessions, has driven the development of a multiple education pathways 
strategy that will increase the quality and quantity of alternative 
education opportunities and post-secondary opportunities for formerly 
out-of-school youth. The Department has demonstrated its leadership 
through the support of seven cities (Brockton, Massachussetts; Des 
Moines, Iowa; Fall River, Massachussetts; Gary, Indiana; Metairie, 
Louisiana; Mobile, Alabama; and Pittsburgh, Pennsylvania) in their 
efforts to develop a blueprint to create high quality, innovative 
multiple education pathway systems through our Multiple Education 
Pathway Blueprint (MEPB) initiative (funded at $3.4 million). MEPB 
addresses talent development and the very real need to address the high 
costs of increasing numbers of drop-outs and their negative impact on 
regional and State economic development.
    The Department is continuing to develop bridges between One-Stop 
Career Centers and offender-focused youth programs in local communities 
to improve services to young offenders. The co-enrollment of youth 
offenders in Workforce Investment Act-sponsored programs, Temporary 
Assistance for Needy Families, and Average Daily Attendance funds offer 
other examples of utilizing funds more effectively and leveraging 
resources. Some of the benefits of these arrangements include cost 
sharing and improved communication among participating programs.
    The Department of Labor also is providing leadership in serving 
out-of-school youth through our investments in YouthBuild and Youth 
Offender initiatives and focusing efforts on reconnecting the neediest 
youth to high-quality alternative learning environments that lead to a 
diploma and to post-secondary training.
                       underreporting of injuries
    Question. I continue to hear the administration's claims that 
worker injuries and illnesses on job are on the decline; yet, I also 
continue to hear about the problem of underreporting workplace 
injuries.
    Last year, in my first oversight hearing on OSHA in my Employment 
and Workplace Safety Subcommittee, Dr. David Michaels told us that the 
``true incidence . . . is far higher than reported by the Bureau of 
Labor Statistics since these data do not include approximately two-
thirds of occupational injuries and illnesses.'' (testimony for Dr. 
Michaels can be found at http://www.help.senate.gov/Hearings/
2007_04_26/2007_04_26.html).
    The problem goes beyond inadequate data collection. Experts cite 
various reasons for underreporting, including OSHA's failure to issue 
new regulations, employer disincentives to report these incidents, and 
workers' fear of retaliation.
    I believe that underreporting is a real problem and that is why I 
initiated a GAO investigation into OSHA efforts to ensure that 
employers are reporting injuries and illnesses accurately.
    What steps is the Department taking to proactively address the 
problem of underreporting workplace injuries and illnesses, 
particularly as it relates to areas under the jurisdiction of OSHA and 
BLS?
    Answer. The Department's annual injury and illness statistics are 
derived from the BLS Survey of Occupational Injuries and Illnesses 
(SOII). The survey captures data from Occupational Safety and Health 
Administration (OSHA) logs of workplace injuries and illnesses 
maintained by employers. While recent studies by outside researchers 
have reported that both SOII and workers' compensation programs 
undercount cases, these studies do not necessarily provide a definitive 
answer on the presence or size of any potential undercount, and thus do 
not provide an adequate basis for revising current BLS survey 
operations. The BLS is examining and extending the results of this kind 
of matching research to better understand the methodology and the 
nature of the comparisons.
    In fiscal year 2008, the BLS began interviewing a small number of 
SOII respondents to learn about the decisions employers make that might 
lead to workers' compensation cases not being recorded on OSHA logs or 
workers' compensation claims not being filed for cases recorded on the 
logs. BLS plans to expand the number of interviews conducted in fiscal 
year 2009.
    Finally, the BLS has documented much of its analysis to date of the 
purported undercount and its plans for future research, and will 
publish a research note in an upcoming issue of the Monthly Labor 
Review.
    OSHA is responsible for ensuring that employers accurately record 
work-related injuries and illnesses on their logs. OSHA collects data 
from employers in industries with high rates of injuries and illnesses 
to identify individual high-rate establishments for potential OSHA 
interventions. Each year OSHA conducts approximately 250 recordkeeping 
audits of employers in high-rate industries to estimate the accuracy of 
the logs. These audits include a comprehensive review of documentation 
concerning actual injuries and illnesses, and a comparison of these 
cases to those recorded on the employer's log to determine if the log 
is accurate. These audits indicate that over 90 percent of the 
establishments accurately recorded injuries and illnesses.
    Question. What steps has the Department taken in the past?
    Answer. In fiscal year 2007, the BLS began efforts to expand the 
scope of the SOII to include State and local government workers in all 
States. With the expansion of the survey, the BLS will include these 
public sector workers in its National estimates, including those in 
such high hazard occupations as police, fire-fighters and public health 
workers. In fiscal year 2007, the BLS also conducted a quality 
assurance survey that indicated that BLS survey processes were not 
responsible for an undercount. A sample of 3,600 establishments that 
participated in the 2006 survey were contacted and asked to submit 
their OSHA logs to the BLS. The BLS then compared the OSHA logs to data 
for the SOII. Though this study did not attempt to ascertain whether 
the OSHA logs were correct or complete, there was no systematic 
evidence that the data in the SOII undercounted cases recorded on OSHA 
logs. OSHA has conducted yearly audits of the OSHA logs as described 
above.
                          osha state programs
    Question. State OSHA programs now cover more than half of all 
States or territories (26), yet Federal funding for these programs has 
not kept up. My home State of Washington is one such State that 
continues to do more with less but is constantly getting the short end 
of the stick from Federal OSHA. Funding increases over the last 7 years 
have been negligible or non-existent, although in fiscal year 2006 
alone States issued 43,000 more violations and assessed millions of 
dollars more in penalties than Federal OSHA. Too many State programs 
have been forced to cut their operations budget, lay off inspectors or 
ask their overworked employees to forgo cost of living increases.
    Why doesn't OSHA adequately fund the 26 State-run safety and health 
programs required under the law? Please provide me with detailed data 
concerning of the number of inspections performed, violations cited, 
and penalties collected in both Federal and State run programs, and a 
cost-benefit analysis of the resources allocated on both levels.
    Answer. Section 23(g) of the Occupational Safety and Health Act 
provides for funding of State programs at a level which ``may not 
exceed'' 50 percent. Annual appropriations language also provides for 
funding ``up to 50 percent of the costs required to be incurred.'' Of 
the 26 approved State Plans, 22 cover both the private and public 
(State and local government) sectors and four operate plans limited in 
scope to the public sector. Although no State Plan is required to 
contribute more than a 50 percent match of the available Federal funds, 
many States have chosen to contribute additional funding above their 
Federal match funding. Washington is one of those States.
    The fiscal year 2008 Consolidated Appropriations Act provided $1.6 
million less than the President requested to fund these State Plan 
grants. This reduction exacerbated the difference between the Federal 
funds that were available and the amount that States were contributing 
to their safety and health programs. However, that gap has existed 
throughout the history of the program. This reflects, in part, the 
differences among the various States in the scope of their programs as 
well as the sources and availability of State funding compared to that 
made available from the Federal side.
    Attached is a chart showing inspection, citation and penalty data 
for Federal OSHA and State Plans. OSHA has not conducted a cost-benefit 
analysis due to the wide disparity among the various State Plans as 
well as between the State and Federal programs. The differences among 
the various approved State plans would make a cost-benefit analysis 
very difficult to construct. Further, the results of such a study would 
be of limited value given the difficulty in assessing and interpreting 
the different State and Federal approaches with any reasonable or 
meaningful degree of validity. It is clear, however, that Federal 
penalties far exceed those remitted in the States while the number of 
State inspections and violations issued are greater than those shown in 
the Federal data.

                         FISCAL YEAR 2003-FISCAL YEAR 2007 FEDERAL OSHA ENFORCEMENT DATA
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year
        Federal data only        -------------------------------------------------------------------------------
                                       2003            2004            2005            2006            2007
----------------------------------------------------------------------------------------------------------------
Total inspections conducted.....          39,931          38,286          38,828          38,604          39,400
Total violations issued.........          82,422          85,586          84,266          82 909          88,170
Total penalties remitted........     $59,557,998     $59,765,326     $80,533,951     $61,146,763     $56,708,502
----------------------------------------------------------------------------------------------------------------


                    FISCAL YEAR 2003-FISCAL YEAR 2007 18(b) STATE PLAN OSHA ENFORCEMENT DATA
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year
   18(b) state plan data only    -------------------------------------------------------------------------------
                                       2003            2004            2005            2006            2007
----------------------------------------------------------------------------------------------------------------
Total inspections conducted.....          60,868          58,990          57,481          58,567          51,545
Total violations issued.........         138,293         132,263         126,097         125,753         124,429
Total penalties remitted........     $36,833,975     $36,243,306     $33,291,121     $31,171,361     $25,342,236
----------------------------------------------------------------------------------------------------------------

                        family and medical leave
    Question. Working families continue to face more and more 
challenges when it comes to balancing the needs of work and home. 
Fifteen years ago, Congress recognized a need to protect a worker's 
right to job-protected leave and did so by enacting the Family and 
Medical Leave Act of 1993. Since then, we know that more than 60 
million people have benefited from this law, enabling them to care for 
their families or their own medical needs without the fear of losing 
their jobs.
    Despite this fact, earlier this year, the Department proposed 
sweeping changes to the act in an administrative rule change. I joined 
a number of my colleagues from both Chambers in expressing our concern 
that collectively, these rule changes unnecessarily restrict a worker's 
access to their job protected leave and they upset the delicate balance 
between employers and employees carefully established in the original 
act. I believe that we should be proactively looking to expand FMLA to 
help working families better balance the needs of home and work, not 
restricting it even further.
    I am most concerned that the Department proposed these changes 
without current, sound, and objective data to justify them. In fact, 
the last comprehensive survey completed by the Department was 8 years 
ago.
    What prompted the Department to propose these sweeping changes 
without first conducting a comprehensive survey as many of us 
recommended in our response to last year's Request for Information?
    Answer. The proposed changes are based on a careful examination of 
the Department's experience of nearly 15 years administering the law, 
several U.S. Supreme Court and lower court rulings on the FMLA, 
enactment of the new military caregiver leave provisions (Public Law 
110-181), and the more than 15,000 public comments the Department 
received from workers, employers, health care providers, and other 
stakeholders in response to a Request for Information that was 
published on December 1, 2006.
    Question. Will you commit to conducting such a survey before 
implementing final rule changes? If not, why?
    Answer. In response to the RFI, the Department received a 
significant amount of data on FMLA leave usage. The RFI was a useful 
information collection method that yielded a wide variety of objective 
survey data and research, as well as a considerable amount of company-
specific data and information from employers, both large and small, in 
a wide variety of industries.
    As explained in the RFI Report, despite the criticisms and 
limitations of the 2000 Westat Report, the Department believes that it 
provides a great deal of useful information and data on FMLA leave-
takers. Moreover, the Department has significantly supplemented and 
updated its knowledge of the impacts of FMLA leave, particularly 
intermittent FMLA leave based upon the information received in response 
to the RFI.
    The targeted updates in the proposed rule are well-supported by the 
available data, the Department's enforcement experience, case law 
developments, and the more than 15,000 public comments the Department 
received from workers, employers, health care providers, and other 
stakeholders in response to a Request for Information that was 
published on December 1, 2006.
    Question. During your tenure as Secretary, what proactive steps 
have you taken to expand job protected leave for workers?
    Answer. The Wage and Hour Division employs complementary 
strategies--enforcement, compliance assistance, and partnerships--to 
promote compliance with the FMLA by covered employers.
                        office of apprenticeship
    Question. In December 2007, the Department of Labor issued a Notice 
of Proposed Rulemaking to update the regulations for the National 
Apprenticeship Act of 1937. I heard from a number of organizations in 
my home State that these proposed changes would reduce the 
effectiveness and weaken the high standards that the Washington State's 
Apprenticeship Council has maintained since its establishment in 1939. 
Washington's apprenticeship programs have developed safety and training 
standards that are a model for other States. In March of this year I 
joined many of my congressional colleagues from Washington State in 
sending a letter to your agency, detailing our concerns about your 
proposal and the negative effect it will have on our State's 
apprenticeship programs. What prompted the department to propose these 
changes?
    Answer. The main impetus for updating the regulations was to 
develop a more flexible, adaptive and responsive national 
apprenticeship system that could continue to be strong and relevant in 
the 21st century. The existing regulations were originally published in 
1977 and have not been revised in 30 years. These regulations have not 
kept pace with the changing work environment, technology, or the rise 
of the global economy. Many of the changes defined and clarified in the 
Notice of Proposed Rulemaking were, in fact, already put into effect 
administratively because the existing rule was silent on the subjects. 
Additionally, many of the changes are intended to provide the kind of 
flexibility needed to serve the demands of industries that have not 
traditionally used, but could benefit from, the registered 
apprenticeship model. Finally, the proposed regulations ensure that 
registered apprenticeship keeps pace with technological changes, 
particularly in the delivery of related technical instruction.
    The Advisory Committee on Apprenticeship, which consists of equal 
representation from employers, labor, and the public sector, 
contributed to the development of the proposed regulatory framework 
that will align registered apprenticeship with the realities of the 
21st century economy and changes in the workplace. Throughout the 
development of the proposed revisions, the Department has focused on 
maintaining the integrity of the key components of registered 
apprenticeship that have made it such a successful and useful model for 
addressing the needs of industries and employers that have sponsored 
registered apprenticeship programs for many decades. These key 
components are on-the-job learning, related instruction, incremental 
wage increases, and mentoring.
    Question. Who if any stakeholders expressed concern about the 
current regulations?
    Answer. Over the past several years, the Department received 
numerous concerns from employers, employer associations, and labor 
organizations about the existing regulations. Many of these concerns 
are reflected in our purposes for updating the regulations, including 
the need for improved accountability, opportunities to incorporate 
technological advances, and more flexible options for program sponsors 
and apprentices. Additionally, concerns arose from the need to develop 
consistency for the registration of programs across the national 
apprenticeship system. Finally, many stakeholders, including labor 
unions, as well as oversight entities, including the Office of 
Management Budget and the Government Accountability Office, have 
asserted that the Department should strengthen accountability for 
quality and successful outcomes across all registered apprenticeship 
programs.
    Question. What exactly does the agency hope to accomplish with 
these proposed changes?
    Answer. With the proposed changes, registered apprenticeship will 
have the regulatory framework to: (1) continue to expand into new 
industries and occupations that are critical to maintaining a globally 
competitive workforce, (2) strengthen outcomes through an emphasis on 
program quality and accountability for all program sponsors, and (3) 
accommodate for technological advances in delivery of related technical 
instruction.
    Any and all proposed changes to the regulatory framework remain 
rooted in the fundamental tenants of the National Apprenticeship Act, 
which authorizes the Secretary of Labor to ``formulate and promote the 
furtherance of labor standards necessary to safeguard the welfare of 
apprentices.'' These changes also maintain the integrity of the 
original regulatory framework developed for industries that created and 
sustained the American apprenticeship system, particularly those in the 
construction and manufacturing industries.
             reauthorization of trade adjustment assistance
    Question. The Department of Labor's Trade Adjustment Assistance 
program provided critical assistance to hundreds of thousands of 
workers who have lost their jobs due to increased imports and offshore 
shifts in production for more than 40 years. The program's 
authorization expired at the end of 2007, but assistance continues to 
be provided until Congress funding runs out at the end of fiscal year 
2008. TAA could cease to exist in just 4 months.
    What specific steps does the administration intend to take in order 
to reauthorize TAA by 10/1/08?
    Answer. The administration strongly supports Trade Adjustment 
Assistance (TAA) reauthorization that includes needed reforms to help 
workers adversely impacted by trade access the training and re-
employment services they need to return to work quickly. The 
administration will continue to work with Congress to make TAA a more 
flexible and beneficial program for workers.
    Question. I am working closely with Senator Max Baucus to not only 
reauthorize the program, but to also improve access to training and 
make assistance more accessible and flexible.
    Please provide your comments on the various proposals included in 
Senator Baucus' legislation?
    Answer. The administration has not taken positions on specific 
proposals in S. 1848.
    Question. One of the glaring holes in the program is that all 
trade-impacted service workers are not currently eligible for 
assistance. How does the administration propose to fix this problem? 
What other proposals might the administration put forward to ensure 
that TAA provides adequate assistance to all eligible workers?
    Answer. The administration believes there are several flaws in the 
Trade Adjustment Assistance (TAA) program as it is currently designed. 
These flaws include: (1) TAA is an ``all or nothing'' program, where 
participants lose access to benefits by choosing to return to work; (2) 
Training options are limited and the process of applying for training 
is lengthy and bureaucratic; (3) Services cannot be provided until 
after the worker is laid off, even when the layoff is announced well in 
advance; and (4) There is no requirement that ``wrap-around'' services, 
such as career counseling, assessment and job placement assistance, are 
to be provided.
    The administration believes any reauthorization of the TAA program 
should reflect the following priorities: (1) Workers must have 
increased choice to combine employment with training and ``earn while 
they learn;'' (2) Training options should be flexible and easy to 
access; (3) Services should be available prior to layoff, in order to 
reduce the length of time workers are unemployed; and (4) Integration 
with the public workforce investment system should be improved to 
ensure workers have access to the full range of services available 
through the One-Stop Career Centers.
        employment services to unemployment insurance claimants
    Question. The public Employment Service serves Unemployment 
Insurance claimants. Employers pay for the administration of Employment 
Service in part because they assume that workers receiving UI will seek 
new jobs. From August 2006 through September 2007, about 4.5 million 
individuals received services under both the unemployment insurance and 
employment service.
    What are your plans for serving these UI claimants when there is no 
Employment Service under your 2009 budget proposal?
    Answer. Under the fiscal year 2009 budget proposal, Unemployment 
Insurance (UI) claimants would receive employment services through the 
Workforce Investment Act (WIA) One-Stop Career Center system. We 
propose to consolidate the Employment Service and WIA Adult, Dislocated 
Worker, and Youth funding streams into a single funding stream to be 
used for Career Advancement Accounts and employment services. It is 
estimated that 600,000 individuals would receive training and an 
additional 10.4 million individuals, including UI claimants, would 
receive other employment services under this approach.
                                 ______
                                 
              Questions Submitted by Senator Arlen Specter
                               mentoring
    Question. Secretary Chao, the statistics on youth violence are 
staggering. Philadelphia has the fifth highest homicide rate of all 
major U.S. cities, and juveniles account for 38.5 percent of all 
arrests in Philadelphia County. To help address this issue, in fiscal 
year 2007, I included $25 million within your Department for grants to 
school districts to discourage youth in high-crime urban areas from 
involvement in gangs. In fiscal year 2008, $50 million was included for 
persistently dangerous schools. Madame Secretary, I believe mentoring 
is one of the answers to this Nation's youth violence problem. What 
more can be done by your Department to address the crime and violence 
problems facing many of our Nation's youth?
    Answer. The Department of Labor will continue to work closely with 
the Department of Justice and its Office of Juvenile Justice and 
Delinquency Prevention (OJJDP) in the coordination of resources and 
activities that address the crime and violence young people face. 
Specifically, the Department anticipates working closely with OJJDP on 
its current Solicitation for Grant Applications, which focuses on gang 
prevention and coordination assistance.
    The Department will also continue its efforts to fully integrate 
mentoring strategies in existing and new projects. This includes the 
Department's current focus on school districts and the discouragement 
of youth involvement in gangs. The Department is presently making a 
concerted effort to ensure that existing apprenticeship, alternative 
education, and expansion projects incorporate mentoring as a key 
component in program design and service delivery.
    Planned grant solicitations, such as those that focus on 
persistently dangerous schools, will have a required mentoring 
component for which extensive technical assistance will be provided. 
The Department also anticipates an opportunity to prepare and 
distribute to the public workforce investment system a ``Mentoring'' 
Training and Employment Notice that will highlight the importance and 
positive impact of mentoring that, together with other proven models of 
success, will foster desired employment outcomes. Lastly, the 
Department will continue its support and active involvement in the 
Federal Mentoring Council and its focus on foster youth, continue the 
involvement of Federal staff in direct mentoring activities, and 
include mentoring as an expressly allowable activity within the 
Department's grant solicitations.
             elimination of employment service state grants
    Question. The budget proposes to eliminate the $703.4 million 
employment service State grant program. Your rationale for this 
decision is that it is duplicative of Workforce Investment Grants 
(WIA). The number of people served by the Employment Service is 13 
million annually. WIA grants service 900,000. How do you plan to serve 
the 12 million people who would be receiving services under the 
Employment Service grants?
    Answer. The fiscal year 2009 budget proposes to consolidate the 
Employment Service and the Workforce Investment Act (WIA) Adult, 
Dislocated Worker, and Youth funding streams into a single funding 
stream to be used for Career Advancement Accounts and employment 
services. It is estimated that 600,000 individuals would receive 
training and an additional 10.4 million individuals would receive other 
employment services under this approach.
    Our workforce system reform proposals will allow us to 
significantly increase the number of people trained. Therefore, many 
participants who would have been previously constrained to employment 
services due to the limited availability of training will be able to 
continue their professional development and acquire the skills and 
abilities sought by employers. Additionally, the labor exchange 
services traditionally provided by the employment service, such as 
resume posting and job search assistance, have largely been privatized 
and job seekers now have free access to Internet job boards that allow 
them to search for jobs and often post their resumes. While we believe 
there is an important role for the workforce system to play in 
providing employment services, these services should be provided 
exclusively through the One-Stop Career Centers.
            employment and training services in pennsylvania
    Question. Pennsylvania State officials claim that the Employment 
Service and the Workforce Investment Act programs are not duplicative 
and that eliminating these funds will cut staff and resources that make 
up at least half of the one-stop system in Pennsylvania. Officials also 
claim that almost no training will occur, that critical career 
counseling will be unavailable, and efforts to help veterans with 
specialized veterans counselors in the Employment Service will be hurt. 
What is your response to these claims Madame Secretary?
    Answer. The fiscal year 2009 budget proposes to consolidate the 
Employment Service and the Workforce Investment Act (WIA) Adult, 
Dislocated Worker, and Youth funding streams into a single funding 
stream to be used for Career Advancement Accounts and employment 
services. In addition to eliminating the duplication between the 
Employment Service and WIA One-Stop delivery system that still exists 
in a number of States, it would replace the current siloed system of 
separate training programs, reduce administrative and overhead costs, 
and, most importantly, significantly increase the number of individuals 
who receive job training.
    We disagree with the statement by Pennsylvania officials that 
almost no training would occur. Our proposed reforms to the public 
workforce investment system will ensure that 600,000 individuals 
receive training nationally at the requested funding level for fiscal 
year 2009, three times the current number. An additional 10.4 million 
individuals will receive other employment services, such as career 
counseling. Current law provisions relating to services to veterans 
will continue to apply, except that those services will be provided 
through the VETS-funded and WIA-funded services offered in the One-Stop 
Career Centers.
                          office of job corps
    Question. The budget proposes to cut the Job Corps program by $45.8 
million. The cut would result in 4,097 fewer student training slots 
than in 2008, a reduction of 9.2 percent. Do you plan to close any of 
the existing 123 Job Corps centers or to operate them below capacity?
    Answer. Job Corps does not intend to close any of the existing 123 
centers. At the President's fiscal year 2009 budget level Job Corps 
will be able to support 40,394 student slots.
    Question. If Congress were to provide funding to fully utilize the 
capacity of Job Corps centers, how would you improve recruitment aimed 
at a segment of the 1 million youth who drop out of high school each 
year?
    Answer. Job Corps will continue its outreach and recruitment 
efforts through our national campaign, consolidated outreach and 
recruitment plan and continued collaboration with high school 
counselors and local school districts. Job Corps is also placing 
greater emphasis on expanding the use of technology to promote the 
program such as the implementation of a National Job Corps recruitment 
website including an online application, as well as the using You Tube 
and other Web based portals for program promotion campaigns.
    Question. Each year 1.2 million youth drop out of high school. We 
need to do all we can to find new programs and expand existing program, 
such as Job Corps to address this problem. Your budget would result in 
a substantial reduction in Job Corps capacity. Our Nation's dropout 
statistics disprove your assertion before the House that there is 
insufficient demand or need for the program. Why do you continue to 
propose reducing Job Corps' capacity?
    Answer. Maintaining enrollment levels is always a top priority for 
the Office of Job Corps. The Department is not reducing capacity, 
rather we are no longer allocating funding for training slots which do 
not have participants. In doing so, we maintain the funding for student 
activities in those training slots that do have participants and more 
closely align with the consistent level of on-board strength in the 
program.

                                     JOB CORPS OBS DATA PY 2003-2007 YTD \1\
----------------------------------------------------------------------------------------------------------------
                                                           Program year
                                 ----------------------------------------------------------------   Current OBS
                                       2003            2004            2005            2006
----------------------------------------------------------------------------------------------------------------
Average on board strength.......          43,178          42,441          40,760          40,512          40,569
----------------------------------------------------------------------------------------------------------------
\1\ Program Year (July 1-June 30).

    Question. Historically, the Department of Labor has always been 
able to implement national plans that boosts Job Corps enrollment. Two 
years ago we requested that you submit a national plan to the 
subcommittee. To date, no such plan has been received. When can we 
expect to receive this plan?
    Answer. Job Corps submitted the plan to Congress on May 20, 2008. 
This reflects the consistent message that Job Corps has provided to 
Congress over the past 2 years through numerous means to include formal 
hearings and questions from the committees. This message communicates a 
comprehensive enrollment plan which includes a consolidated outreach 
and recruitment strategy implemented in 2006, the Speakers, Tutors 
Achievement and Success (STARS) program and Career Success Standards in 
2007 as well the Youth Ambassador Program and a pre-enrollment drug 
test pilot. This comprehensive plan is designed to not only boost 
enrollment but improve student commitment and retention.
                             osha penalties
    Question. A recent report by the Senate Health, Education, Labor 
and Pensions Committee showed that the median final OSHA penalty in 
cases where workers are killed is only $3,675. Many companies treat 
such low penalties as just the cost of doing business. Would you agree 
that corporate accountability is enhanced when OSHA imposes meaningful 
penalties for serious safety and health violations?
    Answer. OSHA agrees that employer accountability is enhanced when 
meaningful penalties are imposed for serious safety and health 
violations. However, OSHA does not agree with the HELP Committee's 
conclusion that the median penalty is the most appropriate measurement 
of penalties. Using the same data provided to the HELP Committee, and 
using only closed fatality investigations, which by definition are 
those investigations where citations have been issued and final payment 
made, the average penalty per fatality investigation is actually 
$6,035. More importantly, it should be noted that 62 percent of OSHA 
fatality investigations between 2004 and 2007 were conducted at 
companies with fewer than 25 employees, where penalties must 
statutorily be adjusted based on the employer's size. In fiscal year 
2007, OSHA's significant enforcement actions included more than 100 
inspections that each resulted in a total proposed monetary penalty of 
over $100,000.
    When proposing penalties for violations, the Occupational Safety 
and Health (OSH) Act requires the agency to take into consideration: 
(1) the gravity of the alleged violation, (2) the size of the 
employer's business, (3) the good faith of the employer, and (4) the 
employer's history of previous violations. Proposed penalties are 
calculated for each violation, with the initial statutory penalties 
adjusted based on these statutory factors. The act does not provide for 
enhanced civil penalty amounts for an employee fatality, except to the 
extent the statutory factors address the factors contributing to the 
accident. Moreover, even where violations are found in fatality 
investigations, those violations may not have contributed to the 
fatality.
                         criminal prosecutions
    Question. There is essentially no criminal enforcement of our 
Nation's safety and health laws. In the past 5 years, there have been 
only 10 prosecutions under the Occupational Safety and Health Act and 
only 68 cases in the entire 38-year history of the OSHA. What role do 
you think criminal prosecutions should play in enforcing the law? Do 
you think 10 prosecutions in 5 years or 68 cases in almost 40 years is 
enough to have a deterrent effect on employers who don't take their 
workers' safety and health seriously?
    Answer. OSHA believes that criminal prosecutions are a vital 
enforcement tool and provide a powerful deterrent effect for employers 
who do not take their workers' safety and health seriously and show 
indifference to compliance with workplace safety and health 
regulations.
    Since the passage of the OSH Act in 1970, OSHA has referred 210 
cases to the Department of Justice for consideration of criminal 
prosecution. This administration has referred 65 OSHA cases to the 
Department of Justice since 2001--31 percent of all criminal referrals 
made by OSHA and more than any other administration. The Department of 
Justice's decisions on whether to prosecute these cases reflect its own 
further evaluations of the evidence and other appropriate issues.
    The primary criminal provision in the Occupational Safety and 
Health Act is section 17(e), which makes it a misdemeanor for an 
employer to willfully violate a standard that causes the death of any 
employee. It is the Department of Labor's policy to evaluate all 
willful OSHA violations that contribute to workplace fatalities for 
potential referral to the Department of Justice for prosecution. The 
Department's Office of the Solicitor has issued specific instructions 
to its attorneys to evaluate all such cases for criminal referral.
                 mine safety and health administration
    Question. Report by the U.S. Department of Labor, Office of 
Inspector General, Office of Audit: On March 31, 2008, the OIG issued 
their report regarding MSHA's roof control plan approval process for 
the Crandall Canyon Mine, which concluded that ``MSHA was negligent in 
carrying out its responsibility to protect the safety of miners.'' 
Specifically:
  --MSHA could not show that it made the right decision in approving 
        the [roof control] plan or that the process was free from undue 
        influence by the mine operator.
  --MSHA did not have a rigorous, transparent review and approval 
        process for roof control plans consisting of explicit criteria 
        and plan evaluation factors, appropriate documentation, and 
        active oversight and supervision by Headquarters and District 9 
        management.
  --MSHA did not ensure that inspections assessed compliance with, and 
        the effectiveness of, approved plans in continuing to protect 
        miners.
  --Finally, requirements related to surface rescue operations and non-
        rescue activities need to be clarified.
    Answer. That while the report ``points to several shortcomings in 
MSHA's documentation . . . and identified missed opportunities to 
proactively enhance safety protections,'' it ``does not provide 
evidence that MSHA negligently breached its duty to protect miners''.
    Question. Madame Secretary, the report found serious deficiencies 
in the review and approval of the Crandall mine plan--can you assure me 
that MSHA is taking all steps necessary to make sure that no other 
unsafe mining plans have been approved by this deficient process? 
Please provide the subcommittee a list of the safeguards that you have 
implemented regarding the approval of mine plans.
    Answer. In response to improving the roof control plan approval 
process, MSHA has conducted specialized training and has taken specific 
actions, as described below.
  --An evaluation was made of all underground coal mines in the United 
        States to identify mines that may have a ``bump'' or ``burst'' 
        potential. This initiative began in late August 2007 and was 
        completed in December 2007. Seventeen mines were identified. 
        Each one of these mines has been visited by MSHA's Technical 
        Support roof control experts and reports have been submitted to 
        Coal Mine Safety and Health (CMS&H). MSHA will revise the roof 
        control plans accordingly, as well as requesting for Technical 
        Support to review select plans at mines with bump potential.
  --MSHA roof control supervisors and specialists received additional 
        training on various computer modeling software that can be used 
        to evaluate complex and non-typical roof control plan 
        proposals.
  --A Program Information Bulletin (PIB) was recently issued by MSHA 
        providing guidance on the proper use of the National Institute 
        for Occupational Safety and Health's (NIOSH) Analysis of 
        Retreat Mining Pillar Stability (ARMPS) program. The PIB alerts 
        the mining community about the availability of an updated 
        version of the program.
  --A list of Best Practices addressing ``Ground Control for Deep Cover 
        Coal Mines'' was developed. The Best Practices, which covered 
        topics such as geology, pillar design, multiple seam mining, 
        and retreat mining, were posted on MSHA's website, 
        www.msha.gov.
  --MSHA and the Bureau of Land Management developed a Memorandum of 
        Understanding to facilitate communication and information 
        sharing about geological conditions or mining practices that 
        impact the health and safety of miners.
  --MSHA and NIOSH technical experts in roof control are working 
        together to develop safer retreat mining guidelines. (see 
        addendum below on MSHA/NIOSH Cooperation on Retreat Mining)
  --A Procedure Instructional Letter has been issued that provides 
        uniform guidance to CMS&H Districts on which roof control plans 
        are to be sent to MSHA's Technical Support for further review.
    In addition, MSHA developed the following procedures, which were 
sent to the District Managers on June 6, 2008, with a memorandum from 
the Administrator for CMS&H describing each procedure and its intended 
use:
    New procedures:
  --Roof Control Plan Approval Process.--Incorporates the specific 
        steps involved in the plan approval review process, and 
        identifies the responsible parties for each step. Responsible 
        parties include the roof control specialist and supervisor, 
        mine inspector and supervisor, Assistant District Manager for 
        technical programs, Assistant District Manager for enforcement, 
        and the District Manager. Each of the MSHA personnel reviewing 
        the plan must initial approval/concurrence, and any identified 
        deficiencies must be addressed.
  --Roof Control Plan Review Form Checklist.--Ensures that review items 
        are included in the plan, such as: detailed accident and injury 
        data, violation history, requirements of Title 30 CFR sections 
        75.204, 75.215, 75.221, and 75.222, software applications 
        related to development, and/or retreat stability factors.
  --General Safety Precautions Checklist.--Addresses Automated 
        Temporary Roof Support systems, removal of loose material, 
        installation of timbers, adverse roof conditions, temporary 
        supports, continuous mining machine breakdown in unsupported 
        area, remote control operation, and distance for first coal 
        mined out of crosscuts. A ``breakdown in an unsupported area'' 
        occurs when a continuous miner begins mining, advances into the 
        coal seam and breaks down. There is no roof support in this 
        area thus is considered an unsupported area. Mining machines 
        are now equipped with a remote control feature that allows the 
        miner to remotely operate the machine from a safe distance. 
        This document will supplement the Roof Control Plan where 
        applicable.
  --Retreat Mining Precautions Checklist.--Addresses intersection 
        supplemental support, marking pillar cut locations, certified 
        person on working section, equipment operator positioning, 
        training, drilled test holes, and pillar extraction sequence. A 
        certified person is someone who has received additional 
        training and received a certification by the State in which 
        they are working. The concept in this case would be that a 
        certified person would be better trained to determine the 
        adequacy of the roof and make a determination if supplemental 
        support would be needed. This document will supplement the Roof 
        Control Plan where applicable.
  --Mobile Roof Support Checklist.--Addresses safety items directly 
        related to the use of Mobile Roof Support (MRS) units during 
        retreat mining. Some of the items addressed are training, 
        operator positioning, manual and remote operation, procedural 
        limits for lowering and setting MRS, pressure gauges and 
        lights, and breakaway cable hangers. This document will 
        supplement the Roof Control Plan where applicable.
  --Deep Cut Safety Precaution Checklist.--Specific to extended cuts of 
        up to 40 feet in depth. Some of the precautions include place 
        changing, operator positioning, time allotment for unsupported 
        cut, reflective markers on second full row of roof bolts, and 
        conspicuous marking on the continuous miner to indicate depth 
        of cut. This document will supplement the Roof Control Plan 
        where applicable.
  --A memorandum has been sent to the District Managers from the 
        Administrator for CMS&H stating that all complex and non-
        typical roof control plans proposed by mine operators shall 
        contain an assessment of the basis on which the operator has 
        determined the plan is appropriate and suitable to the mining 
        conditions. Data and engineering evaluations shall be included 
        with the assessment. MSHA shall not approve the proposed plan 
        until the operator has provided the data and evaluation 
        supporting the proposal and a confirming evaluation(s) have 
        been completed. On June 3, 2008, a letter was sent from the 
        Administrator to all underground coal mine operators of MSHA's 
        intentions pertaining to complex and non-typical roof control 
        plans.
           addendum--msha/niosh cooperation on retreat mining
    NIOSH and MSHA Technical Support are working together to improve 
safety for miners working in retreat mining operations. In response to 
language in its fiscal year 2008 budget allocation, NIOSH is 
conducting, in collaboration with the University of Utah and West 
Virginia University, a major study of the recovery of coal pillars 
through retreat room and pillar mining practices in underground coal 
mines. The study is focusing on mines operating at depths greater than 
1,500 feet, but it will address issues that are important to all 
retreat mining operations. This report will be delivered by December 
31, 2009, and will include:
  --A detailed description of the retreat mining segment of the 
        industry, including the geologic conditions encountered and the 
        mining practices employed;
  --Suggested guidelines for maintaining global stability during 
        retreat mining through proper design of production and barrier 
        pillars. The appropriate use of ARMPS, additional computer-
        modeling software known as LAMODEL, and other pillar design 
        tools will be covered in detail, as well as specific designs to 
        minimize the risk of bumps;
  --Suggested best practices and procedures to ensure local stability 
        during retreat mining, including cut sequence, roof support, 
        and the application of seismic monitoring, and;
  --Remaining research needed to develop improved technologies to 
        protect miners during deep cover retreat mining.
    MSHA and NIOSH have established a Working Group, consisting of 
ground control experts from both agencies, to review progress on the 
NIOSH project and facilitate transfer of information on retreat mining. 
Personnel from MSHA in Technical Support's Pittsburgh Safety and Health 
Technology Center's Roof Control Division (RCD) will participate in the 
MSHA/NIOSH Working Group on retreat mining. RCD personnel will review 
progress on the NIOSH project and facilitate transfer of information on 
retreat mining. Based on the findings of the NIOSH project, the Working 
Group will develop recommendations for establishing methods, 
requirements, and parameters for technical analyses of retreat mining 
plans.
    Although a project of this scope requires 2 years for completion, 
RCD's involvement will assure that significant interim results and 
conclusions of immediate benefit to miner safety are made available to 
MSHA enforcement personnel and the mining industry as quickly as 
possible.
    Also, RCD, in collaboration with NIOSH, previously developed a 
pillar recovery risk factor checklist which was published in a December 
2005 technical paper. The checklist can be used by MSHA Districts and 
the mining industry to identify potential problems for specific retreat 
mining plans. The risk factors listed on the checklist include: 
production pillar design, barrier pillar design, final pillar stump 
design, mobile roof supports, supplemental roof support, geologic 
hazards, equipment operator locations, intersection spans, multiple 
seam interaction, depth of cover, age of mine workings, and type of 
coal haulage system.
                                 ______
                                 
             Questions Submitted by Senator Larry E. Craig
             labor-management reporting and disclosure act
    Question. Until last year the Office of Labor-Management Standards 
(OLMS) has received steady increases in funding from this committee. I 
am supportive of the mission of OLMS to ensure that union funds are 
being handled in a responsible way. What results can you cite that 
would support your fiscal year 2009 request to increase funding for 
OLMS?
    Answer. OLMS has responsibility for enforcement of the Labor-
Management Reporting and Disclosure Act (LMRDA) of 1959. After years of 
inadequate funding to carry out this mission effectively, we have 
requested resources to re-establish an effective program to ensure 
union financial integrity and compliance with the LMRDA.
    OLMS' union audit program verifies compliance with the law, 
investigates potential violations and allows OLMS to provide compliance 
assistance to help unions meet statutory requirements. The audit 
program had substantially waned since the mid-1980s because of the 
steady erosion of resources. For example, in 2000, OLMS was able to 
perform only 204 audits for out of well over 20,000 unions, which was 
the equivalent of a union being audited once every 133 years. With 
gradual funding increases for the audit program until fiscal year 2008, 
the number of audits rose from 238 in 2001 to 775 in 2007--an increase 
of 226 percent.
    The additional resources also have supported investigations into 
criminal activity. During fiscal year 2007, OLMS secured 100 
indictments and 118 convictions against union officials and related 
parties for crimes, such as fraud and embezzlement. Since 2001, OLMS 
investigations have yielded a total of 842 indictments with 802 
convictions and returned more than $88,000,000 in restitution to rank-
and-file union members. In cases of organized crime and labor 
racketeering, OLMS has referred cases to the Office of Inspector 
General (OIG) and has worked cooperatively with the OIG on a number of 
successful investigations, some of which are described in the Inspector 
General's semi-annual report.
    It is clear that providing OLMS with appropriate resources yields 
results for rank-and-file union members. The program results from 
fiscal year 1998 to fiscal year 2007 are set forth below.

----------------------------------------------------------------------------------------------------------------
                                                                         Fiscal year
                                           ---------------------------------------------------------------------
                                             1998   1999   2000   2001   2002   2003   2004   2005   2006   2007
----------------------------------------------------------------------------------------------------------------
Actual FTE usage..........................    289    287    274    290    260    262    290    314    327    331
Compliance audits.........................    302    289    204    238    277    255    532    612    736    775
Criminal cases processed..................    367    386    464    371    410    317    303    332    340    406
Indictments...............................    143    119    204     99    166    131    110    115    121    100
Convictions...............................    130    131    191    102     89    152    111     97    133    118
Compliance audits.........................    302    289    204    238    277    255    532    612    737    775
International compliance audits...........  .....  .....      4      1      2  .....      1      7      5      7
----------------------------------------------------------------------------------------------------------------

    A recent example of OLMS's work can be seen in a case starting in 
2006 when a compliance audit by the OLMS Detroit District Office of 
Steelworkers Local 1358 revealed that, during the period from November 
1999 through July 2006, the Secretary-Treasurer had embezzled a total 
of $274,262.38 from Local 1358 by cashing checks to himself. He forged 
the signature of another officer to further his scheme, created false 
union records, and destroyed union records to conceal his embezzlement. 
In addition, he caused the union to file false LM reports by omitting 
the embezzled amounts when he prepared the reports. On July 11, 2007, 
he pled guilty to one count of embezzling union funds. He made 
restitution of $128,438.46 prior to the discovery of the embezzlement, 
resulting in a net loss to the local of $145,823.92. On November 14, 
2007, he was sentenced to 24 months in prison and 2 years of supervised 
release. He was ordered to pay restitution of $145,823.92 and a special 
assessment of $100. He was also ordered to participate in the Bureau of 
Prisons Inmate Financial Responsibility Program.
    Another example of OLMS's compliance audit program concerns the 
2007 audit of the Federated Independent Texas Union Local 900 in Fort 
Worth. Based on issues raised during this audit, OLMS opened a criminal 
investigation into a potential embezzlement. Subpoenaed bank records 
revealed that 63 union checks, endorsed by the then-treasurer, had been 
deposited into her personal bank accounts. The treasurer also made 
withdrawals of union funds amounting to $35,850 for personal use. The 
treasurer pled guilty before trial to one count of embezzlement of 
union funds totaling $164,268.
    Since 2001, the Department has also worked to improve the 
enforcement of the LMRDA by updating the 40-year-old financial 
disclosure forms required by the law. With the first significant update 
of the annual union financial disclosure report used by the Nation's 
largest unions (Form LM-2) in over 40 years, the Department increased 
the usefulness of the Form LM-2 and empowered rank-and-file union 
members to easily access clear and concise information on how their 
dues money is spent and on the financial condition of their unions. 
Although the reforms were challenged in court, they were upheld in a 
significant U.S. District Court decision and affirmed in large part by 
the U.S. Court of Appeals for the D.C. Circuit.
    OLMS has also updated Form LM-30, the report filed by union 
officers and employees to disclose possible conflicts of interest 
between their personal financial interests and their duty to the union 
and its members, and has stepped up compliance with Form LM-10 Employer 
Report filing requirements.
    In order to provide rank and file union members with better 
accountability and transparency, OLMS has established a public 
disclosure Web site at www.unionreports.gov. This Web site contains 
union annual financial disclosure reports and reports required to be 
filed by employers, labor relations consultants, and union officers and 
employees, as well as copies of collective bargaining agreements.
    The OLMS 2007 Annual Report can be found at the following website: 
www.dol.gov/esa/olms/regs/compliance/highlights_07.pdf.
              senior community service employment program
    Question. Your fiscal year 2009 request for the Senior Community 
Service Employment Program (SCSEP) is the same as the amount 
appropriated in fiscal year 2008. In your testimony you cited the 
ineffective rating that this program received by the Program Assessment 
Rating Tool (PART). What steps are being taken to improve the 
efficiency of SCSEP?
    Answer. Although the 2003 PART evaluation gave the Senior Community 
Service Employment Program (SCSEP) an ineffective rating, the 
Department has actively addressed deficiencies identified by that 
evaluation through several administrative actions and the 2006 
reauthorization of the Older Americans Act. The deficiencies included 
inadequate competition in the grants process, lack of data on program 
performance and impact, and duplication of other Federal programs. 
Program improvements since the 2003 evaluation include:
  --Development of a comprehensive on-line data collection and 
        performance management system (known as SPARQ).
  --Completion of three competitions, including one for national 
        grantees (which account for 78 percent of all SCSEP participant 
        positions); one for grants to create employment opportunities 
        with private businesses; and one for pilot and demonstration 
        grants.
  --Provision of extensive technical assistance and training for all 
        grantees on programmatic, fiscal, and performance issues.
  --Improved grantee planning instructions on collaboration and 
        coordination with other entities to minimize duplication and to 
        allow SCSEP to serve those with the more significant barriers 
        to employment.

                          SUBCOMMITTEE RECESS

    Senator Harkin. Well, thank you, Madam Secretary. You are 
very generous with your time. I appreciate it very much.
    The subcommittee will stand in recess.
    [Whereupon, at 11:38 a.m., Wednesday, May 7, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
